<html>
<title> - SEXUAL ASSAULT ON CAMPUS: WORKING TO ENSURE STUDENT SAFETY</title>
<body><pre>[Senate Hearing 113-840]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-840

       SEXUAL ASSAULT ON CAMPUS: WORKING TO ENSURE STUDENT SAFETY

=======================================================================

                                 HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING SEXUAL ASSAULT ON CAMPUS, FOCUSING ON WORKING TO ENSURE 
                             STUDENT SAFETY

                               __________

                             JUNE 26, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                
                                
 
      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE
22-618 PDF                 WASHINGTON : 2017                    

________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  
     
      
      
      COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland			LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington			MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont			RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania		JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina			RAND  PAUL, Kentucky
AL FRANKEN, Minnesota				ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado			PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island		LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin			MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut		TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts
                                       

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

 
 				C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JUNE 26, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    22
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    23
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    26
    Prepared statement...........................................    27
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    28
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    30
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    32

                           Witnesses--Panel I

Lhamon, Catherine, J.D., Assistant Secretary for Civil Rights, 
  U.S. Department of Education, Washington, DC...................     4
    Prepared statement...........................................     7
Moore, James, L. III, Compliance Manager, Clery Act Compliance 
  Division, U.S. Department of Education, Philadelphia, PA.......    12
    Prepared statement...........................................    14

                          Witnesses--Panel II

Renda, Emily, Special Intern, Office of the Vice President and 
  Chief Student Affairs Officer, University of Virginia, 
  Charlottesville, VA............................................    37
    Prepared statement...........................................    39
Kelly, John, Student, Tufts University, Medford, MA..............    44
    Prepared statement...........................................    46
Stapleton, Jane, Co-Director of Prevention Innovations: Research 
  and Practices for Ending Violence Against Women, University of 
  New Hampshire, Durham, NH......................................    50
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Blumenthal...........................................    63
    Senator McCaskill............................................    64
    Jocelyn Samuels, Acting Assistant Attorney General, Civil 
      Rights Division, U.S. Department of Justice................    64
    Letter from American Civil Liberties Union...................    73
    Response by Catherine Lhamon to questions of:
        Senator Alexander........................................    77
        Senator Whitehouse.......................................    79
        Senator Kirk.............................................    82
    Response by James L. Moore III to questions of:
        Senator Alexander........................................    83
        Senator Kirk.............................................    85

                                 (iii)

 
       SEXUAL ASSAULT ON CAMPUS: WORKING TO ENSURE STUDENT SAFETY

                              ----------                              


                        THURSDAY, JUNE 26, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Murray, Casey, Hagan, Whitehouse, 
Baldwin, Murphy, Warren, and Alexander.

                  Opening Statement of Senator Harkin

    The Chairman. Good morning. The Senate Committee on Health, 
Education, Labor, and Pensions will come to order.
    This is the 11th in a series of hearings to inform this 
committee's reauthorization of the Higher Education Act. 
Yesterday I released my opening thoughts on what a 
comprehensive Higher Education Act reauthorization should look 
like. I've asked all stakeholders to submit their thoughts and 
comments on that proposal by the end of the summer. That's 
August 29th. And I plan to continue to add to that proposal, 
and today's hearing will help to determine how best to proceed 
on that very important topic.
    The focus of today's hearing, campus sexual assault, is a 
profoundly important one. Too many students are being assaulted 
on our Nation's college campuses. According to current 
research, an estimated 1 in 5 women are sexually assaulted or 
victims of attempted sexual assault while in college.
    As we will hear today, sexual assault does not just happen 
to women. Approximately 1 in 16 men are victims of completed or 
attempted sexual assault.
    Research also shows that LGBT students, as well as students 
with disabilities, may face a higher risk of sexual assault.
    No student should have to endure something so terrible as 
sexual assault while they are in college, and today we are 
going to hear from the Administration, from survivors and a 
researcher about the work they're all doing to make our college 
campuses safer for everyone.
    This hearing will also explore the Higher Education Act and 
Title IX and how these two laws address issues related to 
campus sexual assault. The Clery Act provisions within HEA, the 
Higher Education Act, play a critical role in ensuring the 
proper reporting of campus sexual assault and that the 
appropriate supports and systems are in place for when these 
assaults occur.
    Title IX, one of our Nation's landmark civil rights laws, 
which celebrated its 42d anniversary just this week, also plays 
a substantial role in ensuring colleges have adequate processes 
in place to quickly and fairly address reports of sexual 
assaults. Title IX is critical to providing survivors with some 
of the supports they need in the aftermath of a sexual assault. 
Today we will hear about the work the Administration is doing 
to ensure that colleges meet their title IX obligations.
    The Clery Act and title IX seek to address these issues in 
different ways, and I appreciate that some colleges are finding 
it challenging to understand their obligations under both Clery 
and title IX. I hope today's hearing will bring to light how we 
can make it easier for colleges to understand their obligations 
under both important laws.
    I will close by saying that this is an issue that has for 
far too long been swept under the rug, been put in the closet 
to try to hide it. We have to address this forthrightly. We 
know it's happening. We're getting more and more data that's 
coming forward. I read the testimonies of the people who are 
testifying today. There is some compelling testimony in there 
in terms of how we need to change some of our systems to bring 
more of this to light, to provide colleges with the kind of 
flexibility that they might need.
    The one thing that came through to me in the testimonies 
that I read last evening more than anything else was that one-
size-does-not-fit-all, that these are not all the same acts. 
They vary in intensity. They vary in approach. They vary in 
victims. They vary in perpetrators. They vary in a lot of 
circumstances. Therefore, perhaps one stringent provision that 
cuts off all aid, all title IV money to a college--which is 
never used, by the way--is not really a deterrent at all.
    So we have to look both for the deterrents, the adequate 
penalties and fines that accrue, setting up structures with 
colleges so that they can prevent this--determines what is the 
best course of action--and to let victims know that they have 
recourse and they have the support systems in place so that 
they can report and bring this to light without the victim 
being a victim twice or three times over.
    I hope that this hearing now will start that process to 
where we can address this adequately in the Higher Education 
Act reauthorization.
    With that, I will turn to Senator Alexander for his opening 
statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Thank you to the witnesses for coming. We look forward to 
your comments.
    I was once a college president. I have had children in 
college, and I went to college myself. We know that's a very 
special experience when you hug your parents goodbye and 
students are turned over to a college campus, and the parents 
are anxious and the students are nervous, and you hope everyone 
is safe and everything is successful. Unfortunately, and the 
focus of the hearing today, is sometimes that turns out not to 
be true.
    So the purpose of what I think we should be doing today is 
finding out what we in Washington can do to help create an 
environment that helps campuses discourage sexual assaults, 
which is the subject of this hearing, and then to make sure 
that if there are any requirements that we have from here to 
campuses, that they be clear and that they don't cause campuses 
to spend more time filling out forms than they do creating an 
environment to discourage sexual assault.
    I think it's important to remember, too, the limits of what 
we're able to do from here. On campuses in Tennessee, there's a 
dean of students, and there's a president of the college, and 
there are trustees, all of whom have the primary responsibility 
for the environment on the campus and for taking action. And if 
it's a public institution, where three out of four of our 
students go, there are legislators and there is a Governor. I 
know that about the time I was president of the University of 
Tennessee, the State of Tennessee passed a Crime on Campus bill 
which was modeled after the Clery Act, which was the work of 
parents in Pennsylvania whose child was murdered.
    Just as we want gun-free school zones, if we really want 
gun-free school zones in our 100,000 schools, it's primarily 
the responsibility of those in the community, the principal, 
the parents, and the students in that school.
    Whatever we do here I think needs to make sure that we 
don't suggest to anybody that we in Washington can make the 
campuses--should be primarily responsible for making the 
campuses safe. I mean, I don't think the country would want to 
look up here and say the Senate, the U.S. Senate that can't 
even balance a budget and can't even agree on how to consider 
an appropriations bill, ought to be the one who you look to to 
be responsible for campus safety in 6,000 institutions with 
7,200 campuses and 22 million students. If my child were going 
to a campus, I would look to the dean of students and to the 
faculty and to the environment on that campus first.
    But there is a role we have to play, primarily because we, 
along with the States, help fund campuses, and we've been 
playing that role. There is the Clery Act which I mentioned 
just earlier, and these are the rules and regulations that any 
campus administrator will have to consider, these proposed 
rules and regulations. The question we should have is do these 
really help to create an environment to discourage sexual 
assaults, or is there something we can do that's simpler and 
clearer and more effective.
    And then under title IX there are responsibilities and 
guidances and steps that we need to take.
    I'm glad that we're having the hearing. I especially 
appreciate the efforts of several of our Senators, Senator 
McCaskill, who is not a member of this committee but is very 
interested in this. I've met with her about this, and one of 
the things I would suggest to the Chairman and the other 
members of the committee, at least one of whom is formally a 
member of a faculty of a distinguished institution, I think at 
some point we ought to have informal or formal discussions with 
the people on the 7,200 campuses who actually have the job of 
creating an environment for campus safety, including 
discouraging sexual assault and responding to it appropriately 
and making sure that the things that we do from here are 
helpful and not burdensome, which is sometimes the case.
    I welcome the hearing. I congratulate the Senators who have 
made this a focus of their attention. I look forward to 
learning from both panels of witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    We will have two panels. Our first panel will basically be 
our Administration witnesses, and then we'll move rapidly to 
our second panel.
    I would like to start by welcoming our first witness, Ms. 
Catherine Lhamon. Ms. Lhamon is the Assistant Secretary for 
Civil Rights in the U.S. Department of Education. Prior to 
coming there, she was the director of Impact Litigation at 
Public Council, the Nation's largest pro bono law firm. Before 
that, she practiced for a decade at the ACLU of Southern 
California, serving as assistant legal director. She also 
served as a teaching fellow and supervising attorney in the 
Appellate Litigation Program at Georgetown University Law 
Center. She received her J.D. from Yale Law School and 
graduated from Amherst College.
    Next is Mr. James Moore, manager of the Clery Act 
Compliance Division of the U.S. Department of Education. Mr. 
Moore joined the Department of Education in 1997 and has become 
a nationally recognized expert on the Clery Act. He also serves 
as a representative on the White House Task Force to Protect 
Students from Sexual Assault.
    Welcome. Both your statements will be made a part of the 
record in their entirety.
    Ms. Lhamon, we will start with you. If you could sum up 
your statement for us in a few minutes, and then we will move 
to Mr. Moore, afterwards we will open it up for questions and 
answers.
    Welcome, Ms. Lhamon. Please proceed.

 STATEMENT OF CATHERINE LHAMON, J.D., ASSISTANT SECRETARY FOR 
   CIVIL RIGHTS, U.S. DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Ms. Lhamon. Thank you so much, Chairman Harkin, Ranking 
Member Alexander, and members of the committee. I appreciate 
the opportunity to share our work with you today.
    I am Catherine Lhamon, Assistant Secretary for Civil Rights 
at the U.S. Department of Education. The enormously talented 
staff that I work with and I have the privilege of enforcing 
our Nation's Federal civil rights laws in schools, including 
title IX of the Education Amendments of 1972, and we have made 
as a country great strides in the 42 years since title IX 
became law, with many colleges and universities having changed 
their policies, their practices so that they are not 
discriminating and in compliance with the law, and I applaud 
those colleges and universities for recognizing that their core 
educational mission includes ensuring safety of their students 
on campus.
    Still, sexual violence is pervasive across too many of our 
campuses. We are committed to ending that reality in schools. 
In this Administration, we have investigated more than 100 
institutions of post-secondary education. We've issued policy 
guidance, and we've delivered significant technical assistance 
to colleges and universities that have reached out to us.
    The President and Vice President have prioritized this 
issue, including by creating the White House Task Force on 
Protecting Students from Sexual Violence this last January. One 
key deliverable in the first 90 days from that task force was 
the issuance from my office of a 52-point questions and answers 
document that supplements our previous guidance related to 
sexual violence so that we could answer the many questions that 
have come to us from colleges, from universities, from the 
community about ways to comply with the law, the ways that we 
enforce, and what it is that we expect in schools.
    We had already issued guidance in 2001 related to sexual 
harassment, and then in 2011 this Administration was the first 
administration ever to issue guidance specifically focused on 
sexual violence and calling out sexual violence as a civil 
rights issue.
    In addition to issuing that guidance, we have, as I 
mentioned, delivered significant technical assistance to 
colleges and to universities who have reached out to us with 
questions about what they can do to better deliver for their 
students, and we're very pleased to be able to use that tool, 
and we use all tools available to us, including our enforcement 
tool, and I'd like to share some of our recent examples of 
enforcement in this area as examples of the ways that we've 
been able to achieve robust agreements to change the experience 
of students on campus.
    Just last fall, we entered into an agreement with the State 
University of New York, which is the largest institution of 
public higher education in the country, serving 219,000 
students across 29 State-operated campuses. It was the largest 
single impact that we could have had with a single 
investigation. I am enormously impressed with the SUNY system 
for having the courage and the leadership to commit that across 
all of its campuses they would change their policies so that 
they are fully compliant with title IX and so that they deliver 
the message to their students on all of their campuses of 
disapprobation related to sexual violence.
    They have also committed to reopen their case files, their 
investigative files since 2011 to identify whether there is 
more relief that can be delivered to the complainants who have 
come to them and what more should be done. They will report to 
us what it is in addition that they will do, and if not, why 
not, so that we can evaluate whether they have changed their 
practices to make sure that they are responding in a timely 
fashion to the complainants who come forward to them.
    We, as part of our investigation for the SUNY system, 
reviewed 159 case files across their campuses to take a look at 
the ways the university system had investigated the complaints 
that had come to it, and we had significant concerns. We are 
really impressed with the SUNY system for agreeing to reopen 
those files and to identify what, if anything more, should be 
done.
    Another really key component of that resolution agreement 
is an agreement for each of their campuses across the State of 
New York to bring in the community to evaluate what more may 
need to be done to make students safe. That recognizes, as 
Chairman Harkin noted, that there is no one-size-fits-all 
approach. What works at SUNY Albany may not be the same thing 
that is necessary at SUNY Stony Brook. So they are involving 
their communities to identify what needs to be done at each 
campus to make sure that the students are safe, and they will 
report to our office what it is that the community members have 
asked for; what, if any, changes they will make; and if not, 
why not, so that we can be part of ensuring the full community 
response and the solution at those schools.
    Moving from a very large institution to a much smaller 
scenario, just this last spring we entered into a resolution 
agreement with the Virginia Military Institute, which has about 
1,500 students. It's a much smaller campus, a much smaller 
institution, but also very significant concerns and very 
significant resolution that commits for retraining, a change in 
policy at the campus, and ensuring safety for all the students 
on that campus, even after some fairly significant harrowing 
sets of facts that included a system that had a policy that 
required students who became pregnant to leave the Virginia 
Military Institute altogether and could no longer be students 
there. That has also changed as a result of the resolution 
agreement.
    But as against that backdrop, the institution had failed to 
involve the title IX coordinator when a senior cadet had issued 
wire hangers to young women cadets and called them their 
abortion tools. The school had not taken appropriate steps to 
discipline the student and also to ensure that the title IX 
coordinator was involved in making sure that that campus could 
be safer. That will be changed going forward. I'm very pleased 
that the Virginia Military Institute has agreed to enter into a 
resolution agreement to change those practices and ensure non-
discrimination for all of the students on that campus.
    And then moving from the large and the small to the mid-
size campus, also last spring we entered into a resolution 
agreement with Tufts University, and on the next panel you'll 
hear from a student at Tufts about his experience there as 
well. I'm really impressed with Tufts for agreeing to new 
training to rectify a situation where they had not had a title 
IX coordinator at all for a year and a half during the course 
of our investigation, and for agreeing to make sure that they 
do provide interim relief for students, that they do 
investigate the complaints that come to them appropriately, and 
that they change their policy to end practices, for example, of 
including students' prior sexual history as part of an 
investigation, which is, as we know, inappropriate, consistent 
with title IX.
    We have entered into very robust agreements with 
universities of a variety of size across the country in our 
enforcement space. I'm enormously proud of what my staff has 
been able to achieve, and I look forward to continuing because 
it is so critically important that we change the current 
practice where there are people who think that they don't need 
to comply with the law and that we don't need to satisfy what 
it is that title IX has very clearly set out.
    I look forward to answering any questions from this 
committee, and I again really appreciate the opportunity to 
share our work experience with you.
    [The prepared statement of Ms. Lhamon follows:]
            Prepared Statement of Catherine E. Lhamon, J.D.
    Chairman Harkin, Ranking Member Alexander, members of the 
committee--thank you for this opportunity to share the work of the 
Department of Education's Office for Civil Rights, which enforces our 
Nation's civil rights laws to ensure equal educational opportunity for 
young women and men attending more than 7,000 colleges and universities 
across the United States. It is critically important that we ensure 
safe, nondiscriminatory learning environments for students in schools 
and I am privileged to lead a dedicated, experienced, and visionary 
staff that is committed to that critical work.
                         office of civil rights
    As Assistant Secretary for Civil Rights at the Department of 
Education, I am charged with enforcing Federal civil rights laws, 
including Title IX of the Education Amendments of 1972, which prohibits 
sex discrimination in education programs and activities receiving 
Federal funds. Since the beginning of this Administration, my office 
has investigated over a hundred sexual violence cases at the 
postsecondary level, issued policy guidance documents regarding sexual 
harassment and sexual violence, and provided technical assistance 
related to sexual violence. Over my office's decades of work in this 
area, OCR has developed significant expertise in these issues that we 
regularly share with our Federal partners in the effort to address 
sexual violence in schools.
    As effective as we have been over the years, the problem of sexual 
violence has nonetheless persisted across too many of our students' 
experiences in institutions of higher education. The best available 
research suggests that 20 percent of college women, and roughly 6 
percent of college men, are victims of attempted or completed sexual 
assault.
    Operating from the fundamental principle that one student subject 
to sexual assault is too many, President Obama established the White 
House Task Force to Protect Students From Sexual Assault on January 22, 
2014, directing the Task Force to focus specifically on permanently 
ending the cultural prevalence of sexual violence during our young 
people's typical transition from home to independence through college 
or university degree completion. This charge from the President commits 
the Task Force to ``develop a coordinated Federal response to campus 
rape and sexual assault'' to end what the President rightly called ``an 
affront to our basic decency and humanity.''
    Colleges' and universities' core mission to educate students 
necessarily includes ensuring that their students are safe to learn in 
class, in school facilities, on their campuses. Sexual assault denies 
students the right to learn in an educational environment free from sex 
discrimination. When universities fail to respond adequately to campus 
sexual assault, they may be forcing the affected students to attend 
school in a sexually hostile environment. This environment deprives 
them of their freedom to go to class without being re-traumatized by a 
perpetrator sitting a few seats away, walk on campus without being 
harassed by a perpetrator's friends, attend a party on-campus, or even 
feel safe in their own dorm rooms. And it can profoundly damage 
students' physical and emotional well-being in ways that deprive them 
of the opportunity to obtain an education altogether.
    I am pleased to see that many colleges and universities are 
stepping up to the challenge of addressing the problem of sexual 
assault. For example, within months of the release of the Department of 
Education's Office for Civil Rights 2011 Dear Colleague Letter on 
sexual violence, many colleges and universities revised their sexual 
violence policies and procedures consistent with our guidance. We 
applaud these schools for taking the initiative to keep their students 
safe without waiting for enforcement intervention from my office or 
from the Department of Justice.
    But some schools still are failing their students by responding 
inadequately to sexual assaults on campus. For those schools, my office 
and this Administration have made it clear that the time for delay is 
over. This Administration is committed to using all its tools to ensure 
that all schools comply with title IX so campuses will be safer for 
students across the country.
coordinating across government and with students, school officials, and 
                           other stakeholders
    President Obama launched the White House Task Force to Protect 
Students from Sexual Assault (Task Force) in January 2014. This 
interagency effort is charged with addressing campus sexual assault by 
coordinating Federal enforcement efforts; consulting with advocates, 
students, colleges and universities, and other stakeholders; and 
developing recommendations and resources for students and higher 
education institutions. Led by the Office of the Vice President and the 
White House Council on Women and Girls, the Task Force includes 
designees of the Attorney General, the Secretary of the Interior, the 
Secretary of Health and Human Services, the Secretary of Education, the 
Director of the White House Office of Science and Technology Policy, 
the Director of the White House Domestic Policy Council, and the 
Cabinet Secretary. I serve as Secretary of Education Arne Duncan's 
designee on the Task Force.
    During its first 2 months, the Task Force prioritized hearing from 
people across the country who are invested in this issue, holding 27 
listening sessions (12 webinars and 15 in-person meetings) with 
thousands of people including survivors; students; alumni; faculty, 
staff, and administrators from colleges and universities; parents; 
national survivors' rights and education associations; local and 
campus-based service providers and advocates; law enforcement; civil 
rights activists; school general counsels; men's and women's groups; 
Greek organizations; athletes; and researchers and academics.
    After hearing from these stakeholders, the Task Force delivered its 
first report to the President in April 2014, which included 
recommendations and resources aimed at preventing and addressing campus 
sexual assault. Key deliverables in that first Task Force report 
included a 53-page detailed question and answer (Q&A) document issued 
from my office on April 29th of this year, regarding title IX 
requirements for campus investigation and enforcement regarding sexual 
violence; the creation of a new website--www.NotAlone.gov--that 
compiles, in one place for the public to access, information related to 
the law, enforcement, and available government and nongovernmental 
resources; a compilation of materials related to effective training for 
students and for school and health center and victim services staff 
regarding such important topics as trauma-informed responses and best 
practices for investigations; a chart detailing a school's reporting 
obligations under title IX and the Clery Act, and how each intersects 
with the Family Educational Rights and Privacy Act (FERPA); and a 
public service announcement about the need for transformation in 
attitudes toward sexual violence.
    Among other provisions, the report calls on colleges and 
universities to conduct a campus climate survey to assess perceptions 
of safety on campuses and help identify areas for targeted safety 
efforts, identifies resources on primary prevention strategies and 
bystander intervention programs, provides schools with a sample 
reporting and confidentiality policy so that it is clear to whom on 
campus students can report confidentially, and delivers a checklist for 
colleges and universities to use while developing a sexual misconduct 
policy.
    The Task Force report also details commitments to conduct more 
research, develop additional sample policy language on other key 
issues, develop training programs for school officials and 
investigators, and identify promising practices for investigating and 
adjudicating campus sexual assault cases. For example, several 
universities have volunteered to pursue research that will help us 
better understand and prevent sexual assault.
    The Task Force report also details this Administration's commitment 
to improving and better coordinating our enforcement efforts within and 
across responsible agencies. For example, the Department's Federal 
Student Aid (FSA) office is responsible for Clery Act compliance, 
whereas OCR enforces title IX, and sometimes our efforts overlap. The 
Clery Act requires institutions of higher education to provide current 
and prospective students and employees, the public, and the Department 
with crime statistics and information about campus crime prevention 
programs and policies. The Clery Act requirements apply to many crimes 
other than those addressed by title IX. For those areas in which the 
Clery Act and title IX both apply, the institution must comply with 
both laws. To clarify roles and increase efficiency, FSA and OCR have 
formalized an agreement to ensure effective handling of complaints and 
to facilitate information sharing.
    Similarly, OCR and the U.S. Department of Justice's Department's 
Civil Rights Division (CRT) both enforce title IX, and we have 
committed to improving our coordination and collaboration. The two 
offices have entered into an agreement to enhance our collaboration and 
strengthen enforcement. These changes will improve the Administration's 
collective enforcement efforts to ensure that schools comply with title 
IX.
    Finally, the Task Force report announced our commitment to make OCR 
enforcement activity more transparent, in this and all areas. Shortly 
after the Vice President released the Task Force report, my office 
began making public the list of colleges and universities we are 
investigating regarding sexual violence concerns. This new transparency 
adds an important tool to the culture change President Obama called for 
when creating the Task Force, beginning a new era when our collective 
disapprobation of sexual violence holds fuller salience and effect at 
colleges and universities.
      ocr's efforts to address sexual assault on college campuses
    OCR's work begins with the recognition that each school has the 
ultimate responsibility for creating a nondiscriminatory learning 
environment and ensuring that its policies, practices, and procedures 
protect all students from discriminatory abuse, violence, and 
harassment. There is no universal, one-size-fits-all approach that will 
be right for every school or all students; and the Department makes no 
effort to mandate a single approach. School policies will vary in 
detail, specificity, and components, reflecting differences in State or 
local legal requirements and each school's students, size, 
administrative structure, and what it has learned from past 
experiences.
Issuing Policy Guidance on Title IX and Sexual Violence
    OCR issues policy guidance to inform schools and the public about 
critical and emerging issues arising under the laws and regulations OCR 
enforces, as a complement to our technical assistance and enforcement 
activities. This policy guidance offers clear direction to schools in 
areas of pressing concern, including sexual violence.
    Despite the fact that schools have had a longstanding obligation 
under title IX to respond to sexual harassment and sexual violence 
against students, our enforcement work and the technical assistance 
requests that we receive indicate that schools have been unsure of how 
to handle some of the unique issues that arise in this context. For 
example, through our investigations, we know that some colleges and 
universities are:

    <bullet> Retaliating against students for filing complaints thereby 
discouraging other survivors from filing complaints;
    <bullet> Delaying investigations for months or longer;
    <bullet> Delaying services and support to survivors when their 
investigations are pending or providing inadequate interim relief;
    <bullet> Utilizing policies and procedures that are not clear, 
transparent, or fair, or not following its own procedures;
    <bullet> Addressing sexual violence solely as a criminal matter and 
not under title IX or delaying the title IX investigation pending the 
conclusion of the criminal investigation; and
    <bullet> Allowing the perpetrator to remain in school after being 
found responsible for sexual assault and then sexually assaulting 
another student.

    To address this, OCR issued guidance in April 2011 in the form of a 
Dear Colleague letter (2011 DCL) to help schools better understand 
their obligations under title IX to prevent and respond to sexual 
violence. OCR's 2011 DCL marked the first time that any Administration 
had issued guidance under title IX specifically dealing with sexual 
violence.
    The 2011 DCL affirms that the title IX requirements for sexual 
harassment and OCR's 2001 guidance on sexual harassment also apply to 
sexual violence and lays out the specific title IX requirements 
applicable to sexual violence. It addresses the unique concerns that 
arise in sexual violence cases, such as the role of criminal 
investigations and a school's independent responsibility to investigate 
and address incidents of sexual violence, regardless of whether a 
criminal violation is found. It also provides guidance and examples 
about key title IX requirements and how they relate to sexual 
violence--including schools' obligations to have a policy against sex 
discrimination, the important role of title IX coordinators, and the 
requirements for a school's grievance procedures to be prompt and 
equitable. The 2011 DCL discusses the proactive efforts schools can 
take to prevent sexual violence and to educate employees and students 
and provides examples of the types of remedies that schools and OCR may 
use to respond to sexual violence.
    Our release of the 2011 DCL is widely credited with having sparked 
significant changes at colleges and universities as they worked to meet 
title IX's requirements consistent with the 2011 DCL. Those efforts 
generated many further questions from schools and students about how to 
apply the requirements and recommendations articulated in the 2011 DCL. 
To answer those questions, OCR issued a Q&A document on title IX and 
sexual violence (Q&A) on April 29, 2014, to give schools and students 
the information they need to ensure compliance with title IX, and, more 
importantly to prevent and effectively respond to victims of sexual 
violence.
    The Q&A answers questions OCR has received since the release of the 
2011 DCL, provides perspective based on our more recent sexual violence 
investigations and resolutions, and offers recommendations for good 
policies and practices. It provides more guidance on what OCR means 
when we say that title IX requires schools to take interim measures 
before the outcome of an investigation. It makes clear that title IX 
protects all students from sexual violence, regardless of whether they 
have a disability or are international or undocumented, and regardless 
of their sexual orientation and gender identity. The Q&A provides 
answers to a number of questions OCR received with respect to 
confidentiality requests and employees' reporting obligations. It also 
provides more information on training, education, and prevention, 
including detailed guidance on training employees to understand their 
role in protecting student's rights and education and prevention 
programs aimed at students. Finally, the Q&A answers questions that OCR 
has received regarding the intersection of title IX and the Clery Act. 
The Q&A explains that title IX and the Clery Act are two separate 
statutes and that schools must comply with both. It also reiterates 
that the amendments to the Clery Act in the Violence Against Women 
Reauthorization Act of 2013 in no way alter schools' obligations under 
title IX, including those set forth in OCR's 2011 DCL.
Providing Resources and Technical Assistance
    OCR has 12 regional offices around the country that are equipped to 
provide technical assistance to school officials, parents, students, 
and others to inform them of their rights and responsibilities under 
the law. OCR does this through a variety of methods, and the form of 
our assistance is dictated largely by the needs of the school, group, 
or individuals requesting information. In some instances, a school will 
contact OCR because it has questions about the best way to comply with 
title IX, and OCR will have a phone or in-person meeting with the 
relevant administrators of the school to listen to their concerns and 
provide guidance on how to ensure compliance. This provides schools 
with a way to come into compliance without the threat of enforcement 
action. Likewise, OCR routinely participates in trainings and 
conferences conducted by groups that count college and university 
leadership among their members, such as the National Association of 
College and University Attorneys. Again, this type of assistance 
provides schools with an outlet to ask questions and receive answers 
directly from OCR--without worrying about opening themselves to an 
enforcement action. OCR also participates in community meetings, and 
publishes and disseminates materials to students, parents, teachers, 
administrators, schools, and community groups.
Enforcing Title IX
    OCR's complaint process allows any member of the public to file a 
complaint with our office. Since the beginning of this administration, 
OCR has received 260 complaints involving sexual violence in 
educational institutions as of June 19, 2014. Of those 260, 147 were at 
the postsecondary level. My office also launches proactive 
investigations, such as compliance reviews and directed investigations, 
to remedy possible violations of students' rights. We initiate 
compliance reviews to examine potential systemic violations based on 
various sources of information, including statistical data, news 
reports, and information from parents, advocacy groups, and community 
organizations.
    We can also initiate directed investigations when a report or any 
other information indicates a possible failure to comply with the 
regulations and laws enforced by OCR. A directed investigation is a 
review that allows for immediate investigation of urgent and critical 
civil rights problems where the effects of possible discrimination are 
sufficiently serious to deny or limit the ability of students (and 
others) to participate in, or benefit from, the educational program or 
activity. Since January 2009, OCR has initiated 20 proactive 
investigations (i.e., compliance reviews and directed investigations) 
focused on sexual violence and 14 of these are at the postsecondary 
level. The Obama administration has prioritized addressing sexual 
violence in our Nation's schools: sexual violence compliance reviews 
are almost 13 percent of the total number of compliance reviews that my 
office has initiated since 2009, while sexual violence complaints are 
less than 1 percent of the total number of complaints we receive.
    Under the statutory enforcement scheme, when we find a recipient of 
Department funding to have violated title IX or any of the civil rights 
provisions we enforce, we must attempt to obtain voluntary compliance 
by the recipient. If OCR cannot secure voluntary compliance from the 
recipient, OCR may initiate an administrative action to terminate and/
or refuse to grant Federal funds or refer the case to the DOJ to file a 
lawsuit against the school. To revoke Federal funds--the ultimate 
penalty--is a powerful tool because institutions receive billions of 
dollars a year from the Federal Government for student financial aid, 
academic resources and many other functions of higher education. OCR 
has not had to impose this severe penalty on any institution recently 
because our enforcement has consistently resulted in institutions 
agreeing to take the steps necessary to come into compliance and ensure 
that students can learn in safe, nondiscriminatory environments.
    OCR has strengthened our enforcement procedures, including 
instituting time limits for negotiating voluntary resolution 
agreements. The voluntary resolution process is usually much faster 
than litigation but it can still take time and include frustrating 
delays. To ensure efficient as well as effective resolution of 
noncompliance findings, and to help guard against the risk that a 
school might extend negotiations to delay enforcement, OCR has placed a 
90-day limit on voluntary resolution agreement negotiations where we 
have found a school in violation of the civil rights laws we enforce, 
including title IX. In addition, we have changed our procedures to make 
explicit that schools should provide survivors with interim relief--
such as changing housing or class schedules, issuing no-contact orders, 
or providing counseling--where necessary because of safety concerns 
pending the outcome of an OCR investigation.
    These outcomes highlight the robust remedies we require in our 
resolution agreements, which are designed to empower the entire school, 
college, or university community to address issues of sexual violence. 
Our remedies engage schools and communities to create lasting and 
meaningful change, and we remain actively involved in monitoring to 
ensure that paper promises translate into lived reality for students in 
affected schools.
Increasing Transparency
    Soon after I took office in August 2013, I instructed my staff to 
post nearly all recent resolution letters and agreements with 
recipients on our website, except those documents that raise individual 
privacy concerns. In addition, as discussed above, we have posted 
sexual violence resolution agreements and letters on NotAlone.gov to 
make them more accessible to students, parents, and community members. 
And, as discussed above, we have made public, for the first time, a 
list of all colleges and universities under OCR investigation for the 
handling of sexual violence and harassment complaints. My hope is that 
this increased transparency spurs community dialog about this important 
issue. I expect that this additional transparency regarding resolution 
agreements, as well as institutions under investigation will be an 
important enforcement tool, raising public awareness regarding the 
issues and prompting action at additional schools to achieve fuller 
compliance with the laws.
    Consistent with these transparency efforts, the Department also 
plans to collect and disseminate a list of title IX coordinators at the 
postsecondary level starting in 2015. Every college and university is 
required by law to designate at least one title IX coordinator, an 
employee charged with coordinating the school's title IX 
responsibilities. Schools are required to notify students and employees 
of the name and contact information of the title IX coordinator. 
However, there is currently no central, national repository of 
coordinator contact information. My office is working with the 
Department's Office of Postsecondary Education to collect and 
disseminate the list of higher education title IX coordinators annually 
so students, employees, parents, and community members can easily 
locate their school's coordinator. We also hope that this information 
will encourage title IX coordinators to communicate with each other and 
share best practices for title IX compliance.
                               conclusion
    As Secretary Duncan has said,

          ``All members of the campus community bear responsibility for 
        acting now to end campus cultures that tolerate sexual 
        violence. The days of telling survivors they should just 
        forgive and forget sexual assaults must come to an end.''

    Along with the rest of the Administration, we at OCR are committed 
to helping colleges and universities achieve these goals. By 
coordinating with other government agencies, vigorously enforcing title 
IX, increasing transparency in our investigations and resolutions, 
issuing policy guidance on title IX and sexual violence, and providing 
resources and technical assistance, OCR continues to work to remedy 
hostile campus climates and make campuses safe for all students.
    I would be happy to respond to questions from the committee.

    The Chairman. Thank you very much, Ms. Lhamon.
    Mr. Moore.

STATEMENT OF JAMES L. MOORE III, COMPLIANCE MANAGER, CLERY ACT 
      COMPLIANCE DIVISION, U.S. DEPARTMENT OF EDUCATION, 
                        PHILADELPHIA, PA

    Mr. Moore. Good morning, Chairman Harkin, Ranking Member 
Alexander, and members of the committee. My name is James 
Moore, and I manage the Clery Act Compliance Division at the 
U.S. Department of Education. Thank you for inviting me to 
discuss the Department's role in enforcing the Clery Act, and 
especially the implementation of the amendments to the Clery 
Act in Section 304 of the Violence Against Women Act 
reauthorization.
    College should be a special time in the life of every 
student, a time of exploration, discovery, and joyful memories. 
But for far too many of our students, they have been denied the 
best of the college experience because of the crisis of sexual 
assault and other violent crime on campus.
    As you know, the Clery Act promotes consumer protection and 
transparency about crime and other public safety matters by 
promoting transparency and by requiring institutions that 
participate in the Federal Student Aid programs to provide 
accurate and realistic views of campus crime on campus and in 
the surrounding area.
    It is essential that campus safety and crime prevention 
information as provided to students, parents, and employees is 
of the highest quality. Members of our campus community should 
not have to wonder if the crime information that is provided to 
them is accurate, or have to worry that the information has 
been purposefully manipulated to create false impressions or to 
protect their school's brand. For young people who are often 
new to a community on campus, anything that creates a false 
sense of security is especially dangerous.
    To hold institutions accountable, the Department created a 
dedicated team to monitor and enforce these rules. The original 
Clery team was formed in 2010, and in 2012 FSA, Federal Student 
Aid, realigned the team to strengthen it and make it more 
prominent within the Office of Program Compliance. In a short 
time, the team now known as the Clery Act Compliance Division 
has had a significant impact on the way that institutions 
confront campus crime. This team of highly skilled 
professionals that I am honored to lead is dedicated to the 
cause of campus safety and carries out its mission with the 
safety of the Nation's students and educators foremost in their 
mind.
    The Department is committed to improving Clery Act 
compliance and campus safety through a balanced approach of 
enforcement and technical assistance. One of our operating 
principles is that we will assist schools whenever we can and 
enforce whenever we must.
    The campus crime program review process is the primary 
component of our enforcement effort. The Clery Division 
conducts these reviews to assess compliance with the Act and 
the Department's regulations. It also works with institutions 
to ensure that corrective actions are implemented and 
sustained.
    Recently, most of our reviews have been driven by 
complaints from our students, who are always our best source of 
information and who help us understand how crime is affecting 
their lives on campus. Here, I must pause to thank the new 
generation of student advocates and activists who have 
developed a sophisticated understanding of the Clery Act and 
title IX. These students are using their knowledge to assist 
survivors and to make their campuses safer for everyone.
    I also want you to know that we supplement our complaint-
based reviews with proactive compliance examinations that we 
conduct as part of a partnership with the FBI. In addition, our 
Office of Program Compliance conducts about 300 program reviews 
each year. Most of those reviews focus on financial aid 
compliance matters, but we have added a Clery Act and Drug-Free 
Schools and Communities Act test component to each of those 
reviews, and my team oversees the work that those teams do on 
these matters to ensure consistency across the country.
    The Clery Division also monitors media coverage of campus 
crimes, and we conduct assessments of major incidents to 
determine if institutions have complied with the Clery Act in 
response to those incidents.
    I would like to share with you a little bit of information 
about the recent work that we've done to implement the Violence 
Against Women Act reauthorization components of the Clery Act. 
As you know, last week the Department published proposed 
regulations that will fully implement the changes made to the 
Clery Act by VAWA. I can tell you that in my 17-plus years in 
this agency, I have never been more impressed or proud of a 
rulemaking effort.
    Work began on our implementation strategy immediately after 
VAWA's passage, and from the very beginning we have focused on 
reaching out to the people who are most affected by campus 
sexual assault and to top experts in the field who have 
dedicated their lives to addressing this problem. In May and 
June of last year, the Department held public hearings where we 
heard from students and advocates and institutional officials 
on a range of campus crime topics, including the proper role of 
law enforcement in campus sexual assault investigations and the 
need to find a balance between transparency and 
confidentiality.
    In fall 2013, we conducted outreach sessions with student 
groups, campus safety advocates, campus law enforcement and 
other stakeholders to develop our understanding of their 
concerns and to hear directly from them about how the law 
should be implemented. We also built relationships with 
colleagues across the government and higher education so that 
our rulemaking effort and enforcement program could benefit 
from their expertise.
    From January through March of this year, we brought 
together 28 negotiators, including one who will be on your next 
panel, representing a broad range of experience, interests, and 
perspectives, including campus law enforcement professionals, 
victim advocates, school attorneys, title IX coordinators and, 
most importantly, our students themselves in three negotiating 
sessions. After careful consideration and extensive discussion, 
the committee reached consensus on proposed regulatory language 
on April 1st. This is a truly great accomplishment. While we 
always strive to reach consensus during our negotiated 
rulemaking sessions, it is often difficult to do so with so 
many competing interests and perspectives represented.
    After reviewing and considering the public comments we 
receive on the proposed rule, we plan to issue final 
regulations by November 1st of this year.
    The Department is confident that the new VAWA provisions 
will provide powerful tools to prevent incidents of campus 
sexual assault, dating and domestic violence and stalking, and 
to more effectively respond when these crimes do occur. These 
changes will also ensure a fair and more orderly path for 
survivors and their advocates to seek redress through campus 
disciplinary bodies and ensure better access to the 
accommodations and services to which survivors are entitled.
    It is my sincere belief that these improvements to the 
Clery Act, along with the hard work of our OCR colleagues and 
the outstanding contributions of the White House Task Force to 
Prevent Students from Sexual Assault, on which the Assistant 
Secretary and I both serve, will result in meaningful and 
lasting change.
    In closing, I want to reiterate that we look forward to 
continuing our collaboration with this committee, with our 
institutional officials and our students in pursuit of our 
collective goal to put an end to campus sexual assault. Thank 
you, and I would be happy to take your questions.
    [The prepared statement of Mr. Moore follows:]
                Prepared Statement of James L. Moore III
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
members of the committee. Thank you for inviting me to discuss the 
Department of Education's (Department) and specifically Federal Student 
Aid's (FSA) role in enforcing the Clery Act and the implementation of 
the amendments to the Clery Act in Section 304 of the Violence Against 
Women Reauthorization Act of 2013 (VAWA 2013).
                               clery act
    The Clery Act promotes consumer protection and transparency about 
crime and other public safety matters by requiring institutions which 
participate in the Federal student financial aid programs under Title 
IV of the Higher Education Act of 1965, as amended (HEA) to provide 
accurate and complete information about campus safety and crime 
prevention to the campus community. The Clery Act requires schools to:

    <bullet> Collect and disclose statistics for the most serious 
incidents of crimes against persons and property that are reported to 
Campus Security Authorities and local law enforcement agencies that 
occur on the campus or in the near-campus community;
    <bullet> Prepare, publish, and distribute to students and employees 
an accurate and complete Annual Security Report that includes 3 years 
of campus crime statistics, policy statements, and other safety-related 
information;
    <bullet> Issue Timely Warnings and Emergency Notifications in 
response to serious ongoing threats;
    <bullet> Maintain an open and easily understood daily crime log (if 
they have a campus police or campus security office);
    <bullet> Submit crime statistics to the Secretary of Education 
annually for inclusion in the Department's publicly available websites;
    <bullet> Comply with fire safety requirements, including 
statistics, policies, and drills (if the school maintains on-campus 
student residential facilities); and
    <bullet> With the passage of the amendments to the Clery Act in the 
VAWA 2013 reauthorization, take additional specific steps to disclose 
statistics, policy statements and other safety-related information on 
sexual assaults, dating and domestic violence, and stalking on campus.

    The Department's Clery Act Compliance Division (Clery Division) 
within FSA has developed a monitoring and enforcement program to assess 
compliance with these requirements. The Clery Division conducts in-
depth campus crime program reviews to identify any violations of the 
Clery Act or the Department's regulations and appropriate responsive 
corrective actions that need to be taken by the institution. There are 
47 open Clery Act-focused program reviews or investigations. 
Additionally, many reviews are the result of complaints filed by 
victims of campus crime or their advocates--we are currently assessing 
46 complaints filed by students or other stakeholders.
    The Department proactively conducts non-complaint-based reviews. 
Some of these latter reviews are conducted jointly with staff from the 
Federal Bureau of Investigation (FBI) under a Memorandum of 
Understanding between FSA and the audit unit of the FBI's Criminal 
Justice Information Service. Of the 47 open Clery-Act focused program 
reviews or investigations, 17 are part of our Quality Assurance Review 
(QAR) partnership with the FBI.
    In addition, FSA's Office of Program Compliance also conducts 
approximately 300 program reviews each fiscal year to evaluate selected 
institution's compliance with the Department's regulations. While these 
reviews focus primarily on financial aid issues, a Clery Act and Drug-
Free Schools and Communities Act testing component is a part of each 
general assessment review. We developed procedures for regional teams 
to guide the conduct of the compliance checks and provide training to 
regional office staff as well. In addition, we review each finding of 
non-compliance for accuracy and completeness and revise them as needed. 
Since we implemented this consultation process in June 2012, we have 
completed work on 531 program review and audit findings.
    The Clery Division also monitors media coverage of campus crime 
activity and conducts a preliminary assessment of major campus crimes 
to determine if any additional investigation is needed to determine if 
the institution complied with the Clery Act in response to these 
incidents. Since this program was put into place in January 2012, 477 
incidents requiring an assessment have been identified. To support this 
work, the Clery Division has developed a strategic plan through which 
they are leveraging crime analytics and other technology to more 
effectively monitor crime trends and identify possible compliance 
failures.
    The Department also utilizes the services of Westat, a Federal 
contractor, to collect campus crime statistics from institutions and to 
provide customer support services. At the beginning of each year, 
Westat assists the Department in collecting annual crime and fire 
safety data from postsecondary institutions. In January, Westat sends a 
broadcast email to all institutions participating in the title IV 
programs, reminding them of their responsibility under the Clery Act to 
make a good-faith effort to collect crime statistics from local and 
State law enforcement agencies. The process includes reminding 
institutions of their obligations, administering the on-line data 
collection of crime statistics, monitoring submissions by institutions, 
and data review and correction, if necessary.
    Westat also maintains a year-round Help Desk to provide assistance 
to postsecondary institutions and agencies without interruption. All 
Help Desk staff members receive annual training on all Clery Act 
requirements, the content of the annual data collection, and the online 
data collection tool. In 2013, the Help Desk responded to 5,207 
incoming phone calls and 1,684 incoming emails from postsecondary 
institutions or agencies looking for guidance on Clery Act compliance 
or seeking assistance in submitting their annual statistics.
                               vawa 2013
    Over the years, Congress has amended and expanded the Clery Act to 
confront new and emerging security threats, and to address impediments 
to campus safety. In March 2013 President Obama signed VAWA 2013, which 
strengthened Clery to more effectively address, and ultimately reduce, 
all forms of violent campus crime, including many insidious 21st 
Century safety threats such as cyber-stalking and other acts of 
harassment and intimidation that are committed by electronic means.
    Soon after VAWA 2013 was signed into law, the Department developed 
a strategy to ensure that these new provisions were implemented as 
quickly as possible and in a manner that ensured that the specific 
goals of section 304 were achieved. Like each of you, we at the 
Department are very concerned about the crisis of sexual violence on 
college campuses. Because of that concern, we have focused a great deal 
of time and attention on issues of campus crime, including a particular 
focus on campus sexual assault.
    First, in May 2013, the Department provided guidance to 
institutions explaining the basic requirements of the law, and how they 
would be impacted by the rulemaking process. Because we knew the 
changes made to the Clery Act would take effect before we had an 
opportunity to finalize our regulations, we informed institutions that 
they should prepare to make a ``good faith effort'' to comply with the 
law in this year's reports, which are due on October 1, 2014. As 
schools begin to compile those reports over the next few months, the 
Department will be reaching out with more detailed guidance on how best 
to comply with the law in the absence of final regulations. This 
outreach will include direct communication with institutions' chief 
executive officers, financial aid administrators, and chief campus 
safety officers at all title IV institutions. The Department will 
continue to offer support and technical assistance to institutions as 
they make their good faith effort to comply with the new requirements 
between now and October.
    At the same time, the Department has been working to finalize the 
regulations that will fully implement the changes made to the Clery Act 
under VAWA 2013.
    I can tell you that in my 17+ years in this agency, I have never 
been more impressed or proud of a rulemaking effort. Planning efforts 
began immediately after VAWA's 2013 passage, and we strove from the 
beginning to gather as much input directly from the people who have 
been most affected by campus sexual assault and from those with 
expertise in addressing this problem. In May and June last year, the 
Department solicited written comment and held public hearings, where we 
heard from student advocates and institutional officials on a range of 
topics, from the appropriate level of enforcement to the need to 
balance transparency with requests for confidentiality. In the fall of 
2013, in anticipation of our negotiated rulemaking sessions, we reached 
out to students, survivors, campus safety advocates, campus public 
safety officials, and other institutional officials to learn more about 
the issues they believed were most critical to the implementation of 
the law and to deepen our understanding of their concerns. We also 
built relationships with colleagues across the government and higher 
education, including the Departments of Justice and Health and Human 
Services (HHS), and the Centers for Disease Control and Prevention in 
HHS, so that our rulemaking effort and enforcement program could 
benefit from their expertise.
    From January through March of this year, we brought together 28 
negotiators representing a broad range of experience, interests, and 
perspectives including campus law enforcement and security 
professionals, victim advocates, school attorneys, title IX 
coordinators, student affairs professionals, and most importantly, 
students themselves, for three negotiating sessions to develop the 
regulations.
    Working together under considerable time pressures, the committee 
reached agreement on proposed regulations that would:

    <bullet> Clarify definitions for dating violence, domestic 
violence, and stalking;
    <bullet> Develop instructions for counting incidents of the new 
VAWA 2013 crimes--especially patterns of stalking;
    <bullet> Specify requirements for prevention and awareness programs 
and campaigns;
    <bullet> Ensure that institutional disciplinary proceedings are 
prompt, fair, and impartial;
    <bullet> Set standards for the protection of survivor 
confidentiality while still ensuring survivors have access to the 
support, treatment, and disciplinary and legal options they need; and
    <bullet> Ensure that accused individuals are treated fairly in 
student disciplinary proceedings.

    After careful consideration and extensive discussion, the committee 
reached consensus on proposed regulatory language on April 1st. This is 
a great accomplishment--while we always strive to reach consensus 
during our negotiated rulemaking sessions, it is often difficult to do 
so with so many competing and affected stakeholders. We published the 
proposed regulations in mid-June to once again receive feedback and 
guidance from the public. After reviewing and considering the public 
comments we receive, we plan to publish final regulations by November 
1, 2014.
    In the rulemaking process for VAWA 2013, the Department made clear 
that the VAWA 2013 amendments to the Clery Act in no way alter on a 
school's obligations under title IX. Nothing in section 304 or any 
other part of VAWA 2013 relieves a school of its obligation to comply 
with the requirements of title IX, including those set forth in Q&A 
documents, Dear Colleague Letters, or forms of guidance issued by the 
Department.
    The Department is confident that the new VAWA 2013 provisions will 
provide powerful tools for preventing and addressing campus sexual 
assaults, dating and domestic violence, and stalking. These changes 
will ensure a fairer and more orderly path for survivors and their 
advocates to seek redress through campus disciplinary processes, and 
will help to ensure better access to the accommodations and services to 
which survivors are entitled.
                               compliance
    In addition to our recent rulemaking effort, institutions that 
participate in our programs have been put on notice that the Department 
has expanded and enhanced its compliance monitoring and enforcement 
program--we now have 13 staff dedicated to ensuring Clery compliance. 
For example, FSA and the Office for Civil Rights have formalized an 
agreement to ensure the most efficient and effective handling of 
complaints and to facilitate information sharing. The Department takes 
its responsibility to monitor and enforce compliance with the Clery Act 
very seriously, because all students should have the opportunity to 
pursue their education without fear.
    For that reason, we also continue to work proactively with 
institutions to develop effective campus safety operations and to 
enhance their Clery Act compliance programs. In recent years, we have 
enhanced our guidance on Clery Act compliance and will be publishing a 
new version of our Handbook for Campus Safety and Security Reporting to 
inform institutional officials about the new VAWA 2013 requirements. We 
have also ramped up our training efforts on compliance with the Clery 
Act and the Drug-Free Schools and Communities Act, a companion law that 
we also enforce. We have had the opportunity to train institution 
officials at several national and regional training conferences 
including FSA's National Training Conference, which consistently draws 
more than 5,500 institutional officials each year. In an effort to 
complement this work, FSA is in the process of developing a new online 
Clery Act compliance training module that will be available to all 
schools free of charge.
                         white house task force
    In addition to my work at Federal Student Aid, I am honored to 
serve on the White House Task Force to Protect Students from Sexual 
Assault. As part of the Task Force's work, we have had the chance to 
hear from many of our key stakeholders and have had the unique 
opportunity to contribute to an ambitious effort that has as its 
ultimate goal to finally put an end to campus sexual assault. All of us 
at the Department will continue to partner with each other and to 
collaborate with this committee, the advocacy and law enforcement 
communities, and, most importantly, with our students, in pursuit of 
that goal.
                               conclusion
    Once again, it is an honor to have this opportunity to be here and 
on behalf of Secretary Duncan and my colleagues at the Department, I 
thank you for your leadership on this issue and for all that this 
committee is doing to make America's college campuses safer and I 
welcome the committee's questions.

    The Chairman. Thank you both very much for your statements.
    We will now turn to a round of 5-minute questions.
    Ms. Lhamon, about title IX and enforcement mechanisms for 
title IX: basically terminating all Federal funding for an 
institution, if I remember right in reading your statement last 
night, you said that has never been used.
    Ms. Lhamon. It has never been used in an institution of 
higher education. It has been used with school districts.
    The Chairman. But not for an institution for this kind of 
an incident.
    Ms. Lhamon. We have not had to actually withhold Federal 
funds for a college or university. If I may, just last April we 
have, I think, the best example of how well that tool is 
working for us. Tufts University, after they entered into a 
resolution agreement with us, purported to revoke that 
agreement, and I sent them a letter telling them that they were 
in breach of the agreement and telling them that they had 60 
days to cure or that we would begin the process to revoke 
Federal funds. Within 2 weeks, Tufts University came back into 
compliance, not into compliance with title IX but into 
compliance with the resolution agreement itself.
    So the threat of withholding Federal funds is a very 
significant enforcement tool for us. It's one of the reasons 
that we've been able to see our institutions enter into 
agreements with us.
    The Chairman. You've given me one example, but your 
statement says it's never been used.
    Ms. Lhamon. It's never been used that we've actually had to 
withhold the funds. It has been used as an incentive for the 
institutions to be able to comply with the law.
    The Chairman. What we call a nuclear option around here.
    Ms. Lhamon. And it's a pretty good nuclear option. My 
concern would be not having the nuclear option because----
    The Chairman. It is a very good option. It may be something 
that you have in the background, but there may be other options 
that you can use, such as diverting funds for example--in other 
words, saying as part of your title IV money, because of this 
violation now, some of those funds have to be diverted to 
campus-based programs for prevention and information and 
support activities for students.
    Ms. Lhamon. With respect to that, Senator Harkin, I think 
we do have that opportunity. As part of the resolution 
agreements, we do enter into agreements with institutions that 
they change their practices, which have costs associated with 
them. The institutions have to have counsel who----
    The Chairman. You have the authority to divert funds.
    Ms. Lhamon. Not to divert funds, but we do have the 
authority to direct them to take steps that have to use funds 
and that are costly.
    The Chairman. But you don't have the authority to tell them 
that, no, you have to direct funds for that.
    Ms. Lhamon. I think that's a semantic difference. The 
schools, when they have to take steps that cost money, do 
divert funds toward those practices, and those practices 
include, for example, paying damages to complainants who have 
come forward. They include retaining additional staff who have 
to focus on a particular project and report to us about it. 
They include creating climate surveys and conducting them on 
their campus. They include taking steps to train students that 
cost money, and to train staff that cost money. That is a 
diversion of funds, and that's very significant for the 
campuses.
    In my 17 years as a civil rights litigator before I came to 
this Administration, what I did was use what is a nuclear 
option, which is to say there will be a very significant 
consequence.
    The Chairman. Are you telling me you don't need any more 
authority or anything else from this committee or from the 
Congress to carry out your oversight and your ability to 
sanction, to redirect funds at any of these institutions? You 
don't need anything else from us? You have all the authority 
you need?
    Ms. Lhamon. I am saying I think I have all the authority I 
need. It's not my view that we lack a tool that is meaningful 
for us.
    The Chairman. That's amazing to me.
    Ms. Lhamon. And it's very satisfactory for me.
    The Chairman. That you have all the tools you need.
    Ms. Lhamon. I think that we have the enforcement tool that 
we need.
    The Chairman. Because obviously something is not working 
out there. I'm sorry, Ms. Lhamon, but some things aren't 
working.
    Ms. Lhamon. Some things are not working.
    The Chairman. Students still continue--even you in your 
testimony said that through your investigations we know that 
colleges and universities are retaliating against students for 
filing complaints, discouraging other survivors from filing 
complaints, delaying investigations for months or longer, 
delaying service and support to survivors when their 
investigations are pending, or providing inadequate interim 
relief, and on and on and on, addressing sexual violence solely 
as a criminal matter and not under title IX. You're saying this 
is what's happening out there.
    Ms. Lhamon. Those are very, very significant concerns, and 
those are things that we want to see changed on campuses all 
over the country, anywhere that they happen. I think that we've 
been able to enter into robust agreements that are taking those 
steps. I would be delighted to work with you and your staff on 
this as we go forward. It's critically important to us to make 
sure that all of our students are safe, and I think that we're 
moving in that direction.
    The Chairman. Maybe I'm not hearing this right, but I guess 
what you're saying is nothing more needs to be done on our end. 
You have all the authority you need to take care of this.
    Ms. Lhamon. I apologize if I even suggested that that were 
true. I would love to identify ways that we could work 
together. My view is that the importance of the threat of 
withholding Federal funds is something that should not be 
undermined, and that that is something that has been a very 
effective tool for us. I think that we should be clear that 
that is so, and that there may well be more things that we 
could do, and I would welcome them to add to the arsenal 
because I think it's critically important that we deliver for 
all kids.
    The Chairman. Mr. Moore, let me ask you--my time is running 
out, I only have 1 second left. But in terms of information on 
the Clery Act, schools are required to provide this information 
to the students, and the general public at large. How good a 
job do they do of informing incoming students and their 
families as to what the incidences are of sexual violence on 
the campus? I mean, in other words, when students look at 
colleges, where they ought to go, are they able to look at this 
information? Is this presented in a format that they can see 
and compare from one college to another what's happening?
    Mr. Moore. Thank you, Senator Harkin, for the question. All 
institutions are required to notify prospective students and 
employees about this material, what we call the Annual Security 
Report, and make it available upon request. Most schools have 
put it on their websites and it's right there when you go on to 
apply to a school for a job or for enrollment.
    The Chairman. So are you saying, again, that the schools 
are basically doing a good job of this, that they're being 
accurate, they're being honest about reporting this to 
prospective students and their families?
    Mr. Moore. They're doing a relatively good job of producing 
the reports. We do find significant violations at some 
institutions with the statistics. So I would say that there are 
violations out there. We know that. We find those in our cases, 
and where we find them, we take action. We're hoping that these 
new requirements under VAWA, they will give us some additional 
tools and require additional disclosures that will allow 
students to have better information about the environment that 
they're going into with regard to sexual assault.
    The Chairman. Got it. Thank you very much.
    Senator Alexander. Thanks, Mr. Chairman.
    Ms. Lhamon, Mr. Moore, you're both in the U.S. Department 
of Education, right? Same department.
    Ms. Lhamon. That's correct.
    Senator Alexander. And Mr. Moore has just talked about 
regulations that you are proposing under the Violence Against 
Women Act amendments to the Clery Act. You've gone through a 
public notice, or you're about to go through a comment period 
on these where institutions will have a chance to say what they 
think about it, anyone else will as well. Is that correct?
    Mr. Moore. That's correct, Senator.
    Senator Alexander. Ms. Lhamon, you talk about something 
called ``guidance,'' and I have here about 66 pages of guidance 
under title IX. Do you expect institutions to comply with your 
title IX guidance documents?
    Ms. Lhamon. We do.
    Senator Alexander. You do. What authority do you have to do 
that?
    Why do you not then go through the same process of public 
comment and rule and regulation that the same department over 
here is going through under the Clery Act?
    Ms. Lhamon. We would if there were regulatory changes.
    Senator Alexander. Why are they not regulatory changes? You 
require 6,000 institutions to comply with this, correct?
    Ms. Lhamon. We do.
    Senator Alexander. You do, even though you're just making 
an edict without any chance for public comment, without any 
regulatory approval? How can you do that?
    Ms. Lhamon. I would not describe it that way.
    Senator Alexander. I would. How can you do that? Why would 
you not go out and ask institutions and people who might have 
been assaulted what they think about your guidance before you 
apply your guidance to 22 million students on 7,200 campuses?
    Ms. Lhamon. First, we do. We have quite a long list of 
conversations that we've had in person and through letters 
and----
    Senator Alexander. But you're in the same department of the 
U.S. Department of Education. Under the Clery Act, he's going 
through a regulatory process which publishes what he's doing 
after stakeholder meetings, after discussions. He's asking for 
comment. Then there's a regulation, and the Congress actually 
has a chance to weigh in. But you're over there issuing your 
own opinions, as far as I can tell. Correct?
    Ms. Lhamon. No, that's not correct. We have gone through 
the regulatory process----
    Senator Alexander. Who is responsible for this? You?
    Ms. Lhamon. I am, yes. But those are not just my opinions. 
That is actually what the law is, and it's guidance about the 
way that we enforce.
    Senator Alexander. Is this the law? I thought we made the 
law.
    Ms. Lhamon. You do.
    Senator Alexander. Do you make the law?
    Ms. Lhamon. I do not make the law, but we explain----
    Senator Alexander. All right. Then why do you say this is 
what the law is?
    Ms. Lhamon. Because it's an explanation of what title IX 
means.
    Senator Alexander. Who gave you the authority to do that?
    Ms. Lhamon. With gratitude, you did when I was confirmed.
    Senator Alexander. We told you that you could make the law 
in title IX? Then why does he go through a public notice and 
comment under the Clery Act if you don't have to?
    Ms. Lhamon. I do have to go through a public notice and 
comment period when we regulate. This is not regulatory 
guidance.
    Senator Alexander. I greatly disagree with that. I greatly 
disagree with that. I think what you're doing----
    Ms. Lhamon. I hear that.
    Senator Alexander. What you're doing is writing out 
detailed guidance for 22 million students on 7,200 campuses, 
and it could be your whim, your idea. We make the law. You 
don't make the law. Where does such a guidance authority come 
from? Has it just grown up over time? Why would the same 
department--how often do the two of you meet within your 
department? How many times in the last year have you met?
    Ms. Lhamon. I couldn't count them because it is so many. 
Jim and I work together very, very closely.
    Senator Alexander. And did you have input in his rules that 
are proposed to be rules?
    Ms. Lhamon. Yes. A member of my team has been part of the 
notice and comment process.
    Senator Alexander. I'm very concerned about the 
arbitrariness of an individual in the Department saying what 
the law is when I thought we were supposed to do that.
    I understand your two offices have signed a formalized 
agreement to better handle title IX and Clery Act complaints 
and to share information. Is that correct?
    Ms. Lhamon. That's correct.
    Senator Alexander. Is that because in the past you have 
really failed to coordinate and have created a good deal of 
confusion on college campuses about how to coordinate the 
responsibilities for dealing with sexual assault as they look 
up at title IX and look up at the Clery Act?
    Ms. Lhamon. Again, I wouldn't describe it that way. But I 
do think that there was room for growth for us, and I'm really 
pleased with the collaboration that my office and the Federal 
Student Aid Office have been able to enter into and to 
effectuate for students, certainly in the 10 months that I've 
been here, and I think it's been working extremely well.
    Senator Alexander. What kind of formal procedures did you 
have to discuss your guidance with institutional officers who 
have to comply with your guidance? How many meetings did you 
have with institutional officers around the country?
    Ms. Lhamon. I don't have the number off the top of my head, 
but it took about 3 years to prepare that question and answer 
document that followed the 2011 guidance, and in those 3 years 
we had many, many meetings with college and university 
officials, with associations of college and university 
officials, with student activists, with survivor organizations, 
with title IX coordinators. We had a tremendous number of 
actual in-person meetings, telephone conversations, letters 
that came to us asking questions, telling us what more we need. 
It was a long, iterative process that involved many 
stakeholders with many different opinions so that we could give 
them greater guidance and clarity about the ways that we 
enforce.
    Senator Alexander. My time is up. But I would say to my 
colleagues who are here, I think we should carefully consider, 
not just in this case but in other cases, whether it's FDA or 
anything else, what the difference is between a law and a 
regulation which is proposed by the Department of Education and 
this growing business of issuing guidance where there's no 
opportunity for the kind of public comment and approval that 
the regulatory procedure has.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    In order, I have Senator Murray, Senator Warren, Senator 
Hagan, Casey, Baldwin, Murphy, and Whitehouse.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman. I really 
appreciate your holding this important hearing.
    The Department of Education investigates allegations of 
title IX and Clery Act violations, and earlier this spring 
listed 55 colleges, including Washington State University, 
under investigation for title IX violations. What are some of 
the best practices in the field that universities can take to 
proactively prevent sexual assault?
    Ms. Lhamon. Thank you, Senator Murray. Among the best 
practices that we hope to see is the conduct of a climate 
survey as a way of identifying how students feel, how faculty 
feel about safety at campus as a way of identifying whether the 
campus message has been received by the students and the 
community at that campus about where to go, what is tolerated, 
what is not tolerated, whom to complain to if necessary, and 
whether there is a feeling of safety on the campus so that 
schools can respond. So we think that a climate survey is a 
really important first step.
    In addition, it's critically important to communicate 
disapprobation about sexual violence on campus, about sexually 
hostile environments so that the entire school community is 
clear about what is and is not acceptable on the campus.
    It's also critically important to let students know who a 
title IX coordinator is, where to go if the students need help, 
how to complain, and who are resources on that campus so that 
students can access those resources if they need them.
    And then finally, it's extremely important to have a 
transparent and fully functional investigative process where 
students need to complain so that interim relief is available 
to students when they need it so that students can be clear 
that effective and appropriate steps are taken to address 
sexual violence when it occurs.
    Senator Murray. Very good. I really appreciate that 
response.
    I have sponsored, along with Senator Baldwin and many other 
members of this committee, the legislation called the Tyler 
Clementi Higher Education Anti-Harassment Act that requires 
colleges and universities to prohibit harassment and 
establishes within the Department of Education a grant program 
to support campus anti-harassment programs.
    Wouldn't such a grant program be helpful in addressing 
campus sexual assault?
    Ms. Lhamon. It would be enormously helpful. I can't tell 
you how much that tool would mean to us to be able to deliver 
for students around the country. As part of my role in 
representing Secretary Duncan in the White House Task Force to 
Protect Students From Sexual Assault, I visited campuses around 
the country as part of the Office of Violence Against Women in 
the Department of Justice grant program to see what kinds of 
successes they're able to see from the grants that they're able 
to deliver, and I have to confess that I have real jealousy 
that they're able to give those grants and to ask for changes 
that they know need to be made and for research about best 
practices that can come from the delivery of those grants. It 
would be incredibly meaningful for us.
    Senator Murray. Wonderful.
    Mr. Moore.
    Mr. Moore. Yes, Senator, thank you very much for your work 
on that initiative. What we find with the Clery Act, and it's 
one of the reasons why we are very excited about the work of 
the task force and the work that the CR is doing with regard to 
climate surveys, you have to understand what the campus climate 
and culture is before you can address it effectively.
    One of the other tools that is in the new VAWA requirements 
is that we are going to require schools to have primary 
prevention programs. Primary prevention, again, only works in a 
proactive way, if you understand what's going on on your 
campus. If you have problems in an ROTC program, in the 
athletic department, in fraternities and sororities, then you 
have to make sure that that training is designed to address all 
of those issues.
    To get to these issues of culture and climate and tradition 
that are problematic on campuses, we have to get an 
understanding of harassment, hazing, several other factors if 
we're going to be effective. Thank you very much.
    Senator Murray. Perfect. Thank you very much to both of 
you.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you very much, Mr. Chairman.
    The topic of this hearing couldn't be more important. Our 
young people go to college to learn about the world, to start 
their careers while they're working hard to build their 
futures. They should at the least feel safe on campus, and they 
should feel confident that if they are victims of crimes, the 
people around them will respond quickly and with respect and 
compassion.
    I know now that for 20 years the Federal Government has 
been collecting and disclosing data on alleged campus crimes 
under the Clery Act. Mr. Moore, you just noted that last week 
the Department of Education released draft rules on expanded 
data collection.
    Data can be a powerful tool in helping us understand the 
problems we face and possible solutions. I want to ask about 
how the data are used. Mr. Moore, can you tell me about what 
kind of analyses the Department of Education conducts with 
Clery Act data and, taken as a whole, what these analyses have 
shown?
    Mr. Moore. Yes. Thank you, Senator, for the question. What 
we do to validate this information is we go out to schools and 
we conduct assessments, compliance assessments, and when we do 
that we will look at substantial samples of incident reports to 
see if they were classified the right way.
    Senator Warren. All right. Just so I'm following you here, 
what you're saying is you go out and you validate that you're 
getting good data that come in.
    Mr. Moore. Correct.
    Senator Warren. And so you make an independent, on-the-
ground evaluation. You look through what kinds of records?
    Mr. Moore. Police incident reports, security documents, 
student conduct records, sometimes the HR records. Sometimes 
you have to go into athletic departments or fraternity offices. 
Anybody who can adjudicate, discipline, or investigate issues 
of discipline, we have to look at records from those offices.
    Senator Warren. OK. So you look at the records, you look at 
what was reported, and you see how good the match is, and then 
you know about the quality of your data. And I presume if the 
match is not good, then you have an ongoing relationship with 
the school about how it is they need to improve their data 
reporting.
    Mr. Moore. There are several things we do. There's a 
technical assistance and corrective action component, and if 
what we find constitutes a substantial misrepresentation, the 
school could be subject to administrative action. Usually that 
would mean a fine.
    Senator Warren. OK. So you try to get everyone in 
compliance in terms of reporting the information. Now my 
question is, we have this information, we've been collecting 
information for 20 years now. Presumably, the quality of the 
information has gotten better over time and more complete over 
time. What do you do with the information?
    Mr. Moore. We do collect that information from all of our 
institutions, and we do analyses of it to try to track trends 
in campus crimes----
    Senator Warren. You look for trend lines on a school-by-
school basis?
    Mr. Moore. Sometimes on a school-by-school basis, but also 
across sectors of education. We will often look at community 
colleges and look for trends there. Obviously, the crime 
environment is very different at a community college that 
doesn't have dormitories versus, let's say, for-profit 
educational institutions that don't have the big sports 
programs, big fraternity programs, those kinds of things, and 
then we'll look at our traditional institutions that are likely 
to have more types of crime occurring.
    Senator Warren. And do you make all of those reports public 
when you do these analyses? Are you putting them out there, 
making them public?
    Mr. Moore. The statistics are publicly available.
    Senator Warren. I understand the statistics are publicly 
available.
    Mr. Moore. The analysis is not.
    Senator Warren. You do the analysis. Then what happens with 
it when you discover a problem?
    Mr. Moore. Basically, we use it to formulate our compliance 
program, we use it in the conduct of our cases, and it also 
gets used in terms of possible proposals for changes to the 
rules.
    Senator Warren. Actually, then, let me switch it over to 
Ms. Lhamon. Do you use these data as part of your enforcement 
strategies and designing your enforcement strategies?
    Ms. Lhamon. We do, and we use it in two ways. One is that 
Jim and I work together when we collectively have concerns 
based on the analysis that Jim and his staff have done. He may 
refer something to us so that we can begin to investigate. We 
also take a look at the data itself to decide whether we should 
do a proactive investigation of our own. It may be a little bit 
counter-intuitive, but sometimes very low data from a school is 
a reason for us to go in and investigate because it will seem 
like they may not be reporting appropriately. But we use the 
data very often in our own assessments for where we should look 
at a school, and also when we have a complaint that comes to 
us, what we should do as we're evaluating that complaint.
    Senator Warren. I'm just about out of time here, too. But 
let me ask one more question that ties this together. Are there 
other data that you should be collecting or that you would find 
helpful in making your decisions about where you have 
compliance and where you don't that you feel ought to be there?
    Ms. Lhamon. Sure. There's one that I think is coming that 
we will access and another that I would like to have that we 
don't have now. The one that's coming----
    Senator Warren. Very quickly.
    Ms. Lhamon. I'll get to the one we don't have. I have a 
civil rights data collection that I conduct for the K-12 
schools around the country, and it gives me a picture of equity 
health for those schools that I find enormously useful for the 
enforcement work that we do. I don't have that same data access 
at the higher education level, and I think it would be 
terrifically useful in this area, among others, for civil 
rights compliance in higher education. I think it would be 
very, very helpful to have it.
    Senator Warren. As I said, I've run out of time. I very 
much appreciate this. I do think that we have to be very 
careful about the quality of our data--I'm very glad to hear 
about this part of it--how we use those data to identify and 
analyze problems and collect more and better data if we need 
it, because I think the focus on prevention needs to be far 
more intense than it has been.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much. I 
appreciate you having this hearing, and I want to thank our 
witnesses for your testimony and for your work on this.
    I have to commend, even though we have a long way to go on 
this issue, I have to commend the work that you've done, the 
White House, Vice President Biden, and so many others who are 
working on this problem. This problem has persisted now for 
generations, and we're finally getting to the point where we're 
reacting appropriately to it.
    We should react with a sense of outrage. This is the 
ultimate betrayal of a woman who attends college. We all say we 
want people to get higher education. We all say it's important. 
And then we send them to institutions where many institutions--
not every, but many--don't seem to take this issue very 
seriously.
    It should be under the category of a zero tolerance effort, 
and the perpetrators should be labeled as such, or labeled with 
words like ``coward'' and ``monster'' and whatever else we can 
come up with. I know that upsets some people, but it's the way 
I see it. There should be zero tolerance, and that means the 
institutions should be doing a lot of things already without 
any laws, without any regulations, but some of them haven't 
gotten the message, so you have to send the message more 
directly and have some rules.
    I'm glad that we made great progress when we reauthorized 
the Violence Against Women Act. One of the component parts of 
that was my Campus SaVE law, which you're now working on 
implementing. We're grateful for that. I'm grateful to Senator 
Leahy in his work to get that done.
    We've made progress with Campus SaVE. We have to get it 
implemented, but I'm sure there will be gaps and other matters 
that weren't addressed. So we've made progress; we have a long 
way to go.
    In light of the Campus SaVE elements which you've spoken to 
a little bit, Mr. Moore, I think on page 4, talking about 
clarifying definitions, keeping data, having better prevention 
strategies, getting bystanders involved--too many students who 
don't want to do what they should be doing to help when they're 
bystanders. A whole range of changes that will take place.
    But the one thing I wanted to ask you in particular was 
now, that you're in the process of making sure these provisions 
get implemented, how long will schools have to come into 
compliance?
    Mr. Moore. Thank you, Senator, for the question, and thank 
you for your work on the Campus SaVE Act. As a fellow 
Pennsylvanian, you make me very proud, sir.
    Senator Casey. Thank you.
    Mr. Moore. What we have been very clear on, and we're going 
to issue additional guidance in the coming days to reiterate 
that institutions have to make their best good-faith effort in 
this first year, OK? Their best good-faith effort to comply 
with the statutory language, since we don't have final 
regulations. When institutions issue their annual security 
reports in October of this year, what we're going to be looking 
to see is indicia that schools are looking for ways to 
implement these requirements, and then we will have a full year 
to recalibrate that properly with the schools, issue additional 
guidance to clarify where there are problems. With all the work 
we've done on this, you can guarantee that there's a piece here 
or there that we didn't consider, and we will have to go back 
and address that in our guidance.
    We are also going to have a complete re-write of our 
handbook for Clery Act compliance, and that will be available 
to the schools. We're also working on some other training 
materials that will be available free of charge to all of our 
schools. So by the time we get to October 1, 2015, everybody 
should be on the same page.
    Senator Casey. That's great. I wanted to ask as well, in 
the remaining time I have, about the education of institutions. 
I realize that institutions tend to feel that they're 
overwhelmed with rules, but this is one they have to comply 
with. You can't really call yourself a university or college if 
you're allowing this problem to persist. So tell me a little 
bit about how currently, or how upon implementation, the 
Department will be helping to educate institutions going 
forward.
    Mr. Moore. One of the things we've done is we've increased 
our presence at training conferences, and we have increased 
both the number of guidance documents that we've put out and 
the quality of those documents. We've brought them down to a 
level that will be, that should be easy for all institutions to 
implement. That's one of the issues with the Clery Act, that 
you have 6,000 schools, some of them with 25 students and maybe 
3 or 4 employees in a strip mall running a cosmetology school, 
up to a mega State university. It's actually a very flexible 
program. A lot of what's in the Clery Act is not terribly 
prescriptive. It requires schools to take that law and 
implement it at their schools. They need an implementation 
plan.
    In this new guidance that we're putting out, we want to 
give them best practice information that will allow them to 
develop that implementation plan in an appropriate way at the 
very little school and the large school.
    Senator Casey. That's great. I appreciate that. I'm over 
time, but thanks for your work.
    [The prepared statement of Senator Casey follows.]

                  Prepared Statement of Senator Casey

    I would like to thank Chairman Harkin and Ranking Member 
Alexander for calling this hearing today to address one of the 
most serious issues facing the higher education community: 
campus sexual assault.
    In recent months, there has been renewed attention on this 
troubling issue, for which I am deeply grateful. Too many 
survivors of sexual assault have suffered in silence, or been 
silenced when they have attempted to speak out, and it is 
fitting that we are giving them a voice and shedding light on 
this issue.
    In that vein, I am particularly honored to welcome the two 
survivors here today, Emily Renda and John Kelly. I admire 
their strength in coming forward to tell their stories in such 
a public forum, and for advocating on behalf of all survivors 
of sexual violence.
    I have been working to address sexual assault on college 
campuses for several years now, and I am pleased that, with 
Senator Leahy's help, we were able to include significant 
improvements to the Clery Act in the reauthorization of the 
Violence Against Women Act last year, based on my legislation 
called the Campus Sexual Violence Elimination Act or Campus 
SaVE Act. These provisions are now referred to as the ``VAWA 
amendments to the Clery Act.''
    The Campus SaVE Act represents a significant step forward 
in providing clear standards and guidance to institutions of 
higher education on what they should be doing to prevent sexual 
assault and how they should respond to sexual assault. The law 
provides flexibility, recognizing that a large public 
university is very different from a small private university in 
terms of its resources, its administrative structure and how it 
handles law enforcement. But it also firmly establishes the 
need for these institutions to have robust procedures in place 
that are fair for both the survivor and the accused individual; 
that respect the survivor and his or her needs; and that 
promote safer campus communities.
    I would also like to emphasize that while we are primarily 
discussing sexual assault, Title IX and the Campus SaVE Act 
both address the full range of intimate partner violence, 
namely domestic violence, dating violence, sexual assault and 
stalking. In many cases, the needs of the survivor are the same 
(access to healthcare and mental health services; changing 
living, working or academic arrangements; the ability to pursue 
campus or legal proceedings), but the specifics of a response 
may differ based on the specific incident that occurred and the 
parties involved.
    The Campus SaVE Act is currently being implemented by the 
Department of Education. I am pleased to recognize, in 
particular, James Moore, who is from my home State of 
Pennsylvania, and who currently serves as the Compliance 
Manager for the Clery Act Compliance Division at the Department 
of Education. The Department recently released the proposed 
rule implementing the Campus SaVE Act, following a successful 
negotiated rulemaking committee, and I am grateful for the hard 
work that the negotiators and the Department put in to making 
the regulations a reality.
    Implementing the Campus SaVE Act is one of my top 
priorities, and I believe that the law will lead to significant 
improvement in how colleges and universities prevent and 
respond to cases of sexual violence, dating violence and 
stalking. However, I recognize that we may need to take further 
steps once the law is fully implemented to ensure that 
institutions of higher education are living up to their moral 
and ethical responsibilities to protect their students from 
sexual violence, so I look forward to hearing the testimony and 
suggestions from our witnesses today.

    The Chairman. I thank you, Senator Casey.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman.
    Earlier in this session of Congress we took some incredibly 
important and, I would argue, very long overdue steps toward 
combating the epidemic of sexual assaults in the military. In 
examining the problem of sexual assaults in the military and 
the steps that were taken, I discovered that there was no 
specific focus on looking into and collecting data on sexual 
violence in Reserve Officer Training Corps programs on our 
Nation's college campuses.
    I view ROTC programs as standing at the intersection 
between the crisis of sexual assaults in the military and the 
issue of sexual assault on campus. Nearly 40 percent of all new 
officers commissioned into the Army and Navy combined since 
2012 have come out of ROTC programs on our Nation's campuses, 
and I really think it's critical that we understand how the 
issue of sexual assault is being addressed among the 
commissioning source of so many of our military's future 
leaders.
    That's why I earlier this session asked the Department of 
Defense and the White House to ensure that data from ROTC 
programs contributes to the full understanding of the problem 
of sexual violence at our colleges and universities. I was 
disappointed that the report by the White House Task Force to 
Protect Students From Sexual Assault that was released in April 
didn't address these issues, nor does, as I understand it, any 
Department of Education title IX guidance speak specifically to 
how ROTC codes of conduct should address this issue.
    And to both of our panelists, while I understand that 
instances of sexual assaults against students who are in ROTC 
programs should be investigated and reported in the same manner 
as other campus sexual assaults, my questions are: have you 
undertaken any formal or informal collaboration with the 
Defense Department on the issue of sexual violence in ROTC 
programs on college campuses, and can you tell me why the 
Department of Education has not apparently spoken specifically 
to this aspect? I would ask both of you to respond.
    Ms. Lhamon. Thank you. I, No. 1, want to say that I'm sorry 
to have disappointed you in the task force so far, and I hope 
that we can redeem ourselves going forward.
    Senator Baldwin. It's a focused criticism.
    Ms. Lhamon. A fair point. Thank you.
    No. 2, I want to be sure that I say that our goal, 
especially in the most recent frequently asked questions 
document, was to make very, very clear that there is no student 
on a college campus whom the college title IX obligations do 
not extend to. It was our goal not to take away from that 
overarching message that title IX obligations extend to every 
student of every type on every campus so that the schools will 
make them all safe, and I had some worry that if we 
disaggregated any particular type of student, we would 
undermine that message.
    I would be very pleased to work with your office as we go 
forward about ways that we can make sure that we are sending a 
clear message also about the ROTC students. I want to assure 
you that we have been in our investigative space working 
specifically with ROTC students.
    One complaint that comes to mind--this is in the K-12 
space. But a young woman came to us with a complaint that she 
had not been able to be promoted to a commander in her Army 
ROTC, and we investigated. We found some really harrowing facts 
about the way that she was treated and the way that the ROTC 
lead talked to her in sexually discriminatory ways in that 
school, and her mom thanked us at the end of the resolution to 
let us know that she was the first young woman ever to be 
promoted in that ROTC campus.
    So we are working in this space in our enforcement work. 
We're trying to send a really clear message. And specifically 
to your question about the ways that we work together with the 
Department of Defense, we're working arm-in-arm with them in 
the White House Task Force, and our work is ongoing. We put out 
our first 90-day report, but the President has directed us and 
reminded us repeatedly that he expects an annual report with 
new progress each time going forward. So there will be further 
steps.
    Senator Baldwin. Thank you.
    Mr. Moore.
    Mr. Moore. Senator Baldwin, I want to thank you for your 
work on the Defense aspect of this. I think one of my takeaways 
from the fine work that you all did was that you have to have 
meaningful punishments for sexual assaults if you're going to 
change the culture.
    One thing I can assure you of is that in our work, we look 
at institutions across the board. We're looking at crimes that 
occur on campus regardless of where they occur. But one of the 
important changes under the VAWA amendments, again, is that 
we're going to start to look more closely at issues of culture, 
climate, damaging traditions. There's lots of that in the 
military that we see, especially along the lines of hazing. But 
when you create that culture where these things are allowed to 
occur, then one of the next things you get is sexual assault 
happening in high numbers without any proper law enforcement 
response or disciplinary response.
    This is something that we would definitely like to work 
with you on going forward, and to also look beyond ROTC to the 
very enduring problems that we see in athletic programs, 
fraternities and sororities, and other kinds of organizations 
on campus.
    The Chairman. Thank you, Senator Baldwin.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here.
    I wanted to followup on the question Senator Murray asked. 
She was asking about best practices with respect to prevention. 
I wanted to turn to the investigation and disciplinary process, 
a fairly well publicized case in Columbia. Emma Sulkowicz talks 
about the fact that many students there feel a second 
victimization when they go through the process of reporting and 
testifying to the abuse. She tells the story of being asked 
some incredibly insensitive and irrelevant questions in the 
process of trying to gain justice and speaks to a much broader 
concern about there being a rather uninformed and sometimes 
under-trained set of investigators and people who are 
overseeing the disciplinary process.
    So what have we learned from what happened at Columbia? 
What are the recommendations that you're making to schools so 
that we don't have a reputation of re-victimization happening 
when someone has the courage to report and bring it to a 
disciplinary board?
    Ms. Lhamon. Thank you. It's critically important. We have 
seen all too often that the investigative process at a school 
can be so invasive, so unpleasant, so ill-handled that students 
elect not to use it, which sends its own message to students on 
the campus that it's just not worth coming forward and this is 
not safe.
    That's one of the key things that we want to see campuses 
change, that they need to be sending a message to their 
students that the process will be fair, that it will be 
effective, and that it will be impartial and it will not 
involve inappropriate questions about students' backgrounds, it 
will not involve a way of further victimizing people who have 
the courage to come forward.
    One thing that we've tried to do about that is to put 
information specifically about the conduct of investigations in 
the Frequently Asked Questions document that we just released 
this spring. We also are making our investigation results more 
public so that schools can see the kinds of things that we find 
unacceptable when we investigate. Going back to the Tufts 
example, that specific set of concerns is exactly what we saw 
with Tufts. It's exactly what we saw with Virginia Military 
Institute. It's exactly what we saw with SUNY, frankly.
    We have been able to highlight what it is that we thought 
was wrong with the way that those investigations were 
conducted. We have been able to highlight what it is that the 
universities have agreed they will do to change that going 
forward, and we're monitoring those changes to make sure that 
they are lived reality for students in the next years.
    Senator Murphy. Let me ask you that question. How do you 
monitor these processes? These processes happen behind closed 
doors. You don't get data about the kinds of questions that are 
being asked, I can't imagine. So how do we track whether this 
is getting better or worse for students other than hoping 
there's a handful of students who go through an experience that 
is unpleasant and report it back through a chain that ends up 
in your hands?
    Ms. Lhamon. Certainly at the schools where we have 
resolution agreements, we do get their case investigation 
files, and so we do get to see the ways that they investigate. 
That's a subset of all the schools, but that's a very important 
piece of data for us, and it's also a very important component 
of getting to a place where we can say, ``OK, this school is 
now behaving in an appropriate manner so that we do not need to 
keep monitoring.'' So we will see the ways that the schools 
investigate, what it is that they do, the degree to which they 
comply with their policy which says that they can't do those 
things going forward, and the degree to which they satisfy 
their obligations for their students.
    Senator Murphy. Mr. Moore.
    Mr. Moore. Senator Murphy, this is a very key point. 
Whatever number you look at, if it's one in five, if it's one 
in six, if it's something else, what we know is that campus 
sexual assault is vastly underreported, and one of the main 
reasons is that there's not a good path for redress, OK? The 
criminal justice system is often re-victimizing, and these 
campus judicial systems, if they are not well formulated, can 
be even more so.
    One of the things that we did in these new rules is that we 
tried to fix some of the procedural elements around these 
hearings. For instance, now there is a notice requirement. 
There have been students who have come to us and shown with 
documentation that they were given an hour, 2 hours to prepare 
for a hearing, or evidence that is supposed to be provided to 
both sides was given to them as they entered the door for the 
hearing with no opportunity to review it. We now will allow on 
both sides, both the accused and the accuser, to have an 
advocate with them, an advisor of choice.
    One thing that may be valuable to consider in the future 
would be a basic relevancy rule in these hearings. I can tell 
you, having reviewed documents for many of these hearings, the 
kinds of information--you can't call it evidence--that is 
submitted and considered by these boards of under-trained 
people very often is frightening. I have seen cases where 
people take things off of Facebook pages and something like 
this and have that submitted as evidence, as if it's 
dispositive of something. This is something that we might want 
to look at going forward, a basic relevancy rule that says only 
relevant evidence should be admitted, and even relevant 
evidence should be excluded if it has a substantial risk of 
unfair prejudice.
    Senator Murphy. Makes sense to me.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thanks, Mr. Chairman, and thank you 
both for being here.
    It strikes me that the relationship between the college or 
university and the local police department is very important, 
and that missteps in that relationship are fraught with danger 
both for the alleged victim and the alleged perpetrator, 
including loss of an opportunity to gather necessary evidence 
if the police aren't brought in quickly enough, interference by 
the university or college in an ongoing criminal investigation.
    There is a public safety value to making sure that these 
offenses are reported, and there's a potential liability to 
universities if it keeps one student's confidence and that 
causes another student to be attacked by the individual about 
whom they had not brought that information to the police. 
That's a doctrine that is so longstanding that it's a common 
law crime to commit misprision of a felony, which is 
concealment of a felony even if you had nothing to do with it, 
even if you're just aware of the information. And, of course, 
investigation is not a core expertise of a college or a 
university that we expect.
    My sense is that the handoff between the university and the 
local law enforcement authorities is not very well managed in a 
lot of places and that there are very simple things that could 
make a big difference. I think it's probably a very big 
difference if the victim or the alleged victim is having her 
conversation--presumably her, but also his conversation--with 
the university if they say, ``well, you should consider 
reporting this to the police, and they're downtown, and we may 
give you cab fare.'' As the student, you're kind of going off 
into the unknown, waiting in line in the police station, not 
knowing who you're going to talk to, versus we have a very good 
relationship with the local police department, and Officer 
Jones is right outside, she works all these cases, we know her 
very well, you really should let her into this conversation 
because you'll be making choices now that will really change 
the way you can pursue this down the road if you don't have her 
or him in this conversation. That seems to be an area that 
isn't getting the attention that it deserves.
    So I guess my question to you is, have you identified 
colleges and universities that have what you would consider to 
be a model relationship with their local police department in 
terms of making sure that handoff between the two isn't 
mishandled from the perspective of the students that have their 
interests involved?
    Ms. Lhamon. Yes, we have. And also I want to say how 
strongly I agree with you about the concern certainly from the 
perspectives that you raise, but also from some of the college 
and university staff that I've heard from where they say that 
there isn't even a local law enforcement agency nearby that has 
the capacity to take a rape kit, as one example. So there is 
certainly the dimension of the problem that you described, 
which is that the connect isn't good between the school and the 
place that they could go. But there's also the disconnect where 
there isn't a place to send students that's nearby in the first 
place. It's a very significant issue for us.
    Senator Whitehouse. What are your model relationships 
between a university and a police department? I don't expect 
you have them at the top of your head right here, but I would 
like, as a response for the record----
    Ms. Lhamon. Sure.
    Senator Whitehouse [continuing]. To have each of you 
identify where you think model relationships exist between 
campuses and the local police department and what you think the 
elements are in that relationship that make them a model 
relationship. I was a U.S. Attorney. I was an Attorney General. 
I come at this from a little bit of a different perspective, 
and it's a little bit alarming to hear how much completely 
untrained, completely inexperienced, completely unauthorized 
people are meddling around in a matter in which a felony has 
been alleged.
    Ms. Lhamon. Yes.
    Senator Whitehouse. And if you don't bring people in who 
have the proper authority, who know what they're doing, and who 
have the process in place to make sure that evidence is 
gathered, which degrades very rapidly in some cases, then 
you've created a real problem. And similarly, if you force the 
college to go and maintain an investigation and produce a 
report at a time when the police are saying,

          ``For God sake, we're investigating this, knock it 
        off, we're trying to interview these witnesses, we 
        can't have you running around and interviewing 
        witnesses, this is interference with a criminal 
        investigation.''

    That seems to me to be a pretty serious challenge as well.
    Ms. Lhamon. If I could, Jim and I have been working 
together, and also with the Department of Justice, to create a 
model memorandum of understanding that colleges and 
universities could have together with local police departments. 
We hope that will be out in the world in just a few weeks. So 
we should be able to at least give you those points. I have 
seen----
    Senator Whitehouse. My time is up, so I should ask you to 
followup for the record rather than extend this.
    Ms. Lhamon. OK.
    Senator Whitehouse. But I know that our police departments 
and universities in Rhode Island would welcome that.
    Ms. Lhamon. Thank you.
    The Chairman. Thank you very much.
    I know we want to get to the second panel, but I want to 
clear up perhaps a misunderstanding with Ms. Lhamon here. On 
the next panel there will be a witness, Ms. Renda, Emily Renda. 
This is what she said, and I read it last night. She said that,

          ``The disproportionate and impractical nature of the 
        only sanction available to OCR hinders its efforts at 
        enforcement. OCR should be given the latitude to design 
        smaller and more flexible sanctions appropriate to the 
        violations.''

    Not everything rises to the level, I would say to my 
friend, to the level of a felony.

          ``Additionally, rather than simply imposing fines of 
        varying sizes, OCR should be empowered to impose fines 
        in the form of forced budgetary reallocations to help 
        push schools into compliance.''

    When we were talking earlier, I think you may have thought 
that I was trying to say that we should take away the nuclear 
option. That's not what I'm saying. That's fine. But if that's 
the only thing you have in your arsenal, then it makes it very 
hard to respond to incidences that may not rise to the level of 
a felony but still are egregious actions on the part of one 
student to another student.
    I wanted to make that clear. I thought you were saying, no, 
you don't need anything other than the nuclear option.
    Ms. Lhamon. If I may, I just want to say that I think it is 
really useful to us to have the nuclear option in our back 
pocket. I didn't hear you saying you would take it away. I have 
a worry that if we have a lesser tool, then it would make it 
harder for colleges and universities to expect us to use the 
nuclear option, and that is a very valuable tool for us.
    The Chairman. Then you're going to disagree with Ms. Renda. 
I thought maybe you were, but I see now that that's not the 
case.
    Second, again I say to Senator Whitehouse, I've been 
involved in some of these in the past, too, when my wife was a 
prosecuting attorney. A lot of times, students who are the 
victims of this, just need to know what to do. They need to 
have somebody that they can trust to go to, like an ombudsman 
on a campus that has been trained, that has the qualifications 
to at least initially be on the side of the person who has been 
victimized to give them the kind of information about where 
they should go.
    How many colleges have that kind of ombudsman? Do they have 
them or not?
    Ms. Lhamon. The title IX coordinator can function as an 
ombudsman, and every campus is supposed to have a title IX 
coordinator.
    The Chairman. But the title IX person is sort of in the 
hierarchy of the school, and that's the problem, that's the 
problem.
    Ms. Lhamon. Yes.
    The Chairman. You need somebody not in that hierarchy of 
the school. OK, got that.
    Are military academies exempt from title IX? I'm told they 
are. I just found that out. Do we know?
    Senator Warren, do you know?
    Ms. Lhamon. I think the answer is yes. I'm stuck on 
Virginia Military Institute, but I think it's because it's a 
different institution.
    The Chairman. No, I'm talking about our military academies. 
I've just been informed that they're exempt from title IX. No 
one seems to know.
    Senator Warren. Does that mean they're not reporting data, 
either? Do they report data to you?
    Mr. Moore. Senator, the military academies are exempt from 
the Clery Act.
    Senator Warren. So you collect no data from the military 
academies?
    The Chairman. They don't even have to report? They don't 
even have to report.
    Mr. Moore. It's something that probably should be 
corrected. But because of the way the title IV financial aid 
rules are written----
    Senator Warren. You think?
    [Laughter.]
    Mr. Moore. The rules say that if you don't receive funds 
from our programs, you don't have to comply with the Clery Act. 
The Clery Act simply doesn't apply to those institutions.
    The Chairman. Now, wait a second. I thought that applied to 
any school that receives Federal funds.
    Mr. Moore. Not the Clery Act, because it's only in title 
IV.
    Senator Baldwin. Mr. Chairman, just on that topic, and I 
asked the earlier question about the ROTC programs, Congress 
did take some new steps on combating military sexual assaults, 
in the Defense authorization budget we did include the military 
academies under those provisions. And yet, ROTC was not 
included, which is why I feel like we have to focus some 
attention on the training of many of our future officers. But 
you're accurate about title IX.
    The Chairman. So they don't have to report under the Clery 
Act like other colleges. I didn't know that.
    Thank you very much, panel. I really appreciate it very 
much.
    Now we will call our second panel. There are some votes 
coming up at 11:45.
    Ms. Lhamon. Thank you.
    The Chairman. Thank you both very much.
    We'll call Emily Renda, John Kelly, and Jane Stapleton.
    Senator Whitehouse. Mr. Chairman, while the next panel is 
assembling itself----
    The Chairman. Yes?
    Senator Whitehouse [continuing]. Let me say that I 
understand that there are circumstances that come through the 
sexual assault reporting mechanism at these universities that 
amount to less than criminal activity. My point is that unless 
you have somebody in the room who understands what felony 
sexual assault is, and an ombudsman is not anywhere near as 
expert as a prosecutor or police officer, and if the 
institution can't support connecting with the police department 
in a way that is easy and supportive for the alleged victim, 
then you have real problems down the road, because by the time 
they do figure it out, it could easily be too late to gather 
the appropriate evidence. All sorts of statements have been 
made that will foul up a criminal prosecution. You've really 
put the individual at risk in terms of defending her rights as 
a victim through the law enforcement process.
    The Chairman. I got that. But I think we'll hear from some 
on this panel that maybe a victim doesn't--they get caught up 
and they get pushed into a felony accusation, and that takes on 
a life of its own when maybe that's not really what they were 
seeking, and maybe they get a little reticent to go down that 
pathway.
    Senator Whitehouse. If the person presents the risk of 
being a serial offender, there are very good reasons why 
sometimes the law enforcement process goes forward even with an 
uncooperative victim. We do it in violence against women 
prosecutions all the time.
    The Chairman. Sure.
    Senator Whitehouse. A woman recants, but you go ahead with 
the excited utterance and you make the prosecution because of 
the statistical likelihood of re-offending.
    The Chairman. I think this panel has some thoughts on this 
subject.
    We'll start with Emily Renda, a recent graduate of the 
University of Virginia, completed a thesis in Sociology on the 
relationship of title IX compliance to sexual assault reporting 
rates. As an intern to the university president, she also 
completed research on sexual assault resource utilization. I am 
told now that she works as a special intern for the office of 
the vice president and chief student affairs officer at the 
University of Virginia to help with title IX compliance 
efforts.
    And then next we have Mr. John Kelly, a rising senior at 
Tufts University, where he studies Religion. He is a survivor 
of intimate partner violence and rape while a college student. 
He is the special project organizer for Know Your 9, a campaign 
that aims to educate all college students about their rights 
under title IX.
    We are grateful that you are here.
    And then Jane Stapleton, a co-director of the University of 
New Hampshire Prevention Innovations: Research and Practices 
for Ending Violence Against Women. She has extensive experience 
in working to end violence against women in college and 
university settings. She's a lead developer and evaluator of 
the Know Your Power bystander social marketing campaign. She 
trains colleges, universities, and community organizations in 
how to facilitate and implement comprehensive strategies to end 
this kind of violence.
    With that, your statements will be made a part of the 
record in their entirety.
    I'll start with you, Ms. Renda. Could you start and sum up 
maybe in 5 minutes the essence of yours? And then we'll move to 
Mr. Kelly, and then Ms. Stapleton, and hopefully we'll have 
time for some questions and answers.
    Welcome, Ms. Renda.

 STATEMENT OF EMILY RENDA, SPECIAL INTERN, OFFICE OF THE VICE 
  PRESIDENT AND CHIEF STUDENT AFFAIRS OFFICER, UNIVERSITY OF 
                 VIRGINIA, CHARLOTTESVILLE, VA

    Ms. Renda. Thank you, Senator Harkin, Senator Alexander, 
and other members of the committee present today, for the 
opportunity to speak. As noted, my name is Emily Renda, and I'm 
a recent graduate of the University of Virginia. In my 
experience as a survivor, and in the course of my work as an 
advocate and activist, I have learned a great deal about the 
dynamics around campus sexual assault that I hope will be 
informative for the committee today. I want to lay out several 
observations I've made about the challenges survivors face and 
the way that Federal law and regulation influence or could 
influence those challenges.
    As requirements under title IX and Campus SaVE amendments 
expand the mandate for prevention and education outreach, it is 
critical we ensure colleges are also providing education about 
peer support to their students. Self-blame and victim blame are 
among the primary factors that deter victims from reporting. 
Personal feelings of responsibility for an attack, especially 
when reinforced by peers, undermine a survivor's sense that it 
is his or her right to seek justice.
    One survivor I worked with did not report her gang rape 
until almost a year later because immediately after the attack 
she confided in peers who did not believe her, who told her 
that she was wrong about what had happened to her because 
``those were all great guys.'' Her friends' responses took away 
her confidence to report or seek help, which meant those five 
young men went unpunished and remained a threat to the other 
students throughout that year. Education on supporting a 
survivor can prevent these re-victimizing responses from peers.
    Though the current national media spotlight has almost 
exclusively focused on the lack of punitive sanctioning for 
students found responsible in sexual assault cases, we must 
maintain a range of available sanctions for colleges to employ 
to respect survivors' various needs and wants. Especially in 
cases where the perpetrator is known, or in cases of 
relationship abuse, many survivors I have known were initially 
scared to report because they did not want to ``ruin his life'' 
or ``get him into trouble.''
    In the case of one young woman in an abusive relationship, 
the dean of students was only able to convince her to take 
disciplinary action by reassuring her that the disciplinary 
process could be used to get him help. Her views may have 
changed later down the line, but that's what got her in the 
door. Had mandatory expulsion been the only option, she would 
have waited much longer to report, if she ever came forward at 
all.
    A range of sanctions is about getting survivors in the door 
with respect for their agency and their shifting needs. Getting 
more survivors through the door rather than discouraging them 
gives universities a better chance to be fully aware of and 
combat hostile environments.
    Also, as title IX investigations shed light on the way that 
cases are mishandled in universities, it may discourage future 
survivors from coming forward out of mistrust for their own 
institutions. In order to rectify that potentially chilling 
effect on reporting and seeking resources from that publicized 
title IX investigation, resolution agreements with OCR should 
incorporate recommendations and requirements to form working 
committees of students and administrators to help keep students 
informed and involved in the steps that a university is taking 
to rectify the issues from that initial public complaint. A 
top-down communications approach of university to student does 
not ameliorate fears and concerns about mistreatment as much as 
student-to-student communication about what the administration 
and students are working on together.
    The knowledge of and opportunity for input is also certain 
to reassure students that the administration is transparent 
about the way it handles cases and will handle cases in the 
future. By including formal requirements for student-
administrator working groups, resolution agreements can help 
address some of the fears raised by publicized complaints so 
that survivors can feel safe and supported when they seek 
resources from the offices and administrators best suited to 
connect them to those resources and remedies.
    Additionally, in order to address some concerns about 
equity commonly being raised, it may be helpful to statutorily 
define the requirements and procedures for sexual assault 
hearings on campus raised by OCR in their guidance. By 
specifically codifying some of the recommendations, it may 
clarify concerns colleges have about how to appropriately 
adjudicate. Many colleges appear hesitant to strongly sanction 
because of concerns that the accused student may appeal or sue 
the school, as more and more young men are now doing. This may 
then contribute to schools insufficiently sanctioning in cases 
where a hostile environment exists. Statutory clarification of 
how procedures ought to look based on OCR recommendations may 
help distinguish the campus process from criminal proceedings 
and draw distinct boundaries between the two so that colleges 
have a clear sense of how to proceed and address hostile 
environments without fear of civil action from accused 
students.
    When it comes to OCR's enforcement of title IX, the 
impractical nature of the only sanction available hinders its 
efforts to what you spoke to before. Their only stick for 
enforcement is really more of a tree trunk. OCR should be given 
the latitude to design smaller and more flexible sanctions 
appropriate to the violations. Rather than simply imposing 
fines of varying size, OCR should be empowered to impose fines 
in the form of forced budgetary reallocations to help push 
schools into compliance. Rather than a purely punitive 
financial sanction which may take resources away from students, 
budgetary reallocations could force schools to appropriate 
resources for students to improve its title IX efforts. For 
example, a sanction could mandate that a school must allocate 
$50,000 a year, per year, for 4 years to fund a trauma-specific 
counseling position at the student health center.
    Finally, while it may fall outside the scope of today's 
hearings, I think it's important to note that while the use of 
title IX to address sexual assault and sexual discrimination is 
an incredibly important tool, a more comprehensive approach to 
the issue of sexual assault would also consider potential 
reforms to State and Federal criminal law. If we improved our 
prosecution efforts, we would not have to rely so heavily on 
colleges to address the problem of sexual violence. Colleges 
may be more effective at addressing sexual violence, and 
offenders would be addressed outside of the college context 
much more meaningfully. Options for criminal reform may make it 
possible to better address this problem holistically.
    Thank you so much for the opportunity to speak, and I'm 
happy to answer any questions.
    [The prepared statement of Ms. Renda follows:]
                   Prepared Statement of Emily Renda
                                summary
    The following are the primary points raised in this testimony:

    <bullet> Mandated prevention programming must include education 
about supporting peer survivors to foster a culture of reporting. Self-
blame and victim-blame strongly discourage survivors from seeking 
remedies or disciplinary action. Peers are the most common primary 
disclosure point, and a negative response to an initial disclosure can 
invalidate a survivor's confidence about his or her experience. To help 
reduce negative peer responses that reinforce self-blame, prevention 
programs should incorporate information on how to support and respond 
to survivors.
    <bullet> Universities should ensure access to advocacy and/or 
counseling to increase reporting. Mental health care and crisis 
counseling can critically address issues of self blame and help 
survivors to recognize an assault as wrong. Confidential resources 
often facilitate formal reporting and seeking resources, so colleges 
should ensure access to these critical services to help encourage 
survivors' well-being and confidence to report assaults formally.
    <bullet> Colleges must maintain a range of sanctions so as not to 
deter survivors from reporting and respect the variety of resolutions 
survivors seek. Though much attention has focused on pushing for 
harsher sanctioning, many survivors resist reporting or seeking 
disciplinary action because of the prospect of punitive sanctioning, 
especially in cases of intimate partner violence or where the 
perpetrator is known. Maintaining informal resolutions and lower level 
sanctioning encourages survivors to seek remedies while respecting 
their wishes with regard to the accused.
    <bullet> Resolution agreements should foster cooperation between 
administration and students to combat mistrust of the university that 
could deter reporting. Especially following highly publicized 
allegations of universities mishandling of cases, students may fear 
their complaints would be similarly treated and decide not to come 
forward. Establishing formal collaborations between administrators and 
students on recommendations and requirements by resolution agreements 
will facilitate communication among students about a university's 
changes and help ameliorate fears of mistreatment.
    <bullet> Structured followup and public progress reports by a 
university following a title IX investigation will help ensure--and 
communicate to students--a university's commitment to rectifying its 
policy and procedures. Joint committees of students and administrators 
could issue reports on progress to OCR and the university communities 
on recommendations for title IX compliance to help hold the institution 
accountable and keep open channels for feedback regarding procedural or 
programming changes. Creating a feedback loop between students and 
administrators in particular will help reassure students who might seek 
help from administrators.
    <bullet> Codification of OCR recommendations for title IX may 
ameliorate due process concerns about equity for accused students. As 
more men accused of sexual misconduct bring title IX suits against 
their schools, it seems that statutory clarification of the hearing 
procedures and rights afforded each student involved in the process may 
alleviate tensions schools face when attempting to balance due process 
rights of the accused and title IX rights of the complainant.
    <bullet> Provide OCR with more flexible sanctions and forced budget 
reallocations. The current sanction available to OCR in title IX 
complaints is too heavy handed and has never been used. By allowing OCR 
to levy smaller penalties, OCR could mete out fines that could be 
enacted as forced budgetary reallocations--appropriating a certain 
amount of a school's budget to funding for prevention programming, 
trauma counseling, etc. in order to assure that the fines change 
university behavior while benefiting students at the school with 
greater provision of resources.
    <bullet> A holistic approach to the issue of sexual assault cannot 
ignore possibilities for criminal law reform at the Federal and State 
level.
                                 ______
                                 
                         experience and context
    Like many others who work on the issue of campus sexual assault, my 
connection to this cause is a personal one. Nearly 4 years ago, 6 weeks 
into my first year, I was raped by a fellow student on my campus after 
a night out with friends. In the time following the assault, I became 
active in peer sexual assault education, worked for the University of 
Virginia's Women's Center, interned with the Commonwealth Attorney's 
Victim Witness Program, worked with U.Va. administration to improve 
prevention and response efforts, and chaired Take Back The Night, a 
national campaign to raise awareness about sexual violence.
    Beyond prevention and response work, I also conducted research on 
topics including intimate partner violence prevalence on campus, the 
relationship of title IX compliant policy elements to reporting rates, 
and how survivors' primary disclosure point affects subsequent resource 
seeking.
    This past year, I helped organize and presented at the national 
conference U.Va. hosted to discuss sexual misconduct at colleges and 
universities. Finally, I also consulted with the Whitehouse's Task 
Force to Protect Students from Sexual Assault. I am now working in the 
office of the vice president for student affairs at U.Va. as we try to 
revamp our prevention and response efforts, taking into account recent 
guidance from the Department of Education's Office of Civil Rights.
    In my experience and course of work, I have learned a great deal 
about the dynamics around campus sexual assault that I hope will be 
informative for the committee. In this testimony, I lay out several key 
observations I have made about the challenges survivors of sexual 
assault face and the way that Federal law and regulation influence--or 
could influence--those challenges.
Section One
    This section will address four points relating to the way Federal 
regulation or oversight on university campus-level policies can help 
address challenges specific to survivors.

    I. Mandated prevention programming must include education about 
supporting peer survivors to foster a culture of reporting.

    Self-blame and victim-blame are among the primary factors that 
deter victims from reporting.\1\ Personal feelings of responsibility 
for an attack, especially when reinforced by peers, undermine a 
survivor's sense that it is his or her right to seek justice.
    One of the student survivors I worked with, Jenna*, was gang-raped 
by five fraternity men early in her freshman year. Despite the severity 
of the assault and injuries she sustained, Jenna still experienced a 
feeling of personal responsibility. Looking for affirmation, she sought 
out peers and told her story. Sadly, each and every one of the friends 
she reached out to responded with varying denials of her experience; 
these responses worsened her feelings of self-blame--that she must be 
confused because that fraternity ``is full of great guys''; that she 
must have made them think she was ``down for that''; questioning how no 
one else at the party could have heard what was going on if she was 
telling the truth; or discouraging her from seeking help because ``you 
don't want to be one of those girls who has a reputation'' for 
reporting ``that kind of thing.'' These statements haunted Jenna. She 
told me that they made her feel crazy, and made her question whether 
her own understanding of the rape was legitimate.
---------------------------------------------------------------------------
    * Not the survivor's real name for the purpose of confidentiality.
---------------------------------------------------------------------------
    Survivors who receive disaffirming responses to initial disclosures 
are more likely to experience negative mental health consequences as 
well.\2\ These negative and victim-blaming responses from her peers 
reinforced Jenna's sense of fault, and prevented her from coming 
forward to the University's administration or the Police. When she 
finally sought assistance from the Dean of Students' office, after 
struggling and nearly failing out of her classes for two semesters, it 
was difficult for the university to conduct a meaningful investigation 
because much of the evidence had been lost, and witnesses were more 
difficult to locate.
    Though assault ``severity'' (i.e., degree of physical force) is 
typically correlated with faster self-identification as a victim, 
powerful cultures of victim-blame and self-blame hinder that self-
identification that would encourage help seeking and reporting.\3\ In 
my own case, despite explicit force (e.g., strangulation, loss of 
consciousness and injuries to my head and torso), I still felt 
responsible for the assault because I had been drinking and had 
willfully gone to my assailant's dorm room. If victimized students are 
unable to overcome feelings of responsibility reinforced by victim-
blaming statements made by peers, we will not see the kinds of 
reporting behaviors it will take to identify and remove the violent 
perpetrators on our campuses.
    Subsequently, as the VAWA amendments to the Clery Act and title IX 
recommendations both provide for prevention efforts on campuses (e.g., 
``bystander intervention training''), these prevention efforts should 
acknowledge the importance of supportive responses to survivors. A 
strong culture of bystander intervention should also intervene after an 
assault has occurred in order to both encourage reporting and encourage 
seeking resources for the health of survivors individually and the 
university community more generally.

    II. Universities should ensure access to advocacy and/or counseling 
to increase reporting.

    As mentioned above, self-blame and victim-blame are critical 
factors for discouraging reporting they produce more severe mental 
health consequences for victims. As such, access to crisis advocacy and 
counseling services is crucial for helping survivors receive 
affirmation of their experiences and alleviate feelings of self-blame. 
Furthermore, support from mental health and advocacy personnel is 
positively related to formally reporting assaults.\4\ By ensuring 
access to these resources, colleges and universities increase the 
likelihood that they will receive more information and reports, while 
also reducing the number of student survivors who are unable to receive 
the care they need to continue succeeding in the campus environment.
    Access to these resources must be free, and universities must offer 
assistance in helping survivors access them. Simple referral processes 
by campus mental health services to community providers are 
insufficient--the process of setting up a second appointment with a 
stranger after having already taken steps to receive care, not to 
mention the burden of managing cost and insurance, can all too easily 
prevent survivors from accessing needed care. I was fortunate to be 
retained by my university's counseling center for long-term care, but 
other survivors I worked with, such as a sophomore student named 
Ashley*, was not accepted for treatment because her needs were ``too 
extensive.'' Ashley was referred to a community provider, but she did 
not followup because she felt too overwhelmed by setting up her own 
appointments and coordinating her insurance and payment. As such, she 
did not receive adequate care until her parents pulled her out of 
school for a semester and set up treatment for her close to home (long 
after she had begun struggling academically). Ashley did not feel 
comfortable reporting her assault until after she had received 
counseling, but, by then, it was too late; her assailant had already 
graduated.
    By mandating that universities ensure access to mental health and 
advocacy services, we can improve the likelihood that survivors like 
Ashley receive timely care and are able to make informed decisions 
about reporting.

    III. Colleges must maintain a range of sanctions so as not to deter 
survivors from reporting and respect the variety of resolutions 
survivors seek.

    The current national media spotlight has almost exclusively focused 
on the lack of punitive sanctioning for students found responsible in 
sexual assault cases. The knee-jerk reaction is often to move toward 
mandatory expulsion policies that send a strong message about a 
community's lack of tolerance for sexual violence and increase the 
number of offenders removed from campus. This viewpoint narrowly 
considers those highly publicized cases in which complainants were 
unsatisfied with the harshness of the penalty after they brought 
forward a hearing. Oftentimes, though, survivors do not all have the 
same desires and goals for reporting or for seeking disciplinary 
action; in fact, many survivors are discouraged from reporting because 
they are afraid of overly punitive sanctioning for the accused. 
Especially in cases where the perpetrator is known, and for intimate 
partner violence in particular, many survivors hesitate to initiate the 
complaint process or seek informal resolutions because they are only 
interested in disciplinary action aimed at making their perpetrators 
acknowledge responsibility or getting their attackers help.
    Sarah*, an entering first year student I worked with, had a 
mentally unstable abusive boyfriend in high school who would also be 
attending U.Va. with her in the fall. She sought and obtained a 
protective order through the courts, and a no contact order through the 
Dean of Students' Office. Her former boyfriend violated the protective 
order dozens of times during her first semester, but Sarah was afraid 
for his well-being (he had, as many abusers do, threatened to kill 
himself if she came forward) and she did not want to see him get in 
trouble. The only way she could be persuaded by staff at the Women's 
Center and by administration in the Dean of Students' Office to seek 
disciplinary action against him for the protective order violations was 
by assuring her that the process could be used to mandate that he 
receive counseling. The ability to seek a ``lower-level'' or ``non-
punitive'' sanction that offered help for the accused through 
discipline helped the school to respond to the hostile environment and 
helped Sarah come forward.
    In my own experience, I resisted formally reporting and seeking 
disciplinary action after the assault because I fixated on the fact 
that my assailant had parents who cared about him, and that I did not 
want to ruin his life over what I then viewed as a mistake. Many 
survivors I have met and worked with echo the same concerns when 
thinking about bringing a complaint: that he used to be a friend; that 
he is generally a ``good guy''; that it was a one-time mistake. Even 
though I now disagree with my former self 's evaluation of my 
assailant, and though I quietly disagree with many of these survivors, 
I know that fear of expelling him or suspending him was a serious 
barrier to reporting for me, and continues to be one for other 
survivors.
    The prospect of informal resolutions and lower-level sanctions are 
sometimes a comfort and a reassurance to survivors that they will have 
some control over the resolution of their case. Mandatory expulsion 
polices have a strong likelihood of deterring survivors who are 
initially afraid of holding a friend or romantic partner accountable in 
a disciplinary setting. Not all survivors want the same resolution, and 
mandatory expulsion policies assume a one-size-fits-all approach that 
may have a chilling effect on reporting. It will prevent a college from 
getting as many reports as possible and from being able to more fully 
respond to sexual violence to rectify the hostile environment.

    IV. Resolution agreements should foster cooperation between 
administration and students to combat mistrust of the university that 
could deter reporting.

    Highly publicized cases of university mishandling of sexual assault 
complaints, such as the title IX complaint brought against U.Va. in the 
fall of 2012, while forcing universities to reevaluate and improve 
policies and procedures to better serve victims, also paradoxically 
tend to scare other survivors away from seeking resources or 
disciplinary action through the school. Many survivors I worked with 
following news of U.Va.'s title IX complaint expressed strong 
reservations about going to the Dean of Student's office for 
information about resources available or filing a report. They assumed 
that their cases would be mishandled or not taken seriously as was 
alleged in the public complaint. This prevented survivors from 
receiving interim remedies (e.g., no contact orders, changes in classes 
or housing arrangements) because they were too afraid to seek 
assistance from the Dean of Students.
    In order to rectify the chilling effect on reporting and seeking 
resources that publicized title IX investigations might have, 
resolution agreements with OCR should incorporate recommendations and 
requirements to form working committees of students and administrators 
to help keep students involved in and informed of steps a university is 
taking to rectify issues from the initial public complaint. Ensuring 
student involvement is likely to lead to not only a response from the 
administration that is better tailored in its procedural and 
programmatic changes to what students actually need, but also improved 
communication among students about the changes being made. A top-down 
communications approach of university to students does not ameliorate 
fears and concerns about mistreatment as much as student-to-student 
communication about what the administration and students are working on 
together. The knowledge of and opportunity for input is also certain to 
reassure students that administration is transparent with students 
about the way it handles cases (and will handle cases in the future).
    By including formal requirements for student-administrator working 
groups, resolution agreements can help address some of the fears raised 
by publicized complaints so that survivors can feel safe and supported 
when they seek resources from the offices and administrators best 
suited to connect them to those resources and remedies.
Section Two
    This section will address four points related to improving Federal 
oversight of universities and title IX compliance more broadly.

    V. Structured followup and public progress reports from a 
university following a title IX investigation will help ensure--and 
communicate to students--a university's commitment to rectifying its 
policy and procedures.

    Similar to the point made in IV, structured followup from OCR and 
public progress reports on recommendations from title IX resolution 
agreements that are drafted by committees of administrators, faculty, 
staff and students will help to improve compliance with the agreements. 
Public progress reports that are jointly drafted and distributed to the 
university community will help hold the university accountable to the 
student body and help to inform students of the changes being made. 
These public reports will help create feedback loops for universities 
to receive continual input from students on the program and procedural 
changes, and actively keep OCR aware of steps taken to comply with the 
resolution agreements.
    Jointly drafting progress reports also helps to guarantee that 
members of all parts of the university have an up to date and 
consistent understanding of the university's plans and progress. Having 
stakeholders across the university well-informed helps to standardize 
the dissemination of information so that all members of the community 
are receiving consistent messaging about the university's stance on 
sexual violence, and makes it more likely that survivors are receiving 
uniform information about reporting options and resources.

    VI. Provide OCR with more flexible sanctions and forced budget 
reallocations.

    In OCR's title IX enforcement efforts it seeks to obtain voluntary 
compliance from universities, but carries sanctioning power as a threat 
to obtain compliance. OCR's current sanction, however--to remove all 
Federal funding--has never been used, and is often painted as punishing 
innocent students rather than the institution for non-compliance. The 
disproportionate and impractical nature of the only sanction available 
to OCR hinders its efforts at enforcement. OCR should be given the 
latitude to design smaller and more flexible sanctions appropriate to 
the violations. Additionally, rather than simply imposing fines of 
varying sizes, OCR should be empowered to impose fines in the form of 
forced budgetary reallocations, to help push schools into compliance.
    A fine imposed on a school ultimately detracts from a school's 
resources that could be used for student services. Rather than a purely 
punitive financial sanction, budgetary reallocations could force 
schools to appropriate resources to students to improve its title IX 
efforts. For example, a sanction could mandate that a school must 
allocate $50,000 per year for 4 years to fund a trauma specific 
counseling position at the student health center. A sanction could 
require a school to set aside $5,000 per year for several years to fund 
implementation of climate and incidence surveys to require and help a 
school measure the nature of sexual violence on its campus and respond 
more effectively. In both of these examples, the financial sanction 
does not deprive a school of any of its resources, but rather 
guarantees that students and survivors will directly benefit from 
budgetary allocations to improve title IX compliance. Smaller, more 
flexible sanctions would help OCR to obtain compliance more effectively 
and forcefully, while avoiding penalizing innocent students in the 
effort to punish the institution.

    VII. Codification of OCR recommendations for title IX may 
ameliorate due process concerns about equity for accused students.

    Though OCR and the courts have repeatedly assured that campus 
disciplinary hearings, including hearings for sexual assault, do not 
have to mirror the justice system. Public concerns, however, tend to 
focus on the ways in which accused students are potentially being 
denied their due process rights because these hearings address conduct 
that would otherwise constitute a violation of State and Federal law. 
In order to address concerns about equity, it may be helpful to 
statutorily define the requirements and procedures for sexual assault 
hearings on campus. By specifically codifying some of the 
recommendations and interpretations forwarded by the OCR, it may 
clarify concerns colleges have about how to appropriately adjudicate. 
For example, interim measures such as changes to academic and housing 
arrangements are defined as critical to a quick and effective response 
to a potential title IX violation. OCR recommends that a school should 
not place undue burden on the complainant and move his or her schedule 
or housing while allowing the accused to remain, but there may be some 
due process concerns about whether it is fair to move the accused while 
allowing the complainant to remain.\5\ The legislature may want to 
consider whether mandating a particular course of action, such as 
requiring that both parties be moved in those cases, would ensure 
greater equity.
    Many colleges appear hesitant to strongly sanction because of 
concerns that the accused student may appeal or sue the school--as more 
and more young men are now doing.\6\ This may then contribute to 
schools insufficiently sanctioning in cases where a hostile environment 
exists (JMU imposing expulsion after graduation for several accused 
students found responsible for sexual assault is a particularly salient 
recent example\7\). Statutory definition of how procedures ought to 
look, based on OCR recommendations, may help to distinguish the campus 
process from criminal proceedings and draw clear boundaries between the 
two so that colleges have a clear sense of how to proceed and address 
hostile environments without fear of civil action from accused 
students.

    VIII. A holistic approach to the issue of sexual assault cannot 
ignore possibilities for criminal law reform at the Federal and State 
level.

    It is important to emphasize that title IX was extended to address 
sexual violence on campus mostly because of the recognition that the 
criminal justice system failed to meaningfully address the issue. While 
the use of title IX to address sexual assault and sex discrimination is 
an incredibly important tool, a more comprehensive approach to the 
issue of sexual assault would also consider potential reforms to State 
and Federal criminal laws. We would not have to rely so heavily on 
colleges to address the problem of sexual violence, colleges may be 
more effective at addressing sexual violence, and offenders would be 
addressed outside of the college context more meaningfully if we 
improved our criminal prosecution efforts. Options for criminal reforms 
may make it possible to better address this problem more 
comprehensively.
                               References
    1. Sabina, Chiara and Lavinia Ho. (2014). ``Campus and College 
Victim Responses to Sexual Assault and Dating Violence: Disclosure, 
Service Utilization, and Service Provision.'' Trauma, Violence, & 
Abuse.
    2. Relyea, Mark and Sarah Ullman. (2013). ``Unsupported or Turned 
Against: Understanding How Two Types of Negative Social Reactions to 
Sexual Assault Relate to Postassault Outcomes.'' Psychology of Women 
Quarterly. Vol. 30. 1-16.
    3. Ullman, Sarah, Stephanie Townsend, Henrietta Filipas, and Laura 
Starzynski. (2007). ``Structural Models of the Relations of Assault 
Severity, Social Support, Avoidance Coping, Self-Blame, and PTSD Among 
Sexual Assault Survivors.'' Psychology of Women Quarterly. Vol. 31. 23-
37.
    4. Ruch, Libby and Susan Chandler. ``Sexual Assault During the 
Acute Phase: An Explanatory Analysis.'' Journal of Health and Social 
Behavior. Vol. 24, No 2. 174-85.
    5. Department of Education, Office of Civil Rights. ``Dear 
Colleague Letter.'' April 4, 2011.
    6. ``Students Expelled For Sexual Assault Turning To Lawsuits To 
Regain Diplomas.'' June 4, 2014. http://www.huffingtonpost.com/2014/06/
04/sexual-assault-expulsions-lawsuits_n_5440665.html.
    7. ``Students Are Outraged At JMU Over Unusual Punishment For 
Filmed Sexual Assault.'' June 20, 2014. http://www.huffingtonpost.com/
2014/06/20/jmu-sexual-assault-punishment_n_5515408.html.

    The Chairman. Thank you very much, Ms. Renda.
    Mr. Kelly, welcome. Please proceed.

STATEMENT OF JOHN KELLY, STUDENT, TUFTS UNIVERSITY, MEDFORD, MA

    Mr. Kelly. Thank you, Mr. Senator.
    When I was an 18-year-old college freshman, I entered into 
what would soon become an abusive relationship with another 
student. On the last night of my freshman year, he ignored my 
noes, raped me, and then physically grabbed and restrained me, 
not letting me leave his room until I told him I loved him. 
Three months later, during my first week back at school for my 
sophomore year, he raped me again.
    Since then, I have become an advocate for the rights of 
student survivors, especially those who are often overlooked, 
in this case the queer community, my community.
    Senators, I thank you for giving me this opportunity to 
testify on the topic of sexual assault on college campuses. I 
come here today with a number of policy recommendations that I 
hope to address which are outlined more fully in my written 
testimony provided.
    First, Congress must give the Department of Education's 
Office for Civil Rights the power to levy substantial fines 
against schools found out of compliance with title IX. As we've 
heard, the only recompense available to OCR currently is the 
full removal of Federal funds, something that would hurt the 
group of students that this law is intended to protect.
    Schools found out of compliance must be punished to signal 
the seriousness of their failure, and also to prevent schools 
from becoming repeat offenders. In addition, these fines can 
then go to help subsidize OCR's costs for enforcement, or go 
directly into victim services.
    At Tufts University, we were recently found out of 
compliance, but no fines were levied. Without this ability, 
schools cannot truly be held accountable.
    Second, Congress must compel the Department of Education to 
continuously release a list of schools under investigation for 
title IX complaints. Without this information, complainants may 
be deprived of information surrounding their own complaints, 
and prospective students cannot possibly make an informed 
decision regarding their choice of college.
    Tufts University was under investigation when I was 
applying to schools, and I made the choice to attend Tufts 
without this information. When I was raped, Tufts was still 
under investigation, and I still didn't know. Had I known, I 
could only hope I would have chosen another school to begin 
with. Perhaps I would have attended Tufts all the same, but 
it's not within the purview of the Department of Education to 
deny students the opportunity to make educated decisions for 
themselves.
    I only wish I had known Tufts was under investigation when 
I began going through my campus' traumatizing judicial process 
so I could have had at least a modicum of preparation for the 
humiliation I would endure at the hands of administrators that 
I trusted to protect me. They didn't protect me, but I had no 
cause to suspect anything but support from them because of 
OCR's opacity.
    I was thrilled to see that OCR, under the leadership of 
Catherine Lhamon, recently released a list of schools currently 
under investigation, but that must become the norm. Please, 
compel OCR to continuously and publicly release the names of 
schools under investigation so that my experience can soon 
become an outlier and not stay the norm.
    My partner didn't use physical force at first. Indeed, he 
didn't use physical force until the last day of our 
relationship. But in the months and weeks leading up to that 
fearful moment, he utilized psychological and emotional abuse. 
It starts out as little things, a controlled move here, an 
outburst there, and insult here, a put-down there. Most abuse 
starts like this, with emotional and psychological abuse, but 
these things are by no means little. Indeed, research shows 
their effects are just as deleterious as any bruise or broken 
bone.
    In addition, 99 percent of survivors of domestic violence 
experience economic abuse. In recent rulemaking, the Department 
of Education and its rulemakers agreed that we did not have the 
authority to expand the definitions of dating and domestic 
violence to include emotional, psychological, and economic 
abuse without the statute stating as much. So, please, state as 
much. Policies inform expectations and culture, and the 
expectation should not be to wait until you have a 
hospitalization under your belt before you can report your 
abuser and receive justice.
    My self-identity as a rape survivor is not contingent on 
the State or territory in which I currently live, and neither 
should my ability to receive justice.
    It is time for Congress to standardize the definitions of 
sexual assault and rape that colleges use so that they apply 
equally to male survivors and survivors in the greater queer 
community. The estimate of lifetime sexual assault for gay or 
bisexual men is 30 percent. For lesbian and bisexual women, it 
is 43 percent.
    In addition, about one-third of same-sex relationships 
involve domestic violence, and about one-half of all trans 
people experience sexual violence in their lifetime. The queer 
community as a whole experiences sexual violence at staggering 
rates, and this Nation's policies on the local, State, and 
Federal level fail to fully address this. This failure not only 
perpetuates the silencing of queer survivors but also prevents 
queer college students from being able to fully access their 
civil right to education.
    Please, make consistent and inclusive definitions so that 
this ceases to be an issue. All students have a right to 
education, and policies that discriminate or ignore certain 
marginalized identities fail to provide us that right.
    Senator Harkin, Senator Alexander, members of the Senate 
HELP Committee, thank you for including me in this opportunity 
to provide testimony. In summary, transparent, trauma-sensitive 
and inclusive policies are a must for institutions of higher 
education and for the Federal Government. Thank you.
    [The prepared statement of Mr. Kelly follows:]
                    Prepared Statement of John Kelly
                                summary
    1. Currently, the only sanction explicitly available to the 
Department of Education (ED) against schools out of compliance with 
title IX is the full removal of Federal funding. As such a sanction 
would devastate the very population title IX aims to help--students, 
including those dependent on Federal financial aid--I respectfully call 
upon Congress to provide the Department's Office for Civil Rights (OCR) 
the authority to levy fines against non-compliant universities.
    2. In Spring 2014, the Department of Education took the important 
step of releasing the names of 55 schools currently under investigation 
for title IX violations. This one-time release, however, is 
insufficient. Congress should compel the Department to publish and 
continuously update the list of schools under investigation, to ensure 
that current students remain abreast of any issues at their schools and 
prospective students have the information necessary to choose the 
safest college for them. Such transparency would similarly allow the 
public to hold the Department of Education accountable for lengthy 
investigations that drag on for years with no conclusion.
    3. In the recently published rulemaking on the Violence Against 
Women Reauthorization Act (VAWA), dating and domestic violence are 
defined to state that each, ``includes, but is not limited to sexual or 
physical abuse or the threat of such abuse.'' It is imperative that 
Congress legislate a change in these definitions to explicitly include 
psychological, economic, and emotional abuse. As these behaviors often 
precede physical or sexual abuse, we should not wait until behavior 
manifests itself in bruises or broken bones to call it dating and 
domestic violence.
    4. State laws vary widely in their definitions of rape. Some still 
maintain that only women can experience rape, while others fail to 
recognize that it can happen between individuals of the same sex. At 
the same time, the Federal Government's definitions are inconsistent, 
with UCR and NIBRS each offering a different definition, and NIBRS now 
failing to include male survivors within their definition of rape. 
These variations must be addressed to define sexual assault and rape in 
a way that is inclusive of the LGBTQ community and survivors of same-
sex sexual violence.
    5. The campus judicial system has the unique ability to cater to 
students' needs in a way that the criminal justice system cannot, 
through providing remedies and resources to ensure a student's 
continued ability to access their education. Any move to intertwine the 
two systems or reduce access to the campus system in favor of the 
criminal justice system will not only chill reporting, but prevent 
students from accessing their full title IX rights. In addition, 
providing multiple paths for reporting promotes a survivor's ability to 
choose what is best suited to their needs.
                                 ______
                                 
          fining authority for the office for civil rights\1\
    Congress should propose legislation that gives the Department of 
Education's Office for Civil Rights the ability to levy fines against 
universities found out of compliance with title IX.
---------------------------------------------------------------------------
    \1\ Special thanks to Know Your IX's ED ACT NOW organizers, S. 
Daniel Carter, and Nancy Cantalupo for their guidance and assistance 
with this testimony.

    Currently the Department of Education, through the Federal Student 
Aid Clery Compliance Office, has the ability to levy fines against 
schools found out of compliance with the Clery Act, but lacks the 
authority to do so through its Office for Civil Rights (OCR) for 
violations of title IX. Currently, the only sanction explicitly 
available to the OCR against schools in violation of title IX is the 
full removal of Federal funding. Such a sanction would devastate the 
very population title IX aims to help--students, particularly those 
dependent on Federal financial aid--and is an action the OCR has never 
taken, and never should take.
    Congress has the ability to change this course, through legislation 
that grants the Department of Education the ability to levy fines 
against schools found out of compliance. Such an action would send a 
clear message to students, prospective students, alumni, and the public 
that a university is in violation of Federal civil rights law--and that 
such noncompliance will not be tolerated.
    Fines should be levied based on a sliding scale model. A single set 
fine amount would unduly burden smaller schools while leaving larger, 
wealthier institutions virtually untouched. Proportionality could be 
accomplished by tying the size of a fine to a school's yearly operating 
budget.
            continued release of schools under investigation
    It is imperative that the Department of Education publish on an 
ongoing basis an updated list of schools currently under title IX 
investigation.

    On May 1, 2014, the Department of Education released a list of 55 
schools under sexual violence-related title IX investigations.\2\ This 
was an unprecedented move, one that gave students, prospective 
students, and alumni more information than ever previously available 
about their respective universities' track records on sexual violence. 
However, this vital transparency is not long-lasting: the Department 
has billed the list as a one-time release, available in the future upon 
private request but not released publicly in a manner that is 
transparent and easily accessible to all. I believe students have the 
right to know whether or not their institution is under investigation 
for violations of Federal civil rights law, as do all prospective 
college students and alumni prepared to donate to their alma mater. 
Know Your IX, as well as other student activists and victims' rights 
advocates, has long called for clarity and transparency in regard to 
title IX investigations.
---------------------------------------------------------------------------
    \2\ U.S. Department of Education. ``U.S. Department of Education 
Releases List of Higher Education Institutions with Open title IX 
Sexual Violence Investigations.'' http://www.ed.gov/news/press-
releases/us-department-education-releases-list-higher-education-
institutions-open-title-i.
---------------------------------------------------------------------------
    Such openness serves a dual purpose. First, it holds schools 
accountable for their (mis)treatment of survivors, ensuring that the 
public eye is turned to schools that fail to provide their students 
with a safe learning environment, and allowing additional student 
survivors to provide further evidence of wrongdoing to the Office for 
Civil Rights during an investigation. Second, it serves as a check on 
the Department of Education, holding the agency accountable for the 
timely resolution of outstanding complaints. We have heard horror 
stories of complaints that have been lost, dragged on for over 5 years, 
or were subsumed by other complaints without notice to the complainant, 
and ongoing transparency will prevent that from remaining possible.
         expansion of dating and domestic violence definitions
    Congress should legislate the explicit inclusion of emotional, 
economic, and psychological abuse within definitions of dating and 
domestic violence, for the purpose of investigation and enforcement on 
college campuses.

    In recent rulemaking sessions on the Violence Against Women Act 
Reauthorization, dating violence and domestic violence definitions have 
been defined to state that each ``includes, but is not limited to 
sexual or physical abuse or the threat of such abuse.'' \3\ The 
committee felt it lacked the power to expand the definition beyond what 
was specified by law, and also that such a definition would be hard to 
enforce. However, the Department of Justice Office on Violence Against 
Women includes emotional abuse, psychological abuse, and economic abuse 
within its definition of domestic violence, as do numerous other 
Federal agencies.\4\ \5\ The rates at which these forms of abuse occur 
are staggering. Nearly half of all women and men experience 
psychological aggression by an intimate partner in their lifetime.\6\ 
Ninety-nine percent of domestic violence victims experience economic 
abuse.\7\ In addition, emotional, economic, and psychological abuse 
often serve as stepping stones before behavior becomes physically or 
sexually violent.\8\ It is imperative that students be able to report 
abuse as soon as it becomes realized and not wait for it to escalate. 
As the law and regulations currently stand, they incentivize waiting 
for behavior to become physically manifested. Bruises and broken bones 
are rarely the first form dating and domestic violence take, and 
students must be guaranteed safety on their campuses at the first sign 
of such violence.
---------------------------------------------------------------------------
    \3\ Federal Register. ``Violence Against Women Act: A Proposed Rule 
by the Education Department.'' https://www.federalregister.gov/
articles/2014/06/20/2014-14384/violence-against-women-act.
    \4\ ``Domestic Violence.'' USDOJ: Office on Violence Against Women: 
Crimes of Focus: Domestic Violence. http://www.ovw.usdoj.gov/
domviolence.htm.
    \5\ These agencies include the Centers for Disease Control and 
Prevention, the Department of Health and Human Services Office on 
Women's Health, and the Department of Justice Office on Violence 
Against Women.
    \6\ Black, M.C., Basile, K.C., Breiding, M.J., Smith, S.G., 
Walters, M.L., Merrick, M.T., Chen, J., & Stevens, M.R. (2011). The 
National Intimate Partner and Sexual Violence Survey (NISVS): 2010 
Summary Report. Atlanta, GA: National Center for Injury Prevention and 
Control, Centers for Disease Control and Prevention. http://
www.cdc.gov/violenceprevention/pdf/nisvs_executive_summary-a.pdf.
    \7\ Adrienne E. Adams and others, ``Development of the Scale of 
Economic Abuse,'' Violence Against Women 14 (5) (2008).
    \8\ O'Leary, K. Daniel. ``Psychological Abuse: A Variable Deserving 
Critical Attention in Domestic Violence.'' Violence and Victims 14.1 
(1999): 3-23.
---------------------------------------------------------------------------
    The necessity of this legislative change cannot be overstated. 
Intimate partner homicide makes up around half of all female homicides 
in the United States, and in 70-80 percent of cases the homicide is 
preceded by physical abuse.\9\ In addition, research clearly shows that 
psychological abuse often times precedes physical abuse, and can be 
just as serious in its effects as physical manifestations of abuse.\10\ 
Therefore, in order to prevent domestic and dating violence from 
escalating, psychological and emotional abuse must be considered part 
and parcel of their definitions, so students who report abuse in its 
earlier stages are protected.
---------------------------------------------------------------------------
    \9\ Campbell J.C., Webster D., Koziol-McLain J., Block C.R., 
Campbell D.W., Curry M.A., Gary F., McFarlane J.M., Sachs C., Sharps 
P., Ulrich Y., Wilt S.A. Assessing Risk Factors for Intimate Partner 
Homicide. National Institute of Justice journal 2003; (250): 14-19. 
https://www.ncjrs.gov/pdffiles1/jr000250e.pdf.
    \10\ O'Leary, 3-23.
---------------------------------------------------------------------------
    The Department of Justice Office on Violence Against Women already 
utilizes a definition of domestic violence that includes the following: 
physical abuse, sexual abuse, emotional abuse, economic abuse, 
psychological abuse, and emotional abuse. We recommend that these added 
aspects become part of the standardized definitions of dating violence 
and domestic violence.
   standardization of definitions to include same-sex sexual violence
    Congress should expand existing definitions of rape and sexual 
assault to be inclusive of the experiences of male survivors and the 
LGBTQ community.

    State law definitions of sexual assault and rape vary widely and 
only some sufficiently recognize male survivors and victims of same-sex 
violence. Some definitions still maintain that only women can be raped, 
while others fail to recognize that assaults can and do happen between 
individuals of the same sex. The Federal Government's definitions also 
vary. The National Incident-Based Reporting System (NIBRS) and Uniform 
Crime Reporting (UCR) each offer a different definition,\11\ and NIBRS 
does not include male survivors within its definition of rape. Instead, 
NIBRS divides forcible sex offenses into rape, sodomy, and sexual 
assault with an object. Separating rape into these distinct categories 
disenfranchises queer and male survivors of sexual violence, and these 
variations lead to a chronic misrepresentation of rape outside of the 
male perpetrator, female victim context.\12\ Within the Uniform Crime 
Reporting (UCR) Program, each of these is included in the definition of 
rape.
---------------------------------------------------------------------------
    \11\ FBI. ``Frequently Asked Questions about the Change in the UCR 
Definition of Rape.'' http://www.fbi.gov/about-us/cjis/ucr/recent-
program-updates/new-rape-definition-frequently-asked-questions.
    \12\ Federal Register. ``Violence Against Women Act: A Proposed 
Rule by the Education Department.'' https://www.Federalregister.gov/
articles/2014/06/20/2014-14384/violence-against-women-act#p-227.
---------------------------------------------------------------------------
    Members of the LGBTQ community are disproportionately victimized. 
In a survey of academic studies of sexual violence within the LGBTQ 
community, the median estimate of lifetime sexual assault for gay or 
bisexual men was 30 percent, and for lesbian or bisexual women the 
median rate was 43 percent.\13\ A 2008 study found that 25-33 percent 
of all surveyed same-sex relationships involved domestic violence.\14\
---------------------------------------------------------------------------
    \13\ Rothman, E.F., D. Exner, and A.L. Baughman. ``The Prevalence 
of Sexual Assault Against People Who Identify as Gay, Lesbian, or 
Bisexual in the United States: A Systematic Review.'' Trauma, Violence, 
& Abuse 12.2 (2011): 55-66.
    \14\ Mallon, Gerald P. Social Work Practice with Lesbian, Gay, 
Bisexual, and Transgender People. 2d ed. New York: Haworth, 2008.
---------------------------------------------------------------------------
    The Department of Education's Q&A document\15\ importantly 
addresses LGBTQ and male survivors. We ask that Congress follow the 
Department's example and author legislation that standardize the 
definitions of sexual violence under title IX. In addition, we ask that 
this legislation specifically require that schools follow these 
definitions in order to continue to receive Federal funding. This can 
be bolstered through requiring that colleges and universities must 
explicitly state that their policies apply equally to all students, 
regardless of sex, gender, or gender identity. We support and very much 
encourage an expansion of this right to all survivors in the next 
Violence Against Women Act reauthorization.
---------------------------------------------------------------------------
    \15\ U.S. Department of Education Office for Civil Rights. 
``Questions and Answers on title IX and Sexual Violence.'' http://
www..ed.gov/about/offices/list/ocr/docs/qa-201404-title-ix.pdf.
---------------------------------------------------------------------------
         criminal justice system and campus judicial processes
    The campus and criminal justice systems must remain separate, in 
order to protect students' civil right to education.

    I reaffirm students' right to report to local law enforcement, a 
campus official, both, or neither. The White House Task Force to 
Protect Students from Sexual Assault's extensive research concluded 
that giving survivors multiple reporting options and control over to 
whom and how they report is the best way to promote reporting of this 
vastly underreported crime. In addition, rape crisis counseling best 
practices continuously point to the importance of returning as much 
agency and control to the hands of survivors in the aftermath of an 
assault.\16\ Trauma-sensitive policies are a must, and allowing 
students to choose the path that makes the most sense for them is a 
major part of restoring agency to student survivors.
---------------------------------------------------------------------------
    \16\ Herman, Judith Lewis. Trauma and Recovery. New York, NY: 
Basic, 1992. See also: Yassen, Janet and Mary, R. Harvey. ``Crisis 
Assessment and Interventions with Victims of Violence.'' Emergencies in 
Mental Health Practice: Evaluation and Management. Ed. Phillip M. 
Kleespies. New York: Guilford, 1998. 117-44.
---------------------------------------------------------------------------
    Additionally, campus judicial processes provide resources and 
remedies to survivors that the criminal justice system simply cannot, 
including academic accommodations, housing changes, and counseling and 
support services on campus. These responses are available to students 
without them needing to file a police report or press charges, ensuring 
access to education whether or not they choose to file a criminal 
report.

    The Chairman. Thank you, Mr. Kelly, for being here and for 
being so forthright in your testimony. Appreciate it very much.
    Ms. Stapleton, please proceed.

    STATEMENT OF JANE STAPLETON, CO-DIRECTOR OF PREVENTION 
INNOVATIONS: RESEARCH AND PRACTICES FOR ENDING VIOLENCE AGAINST 
         WOMEN, UNIVERSITY OF NEW HAMPSHIRE, DURHAM, NH

    Ms. Stapleton. Good morning. Thank you, Chairman Harkin, 
Ranking Member Alexander, and committee members. My name is 
Jane Stapleton from the University of New Hampshire and, along 
with Dr. Sharon Potter, I am the co-director of Prevention 
Innovations: Research and Practices For Ending Violence Against 
Women. It is an honor to be asked to testify before the HELP 
Committee on an issue that has been an important part of both 
my personal and professional lives for the past 30 years.
    Prevention Innovations is made up of researchers and 
practitioners who work together to create, evaluate, and 
disseminate evidence-based prevention and responses to sexual 
and relationship violence and stalking. We are invested in 
building practitioners' capacities to respond to survivors, 
measure climate and incidence, prevent violence, and comply 
with recent Federal laws and mandates. We believe that to truly 
end sexual and relationship violence on campus, we must 
understand what works in prevention and response; evaluate 
effectiveness; document climate, incidence, and readiness to 
change; and implement evidence-based best practices.
    During my career I have had the opportunity to witness a 
dramatic shift in prevention approaches. In the early days, we 
attempted to end the problem of sexual assault on campus by 
educating people about the facts and risk reduction, talking to 
women on how they can stay safe, and asking men please don't 
rape. Bystander intervention, however, is a different approach 
where women are not approached as victims or potential victims 
and men are not approached as perpetrators or potential 
perpetrators. Instead, we utilize a community approach to 
prevention where everyone has a role to play in ending sexual 
and relationship violence and stalking.
    Together, my colleagues and I have developed, evaluated, 
and implemented bystander intervention prevention strategies 
where we teach college students, faculty, staff, and 
administrators to safely intervene before, during, and after 
instances of sexual and relationship violence and stalking. 
Prevention Innovations' evidence-based bystander intervention 
prevention strategies include bringing in the bystander, an in-
person prevention program, and Know Your Power, a bystander 
intervention social marketing campaign. Both have been proven 
to reduce participants' rape myth acceptance; increase 
knowledge of the problems of sexual and relationship violence 
and stalking, and bystander behaviors; increase people's 
willingness to intervene before, during, and after; and 
increase people's self-reported bystander behaviors.
    Our prevention strategies have been developed with 
considerable input from students, staff and faculty 
representing a diversity of backgrounds, and have been adopted 
by colleges and universities across the country and adapted for 
the U.S. Army. Several members of Prevention Innovations have 
administered an Unwanted Sexual Experience Study every 5 years 
at the University of New Hampshire since 1988. The campus-wide 
survey measures our male and female undergraduate students' 
experiences of unwanted sexual intercourse and sexual contact. 
In 2012, the survey incorporated questions related to 
relationship violence and stalking, and included participants 
from eight New England colleges and universities.
    Additionally, my colleagues have developed and evaluated a 
Community Readiness to Engage Survey for campuses to measure 
their communities' readiness to change behaviors, social norms, 
policies and practices to prevent sexual and relationship 
violence and stalking.
    Prevention Innovations has just launched the Campus Sexual 
and Relationship Violence Prevention Consortium in an effort to 
provide technical assistance to colleges and universities as 
they work to meet legislative requirements to reduce campus 
sexual and relationship violence.
    Finally, Prevention Innovations has been asked by the White 
House Task Force to Protect Students from Sexual Assault on 
Campus to conduct a study on sexual assault policy education 
for first-year students. I am delighted to see the extent to 
which the U.S. Department of Education, through title IX and 
the Clery Act, have prioritized campus safety not only related 
to sexual assault but also dating and domestic violence and 
stalking. When we discuss these important reforms, it is 
important for us to remember the multiple forms of violence, 
not just focus on sexual assault, as well as acknowledge a 
diversity of survivors.
    The recent mandates for campuses to ensure swift and 
effective responses to reports of sexual and relationship 
violence and stalking, sensitive and confidential support 
services for survivors, and prevention education are essential 
to stopping these preventable offenses. All of the recent 
Federal mandates hold colleges and universities accountable for 
ensuring safety and accountability on campus. For some 
campuses, these mandates buildupon work, service, and policies 
that they have already begun to develop and implement. For many 
campuses, however, these mandates provide an opportunity to 
begin this work in formal ways for the first time.
    In thinking about how Federal law needs to be reformed and 
strengthened to better address these issues, I suggest that 
Federal regulations provide guidance and requirements for 
colleges and universities to build comprehensive prevention 
strategies and responses that focus on a continuum of violence 
that includes dating and domestic violence, sexual assault and 
stalking; conduct community-wide prevention that engages all 
members of the campus community--including undergraduate and 
graduate students, staff, faculty, administrators, parents, 
community members, businesses, and alumni; conduct regular 
climate studies that measure the extent and nature of the 
problems of sexual and relationship violence and stalking. 
Climate study results should be made public both in academic 
journals and campus websites, and they must and they can 
utilize uniform questions; utilize prevention strategies that 
are scientifically evaluated and evidence-based research-
informed.
    Too many non-research-based quick solutions are popping up 
everywhere. For-profit companies with no subject matter experts 
are seizing the opportunity to make money off recent Federal 
mandates. A number of these solutions to recent mandates are 
not research-informed or evidence-based, and this is 
problematic.
    We must assess campus readiness to change. Campuses fall 
along a continuum of readiness to engage in prevention 
responses. We must create confidential support services and 
advocacy for survivors. Campuses need to identify and advertise 
on-campus confidential support and partner with community-based 
crisis centers to provide support for survivors and evidence-
based research-
informed prevention. Most importantly, everything and everyone 
needs to keep survivors in the center of all prevention, 
response, and compliance strategies.
    I would echo the discussion on the need for the Department 
of Education to identify a grants program focused on dating and 
domestic violence, sexual assault and stalking.
    Thank you very much for inviting me here, and I'd be more 
than happy to answer any of your questions.
    [The prepared statement of Ms. Stapleton follows:]
                  Prepared Statement of Jane Stapleton
                                Summary
                         bystander intervention
    <bullet> Bystander intervention to prevent sexual and relationship 
violence and stalking is a different approach where women are not 
approached as victims or potential victims and men are not approached 
as perpetrators or potential perpetrators. Instead, we utilize a 
community approach to prevention, where everyone has a role to play in 
ending sexual and relationship violence and stalking.
    how federal law is working to help prevent campus sexual assault
    <bullet> I am delighted to see the extent to which the U.S. 
Department of Education, through Title IX and VAWA Amendments to the 
Clery Act, have prioritized campus safety, not only related to sexual 
assault, but also dating and domestic violence and stalking. When we 
discuss these important reforms, it is important for us to remember 
multiple forms of violence and not just focus on sexual assault. The 
recent mandates for campuses to ensure swift and effective responses to 
reports of sexual and relationship violence and stalking, sensitive and 
confidential support services for survivors and prevention education 
are essential to stopping these preventable offenses. All of the recent 
Federal mandates hold colleges and universities accountable for 
ensuring safety and accountability on campus. For some campuses, these 
mandates build upon work, services and policies that they have already 
begun to develop and implement. For many other campuses, these mandates 
provide an opportunity to begin this work in formal ways.
    <bullet> To help ensure effective prevention, response and 
compliance, colleges and universities need evidence-based and research-
informed models of best practice. It is essential that training and 
technical assistance be provided by subject matter experts and people/
organizations that understand a diversity of campus cultures.
 if federal law needs to be reformed and strengthen to better address 
                              these issues
    <bullet> Build comprehensive prevention strategies and responses 
that focus on a continuum of violence that includes dating and domestic 
violence, sexual assault and stalking.
    <bullet> Conduct regular and appropriate and community-wide 
prevention that engages all members of the campus community, including 
undergraduate and graduate students, staff, faculty, administrators, 
parents, community members/businesses, and alumni. Prevention 
strategies should be comprehensive and occur with students during every 
year of their college experience.
    <bullet> Conduct regular and appropriate climate studies to measure 
the extent and nature of the problems of sexual and relationship 
violence and stalking on campus.
    <bullet> Prevention strategies should be scientifically evaluated 
and evidence-based/research-informed. Too many non-research-based 
``quick solution'' programs are popping up and have not been evaluated 
at all. For-profit companies, with no subject matter experts, are 
seizing the opportunity to make money off of recent Federal mandates. A 
number of these ``solutions'' to recent mandates are not research-
informed or evidence-based. This is problematic.
    <bullet> Prevention and response approaches need to be translated 
for a diversity of campuses. For example social marketing campaign 
images developed at the University of New Hampshire, even though they 
are effective, will not easily translate to an HBCU campus.
    <bullet> Campuses fall along a continuum of readiness to engage in 
prevention and response. Thus, it makes sense that some campuses need 
different approaches themselves.
    <bullet> While bystander intervention is important, it is also 
essential to teach students about sexual consent and healthy 
relationships, We expect them to be bystanders in instances of sexual 
and relationship violence if they don't know how to identify sexual 
consent and healthy relationships. Ideally, this formal education 
should occur at least in high school.
    <bullet> Bystanders need to assess the situation for safety. 
Bystanders need to be safe in order to help others.
    <bullet> Survivors need access to confidential support services and 
advocacy. Campuses need to identify and advertise on-campus 
confidential support AND partner with community-based crisis centers to 
provide confidential support for survivors and evidence-based/research-
informed prevention.
                                 ______
                                 
    Good Morning Mr. Chairman and members of the Senate HELP Committee: 
My name is Jane Stapleton and I am the co-director of Prevention 
Innovations: Research and Practices for Ending Violence Against Women 
at the University of New Hampshire. It is an honor to be asked to 
testify before the HELP Committee on an issue that has been an 
important part of both my personal and professional life for nearly 30 
years. I began my work as a student activist responding to a well-
publicized gang rape that was perpetrated on the UNH campus in 1987. It 
was a time when we didn't have words such as ``date rape, 
``acquaintance rape'' or ``gang rape'' and these crimes were often 
committed as dozen of people could have stepped in to stop the 
perpetrators, but didn't. The university held administrative hearings 
where the three men sat with their lawyers in front of a standing room 
only crowd and the survivor, whose name was published in the local and 
campus papers, sat silently with her victim advocate. The men were 
found responsible of ``disrespectful behavior'' and their punishment 
was summer suspension. In the criminal justice proceedings, two of the 
men were found guilty of sexual assault misdemeanors and spent 2 months 
in the county house of corrections. They returned to the University the 
following year; one of them became the president of his fraternity; one 
of them was a bartender at a popular bar; and both of them had their 
criminal records annulled. The survivor dropped out of school, never to 
be heard of again. I often wonder where and how she is, if she ever 
finished college, how she makes meaning of what was perpetrated against 
her. I would like her to know that things have changed even though more 
change is needed and that I and many other women and men have dedicated 
our lives to stopping very preventable crimes. I dedicate my testimony 
today to her in the hope that she has healed from the pain that 
perpetrators and those that re-victimized her caused.
                         prevention innovations
    I am fortunate to be part of the movements to prevent sexual and 
relationship violence and stalking on campus. Over the past 10 years, I 
have been an active member of Prevention Innovations and I currently 
serve as the co-director, with Dr. Sharyn Potter. Prevention 
Innovations is made up of researchers and practitioners who work 
together to create, evaluate and disseminate evidence-based prevention 
and responses to sexual and relationship violence and stalking. We are 
invested in building practitioners capacities to respond to survivors, 
prevent violence and comply with recent Federal laws and mandates. Our 
research, practice and technical assistance are firmly grounded in the 
belief that prevention and response strategies that are developed on 
one campus or community, do not always easily translate to another 
campus. As many of us know, college and universities differ greatly, in 
size, mission, demographics of students, geographic location and much 
more. Thus, we do not advocate a ``one-size-fits-all'' solution to the 
problems of sexual and relationship violence and stalking.
Bystander Intervention
    During my career, I have had the opportunity to witness a dramatic 
shift in prevention approaches. In the early days, we attempted to end 
the problem of sexual assault on campus by educating people about the 
facts, and risk reduction: talking with women about how to stay safe 
and asking men not to rape. Bystander intervention is a different 
approach where women are not approached as victims or potential victims 
and men are not approached as perpetrators or potential perpetrators. 
Instead, we utilize a community approach to prevention, where everyone 
has a role to play in ending sexual and relationship violence and 
stalking.
    Together, my colleagues and I have developed, evaluated and 
implemented bystander intervention prevention strategies where we teach 
college students, staff, faculty and administrators to safely intervene 
before, during and after instances of sexual and relationship violence 
and stalking. Prevention Innovations' evidence-based bystander 
intervention prevention strategies include Bringing in the Bystander, 
an in-person prevention program and the Know Your Power bystander 
intervention social marketing campaign. Both have been proven to reduce 
participants' rape myth acceptance; increase knowledge of the problems 
of sexual and relationship violence and stalking and bystander 
behaviors; increases people's willingness to intervene before, during 
and after instances of sexual and relationship violence and stalking; 
and increases people's self-reported bystander behaviors. Our 
prevention strategies have been developed with considerable input from 
students, staff, and faculty representing a diversity of backgrounds 
and have been adopted by colleges and universities across the United 
States and adapted for the U.S. Army. We regularly train students, 
faculty and staff on campuses across the country to facilitate Bringing 
in the Bystander and are currently working with several colleges and 
universities to adapt Know Your Power using photos and scenarios from 
their campuses.
Measuring the Problems of Sexual and Relationship Violence and Stalking 
        on Campus
    Several members of Prevention Innovations and other UNH faculty 
colleagues have administered an ``Unwanted Sexual Experiences 
Survey''\1\ every 5 years since 1988. The campus-wide survey measures 
our male and female undergraduates experiences of unwanted sexual 
intercourse and contact. In 2012, the survey also incorporated 
questions related to relationship violence and stalking and included 
participants from eight colleges and universities. Additionally, my 
colleagues have developed and evaluated a ``Community Readiness to 
Engage'',\2\ modeled after the Tri-Ethnic Center at the University of 
Colorado, survey for campuses to measure their communities' readiness 
to change behaviors, social norms, policies and practices to prevent 
sexual and relationship violence and stalking. The prevention 
strategies for a particular community are dependent on where the 
community is at with readiness to change/engage. Thus, ``prevention in 
a box'' is not always the most appropriate approach to community 
change, as we can't assume that prevention strategies developed for one 
community will naturally transfer and translate to another community.
---------------------------------------------------------------------------
    \1\ http://cola.unh.edu/justiceworks/reports.
    \2\ Modeled after the `` Community Readiness to Change'' Tri-Ethnic 
Center at the University of Colorado.
---------------------------------------------------------------------------
Helping colleges and universities prevent sexual and relationship 
        violence and stalking on campus, effectively respond to 
        survivors, comply with Federal laws and mandates
    Prevention Innovations has just launched the Campus Sexual and 
Relationship Violence Prevention Consortium in an effort to provide 
technical assistance to colleges and universities as they work to meet 
the legislative requirements and reduce campus sexual and relationship 
violence. The Consortium is a project between Prevention Innovations 
university and college campuses across the United States that provides 
members with training, prevention strategies, technical assistance and 
evaluation tools to assess and effectively address sexual and 
relationship violence and stalking in their communities. Technical 
assistance is provided by leading researchers and practitioners in the 
prevention, direct services and compliance fields and is grounded in 
research, theory and evidence-based evaluation. Consortium goals 
include assessment, implementation and sustainability of compliance, 
response and prevention strategies to create violence-free university 
and college campuses.
    Prevention Innovations is also working with the 14-member programs 
of the New Hampshire Coalition Against Domestic and Sexual Violence to 
build local community-based crisis centers' capacities to respond to 
the recent Federal legislation related to campus sexual and 
relationship violence and stalking. Community-based programs have the 
potential to provide important support to campus survivors and campus 
communities, both in terms of crisis response and prevention. 
Unfortunately, many community-based programs do not have in-depth 
knowledge of recent changes in Federal laws related to campus violence 
and there are not strong models of community and campus partnerships in 
this area. Community-based programs need to increase their 
understanding of recent reforms and identify ways that they can meet 
the needs of campus survivors and campus prevention requirements. 
Likewise, campuses need to see community-based programs as partners in 
meeting new requirements. We are piloting this project in New Hampshire 
and are currently outlining plans to implement this technical 
assistance nationally.
How Federal Law is working to help prevent campus sexual assault
    I am delighted to see the extent to which the U.S. Department of 
Education, through Title IX and VAWA Amendments to the Clery Act, have 
prioritized campus safety, not only related to sexual assault, but also 
dating and domestic violence and stalking. When we discuss these 
important reforms, it is important for us to remember multiple forms of 
violence and not just focus on sexual assault. The recent mandates for 
campuses to ensure swift and effective responses to reports of sexual 
and relationship violence and stalking, sensitive and confidential 
support services for survivors and prevention education are essential 
to stopping these preventable offenses. All of the recent Federal 
mandates hold colleges and universities accountable for ensuring safety 
and accountability on campus. For some campuses, these mandates build 
upon work, services and policies that they have already begun to 
develop and implement. For many other campuses, these mandates provide 
an opportunity to begin this work in formal ways. Prevention 
Innovations has had the opportunity to work with many colleges and 
universities across the country. While campuses are diverse on many 
levels, our advice to them is structured around the following 
framework. I believe that these suggestions can also be applied to 
reform and strengthen Federal laws related to campus dating and 
domestic violence, sexual assault and stalking.
If Federal Law needs to be reformed and strengthen to better address 
        these issues
    <bullet> Build comprehensive prevention strategies and responses 
that focus on a continuum of violence that includes dating and domestic 
violence, sexual assault and stalking.
    <bullet> Conduct regular and appropriate and community-wide 
prevention that engages all members of the campus community, including 
undergraduate and graduate students, staff, faculty, administrators, 
parents, community members/businesses, and alumni. Prevention 
strategies should be comprehensive and occur with students during every 
year of their college experience.
    <bullet> Conduct regular and appropriate climate studies to measure 
the extent and nature of the problems of sexual and relationship 
violence and stalking on campus.
    <bullet> Prevention strategies should be scientifically evaluated 
and evidence-based/research-informed. Too many non-research-based 
``quick solution'' programs are popping up and have not been evaluated 
at all. For-profit companies, with no subject matter experts, are 
seizing the opportunity to make money off of recent Federal mandates. A 
number of these ``solutions'' to recent mandates are not research-
informed or evidence-based. This is problematic.
    <bullet> Prevention and response approaches need to be translated 
for a diversity of campuses. For example social marketing campaign 
images developed at the University of New Hampshire, even though they 
are effective, will not easily translate to an HBCU campus.
    <bullet> Campuses fall along a continuum of readiness to engage in 
prevention and response. Thus, it makes sense that some campuses need 
different approaches themselves.
    <bullet> While bystander intervention is important, it is also 
essential to teach students about sexual consent and healthy 
relationships. We expect them to be bystanders in instances of sexual 
and relationship violence if they don't know how to identify sexual 
consent and healthy relationships. Ideally, this formal education 
should occur at least in high school.
    <bullet> Bystanders need to assess the situation for safety. 
Bystanders need to be safe in order to help others.
    <bullet> Survivors need access to confidential support services and 
advocacy. Campuses need to identify and advertise on-campus 
confidential support AND partner with community-based crisis centers to 
provide confidential support for survivors and evidence-based/research-
informed prevention.
                    bystander intervention resources
    Engaging communities to end sexual violence: Current research on 
bystander focused prevention [Special issue]. Potter, S.J., & Banyard, 
V. (Eds.). (2011). Violence Against Women, 17(6).
    Using a Multimedia Social Marketing Campaign to Increase Active 
Bystanders on the College Campus. Potter S. (2012). Journal of American 
College Health, 60(4): 282-95.
    Bringing in the target audience in bystander social marketing 
materials for communities: Suggestions for practitioners. Potter S.J. & 
Stapleton J.G. (2011). Violence Against Women, 17: 797-812.
    Using Social Self-Identification in Social Marketing Materials 
Aimed at Reducing Violence Against Women on Campus. Potter, S.J., 
Moynihan, M.M., & Stapleton, J.G. (2011). Journal of Interpersonal 
Violence, 26(5), 971-90.
    Designing, Implementing, and Evaluating a Media Campaign 
Illustrating the Bystander Role. Potter, S.J., Stapleton, J.G., & 
Moynihan, M.M. (2008). Journal of Prevention & Intervention in the 
Community, 36(1), 39-55.
    Unwanted Sexual Experiences--Reports http://cola.unh.edu/
justiceworks/reports.
    How do we know if it works? Measuring outcomes in bystander-focused 
abuse prevention on campuses. Banyard, V.L., Moynihan, M.M., Cares, 
A.C., & Warner, B. (2014). Psychology of Violence, 4(1), 101-15.
    Who Are You? http://whoareyou.co.nz/.
    Stepping Up to Stop Sexual Assault NY Times http://www.nytimes.com/
2014/02/09/education/edlife/stepping-up-to-stop-sexual-
assault.html?ref=us.
    Improving College Campus-Based Prevention of Violence Against 
Women: A Strategic Plan for Research Built on Multi-pronged Practices 
and Policies. Banyard, V. B. (2014). Trauma Violence Abuse http://
tva.sagepub.com/content/early/2014/02/04/1524838014521027.
    The Evaluation of Campus-Based Gender Violence Prevention 
Programming: What We Know about Program Effectiveness and Implications 
for Practitioners, Roberta E. Gibbons and Julie Evans http://
vawnet.org/Assoc
_Files_VAWnet/AR_EvaluationCampusProgramming.pdf.
    Changing Perceptions of Sexual Violence Over Time, Sarah McMahon 
and Karen Baker http://vawnet.org/Assoc_Files_VAWnet/
AR_ChangingPerceptions
.pdf.
    What Works in Prevention. Nation, M., Crusto, C., Wandersman, A., 
Kumofer, K.L., Seybolt, D., Morrisey-Kane, E., & Davino, K. (2003). 
American Psychologist, 58(6/7).
    Engaging Bystanders to Prevent Sexual Violence Packet, National 
Sexual Violence Resource Center. This online resource collection offers 
advocates and preventionists information and resources on bystander 
intervention. It includes resources to use with community members, as 
well as information and research on the effectiveness of bystander 
intervention. This 4-part collection was developed for use by 
advocates, preventionists, and community members. http://www.nsvrc.org/
projects/engaging-bystanders-sexual-violence-prevention/bystander-
intervention-resources.

    The Chairman. Thank you all very much.
    We'll try to do a quick round. I'll have basically one 
question because we have votes starting at 11:45. So we have 
about 15 more minutes.
    Let me ask you, Ms. Stapleton, do we have any information, 
data, on college orientation? Do colleges have sessions on 
sexual assault, other forms of violence which you point out, 
that it's not just sexual assault, it's other forms of 
violence? It could be stalking. It could be intimidation that 
Mr. Kelly spoke about in terms of that type of intimidation of 
students. Do we have any data?
    Ms. Stapleton. We don't, actually, Senator Harkin, have any 
data. The VAWA amendments to Clery actually do outline, as Mr. 
Moore did talk about, primary prevention programs for dating 
and domestic violence, sexual assault and stalking. But we have 
no data, and that actually is what we've been asked to do a 
study on for the White House Task Force.
    The Chairman. When is that going to be done by?
    Ms. Stapleton. It actually is a campus-wide study involving 
seven campuses, and we're conducting it in September, and we 
will report to the White House in January.
    The Chairman. Ms. Renda, you are also a survivor of 
assault, and I read your testimony last night, and it seems to 
me we have a little bit of a difference here with Ms. Lhamon. 
Maybe we'll work this out, but you are basically advocating 
that we have different levels of sanctions, ``maintain a range 
of sanctions so as not to deter survivors from reporting, and 
respect a variety of resolutions survivors seek.'' That sort of 
gets into what Senator Whitehouse and I were talking about, do 
all these rise to the level of felonies but maybe the survivor 
doesn't want to push it that far?
    I'm sort of a little confused myself, because I agree with 
Senator Whitehouse, you don't want to permit a perpetrator who 
is guilty of a felony and who may be a serial perpetrator from 
escaping the provisions of law pertaining to felony assault. On 
the other hand, you're saying there ought to be other 
approaches also. Can you help me think this through?
    Ms. Renda. I think the kind of clear point of distinction 
is that maintaining a range of sanctions is about being able to 
offer survivors on the front end a range of different outcomes 
and to be able to say we can use this to mandate that your 
assailant get counseling or something along those lines. That's 
not to say though, that once the disciplinary proceeding 
begins, that a survivor maintains the same goals or wishes. A 
lot of times the recovery process causes you to change your 
intentions over time. Many victims feel a lot of self-blame 
initially that prevents them from really wanting to report in a 
punitive way. That changes the more the involvement on the 
school's part really becomes available.
    That range of sanctions is a comfort in some ways, and then 
also allows the school to act. And once a school has initiated 
its formal disciplinary proceeding, it is entirely possible 
that they can determine that a hostile environment exists 
regardless of exactly what the survivor wants and would be able 
to work with that person to say,

          ``I know you didn't want to see this person expelled, 
        but we believe that they pose a threat to other 
        students, and so we have to take that action.''

    It's a way of cooperating with survivors on their needs 
with and throughout that process that still allows a school to 
evaluate a hostile environment and still make choices that are 
best for the safety of campus as a whole. I think the risk that 
mandatory reporting would deter someone from coming forward in 
the first place, which prevents that whole process from taking 
place.
    The Chairman. Mr. Kelly, again, and perhaps also Ms. Renda, 
again, the sanctions in the Office of Civil Rights, what they 
can levy against institutions out of compliance, inform me, Mr. 
Kelly, inform me about how you might see this. Rather than just 
this big nuclear option where we threaten to take away all your 
funds, or we're going to go to the police and have this person 
prosecuted as a criminal, are there other things that we need 
to be looking at here and approaches on this, especially as it 
pertains to the gay and lesbian community?
    Mr. Kelly. Yes. Thank you for your question, Senator 
Harkin. I think that in the testimony that I provided, I think 
that what makes the most sense is to provide the Office of 
Civil Rights with numerous avenues for compliance and for the 
punishment of non-compliance. So if a school is found out of 
compliance, right now the only option is either the full 
removal of Federal funding or no fines at all. There needs to 
be some sort of middle ground here.
    What's been happening recently is students have been using 
the Clery Act more and more because they levy some fines. But 
the Clery Act fines are not tied to a campus' endowment or 
yearly earnings or anything like that. It's just one standard 
set fine that's pretty low and doesn't really have any effect 
on schools with hundreds of millions of dollars in their 
endowment.
    I think that what makes most sense is to have fines tied to 
a school's yearly operating budget or a school's funds in some 
ways. That way, you see fines that are not unduly affecting the 
small campuses that Jim Moore was talking about earlier, the 
small for-profit schools that have 12 students, things like 
that. But also if you have a school like the University of 
Michigan or the University of Tennessee, where you have 
hundreds of millions of dollars, if not more, at their 
disposal, you're actually having a fine that really does have 
some effect, and I think that's really important.
    The Chairman. Ms. Renda, do you kind of agree with that?
    Ms. Renda. I would absolutely agree. I think the key issue 
is that idea of budgetary reallocation on a year-to-year basis 
that can be flexible, that can cooperate with the current 
resolution agreements, may provide bystander education. The 
Office of Civil Rights could mandate that they provide $5,000 a 
year to fund those programs for a certain number of years as 
part of that agreement, and that would really kind of push 
compliance in a way that it's voluntary and in good faith now 
but I think would have a lot more teeth to it if it was forced.
    The Chairman. What do you think of that, Ms. Stapleton?
    Ms. Stapleton. I'd like to see the discussion focus on 
prevention as well.
    The Chairman. OK, I got that.
    Ms. Stapleton. Just because I think if we're really, truly 
looking to stop the problems, of course, we want to have 
responses to survivors and adjudication, but we really need to 
focus on stopping the problem.
    The Chairman. I agree. We need colleges to set up better 
structures, better orientation, provide Clery Act information 
to incoming students. But they need structures in place that 
inform students as to what violence is, what campus violence 
is, what sexual violence is, what stalking, what intimidation 
is, yes.
    Ms. Stapleton. Absolutely, and I think an important piece 
of the Clery statistics is that the Clery statistics really 
aren't--they are what gets reported to formal structures. 
That's why I think----
    The Chairman. Say that again?
    Ms. Stapleton. The Clery statistics really are reports that 
come through the university through formal structures. So in 
many campuses it's the campus police or the Dean of Students' 
office.
    The Chairman. Right.
    Ms. Stapleton. What we found in our climate studies, our 
Unwanted Sexual Experience study that we do, is that actually a 
very small percentage of students who report their sexual 
assault experiences actually report to those formal structures. 
Students are most likely to report to a friend or their 
roommate. That's why I think bystander intervention is so 
important, and also it's so important to release the findings 
of those climate studies so that when a prospective student and 
their family look at the Clery statistics and they say, ``well, 
this is really low,'' it's not necessarily indicative of what's 
happening on the campus. A climate study would give them a much 
more comprehensive view of what's happening on that campus.
    The Chairman. Great. Thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    I want to start by thanking this panel for your testimony, 
and particularly those of you survivors who have taken 
something horrible and turned it into very positive advocacy 
and support for others.
    I want to continue to highlight one aspect of the issue of 
campus sexual assault, the one that Mr. Kelly spoke to in his 
testimony; namely, how it may uniquely impact lesbian, gay, 
bisexual, transgender and queer people. Same-sex sexual 
violence has certainly not always been taken seriously by law 
enforcement, and social stigma and discrimination still mean 
that many in the LGBTQ community are reluctant to report that 
they have been victims of crime.
    And furthermore, while title IX prohibits all forms of sex 
discrimination, including that based on sex stereotypes, and 
the Clery Act requires reporting of campus hate crimes based on 
sexual orientation and gender identity, there is no Federal law 
that specifically addresses discrimination in education based 
on sexual orientation and gender identity.
    You heard earlier today with Senator Murray's questioning 
that she and I and other colleagues have introduced legislation 
called the Tyler Clementi Higher Education Anti-Harassment Act 
which would require colleges and universities to address 
harassment, including cyber bullying, based on sex, sexual 
orientation, gender identity and other characteristics. This 
legislation would add to the important protections that we're 
already discussing today and that are already on the books and 
ensure that colleges and universities take steps to avoid and 
to address harassment in all of its forms.
    I would like to hear from the panel, but, Mr. Kelly, I'd 
love to start with you. I know you've outlined some very 
specific things in your written testimony, but are there other 
ways in which Congress or the Administration can better ensure 
that our response to campus sexual assault and other forms of 
campus violence is truly inclusive of the LGBT community?
    Mr. Kelly. Thank you so much for your question, Senator 
Baldwin, and thank you for your work on the legislation that 
you were speaking about. I think it's so incredibly important.
    I think that when we're talking about the harassment that 
queer students have occur to them, in a similar way that we 
talk about sex discrimination under title IX as including 
sexual harassment and sexual violence, I think we could be 
talking about sex discrimination that queer students face. The 
unfortunate reality is that hate crimes still happen on campus, 
and the unfortunate reality is that sexual violence within the 
queer community is still pretty rampant.
    I think that making sure that policies cater specifically 
to those who have been most often hurt by it is the best place 
to start. I know there's been a lot of talk about the place of 
the criminal justice system here. I tried to go to the criminal 
justice system, but I have an unwinnable case because I'm a 
male. I could never prosecute against my assailant. We need to 
be talking about how better to have State legislation, how 
better to have local legislation that expands definitions of 
sexual violence to include male survivors and survivors of 
same-sex sexual assault.
    I mean, some of the States that Senators on the HELP 
Committee are from, even, have laws that are discriminatory on 
the books. I was doing a quick search. You see male pronouns 
when we're talking about assailants. You see female pronouns 
when we're talking about survivors. Things like that need to be 
eradicated from the law, from the top-down, and I think the 
Senate is the place to start with it. You have to start at the 
top, and I appreciate all the work that you've done on this 
topic, and it's one that we have to keep talking about and we 
have to keep legislating. Thank you.
    Ms. Renda. I would reiterate that point about language. 
Something as simple as it's called the Violence Against Women 
Act, or the Office of Violence Against Women, it paints a very 
clear picture of who violence happens to and who perpetrates 
violence, and it really leaves those people out. I think 
something to be mindful of as well is that we're requiring 
colleges now to consider doing climate surveys--and you may 
speak better to this than I, but those should be made sure to 
have language that's inclusive that really measures incidence 
across groups and that doesn't presume opposite-sex partners or 
opposite-sex assailants.
    Ms. Stapleton. I would agree with my two panelists and say 
that I know that we work very hard to build prevention 
strategies that are very inclusive as well. I think, again, we 
need evidence to know what works.
    Senator Baldwin. Thank you.
    The Chairman. Thank you.
    A vote has started. I just have one pointed thing I wanted 
to bring up and get your thoughts on.
    The Department published a proposed rule to the VAWA, the 
Violence Against Women Act amendments to the Clery Act just 
last week. One of the provisions that's gaining a great deal of 
attention is the new provision clarifying that both parties may 
have others present during an institutional disciplinary 
proceeding, including an advisor of their choice.
    On the one hand some argue that this erodes an 
institution's ability to control its own proceedings, that it 
chips away at the institution's ability to marshal its students 
and community members to police their own. Others indicate that 
this offers both parties the right to have someone to accompany 
them and offer advice during what could amount to a very 
traumatic proceeding on either side.
    OK, what are your thoughts on that?
    Ms. Renda. I would say I think both points are very salient 
in terms of it's really important, especially for a survivor, 
to have someone present during that hearing, someone to just 
sit next to you or to consult with in recess, or just make sure 
that you're managing your expectations.
    Accused students also deserve that right.
    The risk, I believe, comes with lawyers and advisory 
counsel and the inequity that could occur if one student can 
afford a lawyer and the other cannot, and the types of advice 
that might be given that would be privileged in one sense to 
one side of the investigation, but then it's not available 
because the other student can't afford it. I think that's where 
that advisory role perhaps presents a serious problem.
    The Chairman. Very, very good point. You're right, one 
student might have the financial resources to have all kinds of 
lawyers and legal, and the other person may not. That's a good 
point.
    Mr. Kelly, any thoughts on that?
    Mr. Kelly. What I think is really important to note is that 
it does not limit who the advisor can be, but it gives the 
school leeway to limit what the advisor can do in the meeting. 
A school has the ability to limit the advisor to only be 
present in the room and not allowed to speak, and I think 
that's really important because oftentimes schools, especially 
smaller schools, don't have victim resources. I'm talking about 
rape crisis counselors, domestic violence advocates, things 
like that. Whereas an outside crisis counseling center, a local 
crisis counseling center would have those resources.
    To be able to limit who the advisor could be to only 
members within the institution, which I know a lot of schools 
have historically done, can be really problematic because then 
you can leave survivors with no one who has training in how 
best to support a survivor in a difficult time.
    I do understand the difficulty with having attorneys 
present and things like that. But again, if you're limiting 
what's able to be said in these meetings by advisors, if you're 
limiting the role of the advisor, as long as you have the 
ability to have someone present, I think that's what matters 
the most.
    The Chairman. Yes, exactly.
    Ms. Stapleton.
    Ms. Stapleton. I think it's really essential to allow 
survivors to have outside support people because I think 
sometimes, and I've seen it happen, colleges and universities 
do not provide survivors with the most informed and supportive 
people. I would advocate heavily to have survivors have outside 
people, and I agree with John on schools can limit what those 
advisors do.
    The Chairman. But again, I just raise this, and the issue 
of ombudsmen, having somebody that a student can go to who is 
not in the hierarchy of the school's structure is of critical 
importance.
    Ms. Stapleton. Right, very important.
    The Chairman. They're not the athletic director.
    Ms. Stapleton. And particularly if that person can have 
confidential communications either through a counseling or 
health center or a victim advocate provision I think is the way 
to go.
    The Chairman. Yes, they may not be trained legally to know 
all the legal nuances and stuff.
    Ms. Stapleton. Victim advocates are.
    Mr. Kelly. Yes. I was actually about to say that most 
district attorney offices have victim witness advocates who 
operate basically to provide victims of crimes, a variety of 
crimes, with all of the resources at their disposal and sort of 
accompany them through the legal process. To have a victim 
witness advocate liaison to a specific campus I think would be 
a good solution to that problem.
    The Chairman. Yes, exactly.
    I have 2 minutes left, they tell me, to get over there.
    First of all, I'd like to thank all our witnesses for 
sharing their expertise and views with us today. I particularly 
want to thank the survivors who are here with us today and for 
your personal courage in coming forward and speaking with us. I 
must say that when I hear you, I put a lot of weight on what 
you are suggesting rather than perhaps others. I give a lot of 
weight to that, and that goes to that issue of having sliding 
scales and things like that, that I seem to have a disagreement 
with the Department on. I just want to thank you for that.
    Especially Ms. Stapleton, thank you for all the wonderful 
research you have done. You're absolutely right, I am sort of 
the father of prevention and health and everything else, and we 
have to do a better job of having structures in our schools 
that inform students, that set up preventive type measures. 
Yes, that is the first.
    Ms. Stapleton. And thank you for all your work.
    The Chairman. We have to do that. But again, we have to do 
something also to respond to the assault victims that are 
there. We know it's under-reported.
    Ms. Stapleton. Absolutely.
    The Chairman. Second, I want to say that I just found out 
that the academies, the military academies don't have to report 
under the Clery Act. That needs to be fixed, too. That needs to 
be fixed.
    Again, I thank all of you. I thank my colleagues. I 
especially want to thank Senator Alexander for his partnership 
on this hearing. He had to go vote, and I know he had a plane 
to catch, but I want to thank the committee's efforts to 
examine this very critical issue. It will be a part of our 
Higher Education Act reauthorization.
    Ms. Stapleton. Wonderful.
    The Chairman. Exactly how it's going to do, well, that's 
why we're having this hearing, to try to inform us as to what 
to do.
    I request the record remain open until July 10th for 
members to submit statements and additional questions for the 
record.
    The committee will stand adjourned.
    Thank you very much.
    Ms. Stapleton. Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                Prepared Statement of Senator Blumenthal

    Mr. Chairman, I appreciate the opportunity to submit 
testimony for the record on the urgently important topic of 
sexual assault on college campuses. I hosted seven roundtable 
discussions earlier this year at schools in Connecticut on the 
issue of campus sexual assault, and that experience really 
opened my eyes to the shameful prevalence of this crime. I 
listened to students, faculty, administrators, alumni, and 
experts give their personal and professional opinions on this 
pressing and difficult issue--including some who shared deeply 
painful experiences.
    Based on the input I received from these roundtables, I 
developed and published a College Sexual Assault Bill of Rights 
Report in May 2014 which is available at http://
www.blumenthal.senate
.gov/download/college-sexual-assault-report-final. I have 
spoken with schools in Connecticut and urged them to use this 
Bill of Rights report to ensure that their institutional 
policies provide all students with the rights and protections 
that they deserve.
    What I heard from the Connecticut community underscores 
what I have known for a long time: the prevalence of a sexual 
violence in schools is an urgent civil rights issue. Although 
this crime is vastly underreported, it is disturbingly common.
    Multiple aspects of campus life create the conditions that 
enable sexual violence to occur. Many students do not 
understand how to address--or even to recognize--a potentially 
dangerous situation. Inadequate enforcement of drug and alcohol 
policies by some schools gives perpetrators easy access to 
tools that they can use to facilitate the crime of assault. 
Additionally, social pressure, a lack of information, and 
apathetic or hostile administrative responses discourage 
reporting.
    We can and must take concrete steps to both reduce the 
number of assaults and improve how they are dealt with when 
they occur so that students can successfully achieve their 
academic goals. Campus communities should strive to establish a 
culture that treats sexual assault as completely unacceptable, 
and legislators and regulators should encourage and support 
this.
    I am grateful for the work of my colleague Senator Casey, 
who has been a leader on this issue for many years. His success 
in passing the Campus Sexual Violence Elimination Act was a 
significant step forward, and I look forward to building on his 
efforts once the Department of Education finalizes the 
regulations to implement his legislation. I'm also very 
appreciative that Chairman Harkin has brought additional 
attention to this issue through this hearing. I have been 
working on a comprehensive piece of legislation with my 
colleagues Senators Gillibrand and McCaskill, and I'm hopeful 
that we can all move forward together in the fight to end 
campus sexual assault.
    The scourge of sexual violence in schools is a difficult 
issue that we must seek to understand with sensitivity and 
steadfast commitment. We owe it to those who have been brave 
enough to share their stories to make concrete and 
comprehensive efforts to eradicate this pernicious problem.

                Prepared Statement of Senator McCaskill

    Thank you, Chairman Harkin and Ranking Member Alexander, 
for holding this important hearing on the issue of sexual 
assault on our college campuses. As you know, about 25 percent 
of women and 4 percent of men are victims of sexual assault 
during their college years. These numbers are troubling to 
parents, students, and educators. As a mother and former 
prosecutor of sex crimes, I am working extensively with my 
Senate colleagues to ensure students are protected from 
incidents of sexual violence and perpetrators are held 
accountable.
    As Chairman of the Subcommittee on Financial and 
Contracting Oversight in the Committee on Homeland Security and 
Governmental Affairs, I recently completed a series of three 
roundtables to examine sexual assault on college campuses that 
brought together advocates, sexual assault survivors, 
prosecutors, police, and university faculty and staff. 
Throughout the course of these three roundtables, common themes 
from participants were the importance of the Federal Government 
offering support to universities to combat this problem, the 
need to hold schools accountable for protecting students, and 
the importance of universities working with local police and 
prosecutors to ensure these crimes are handled appropriately.
    As a former prosecutor, I take special interest in ensuring 
that survivors are given adequate support and feel empowered to 
make informed decisions regarding the adjudication and 
disposition of their cases. This cannot succeed without 
survivors meeting, as soon as possible, with personnel trained 
in interview techniques designed for victims of traumatic 
events. This interviewing technique, known as the forensic 
interview, is a vital tool in supporting survivors as well as 
ensuring the preservation of evidence to build strong cases 
against perpetrators. I am concerned that interviews of this 
sort are used far too infrequently in sexual assaults and 
hardly ever, if at all, on college campuses.
    Additionally, campuses, local law enforcement, and 
prosecutors must work together to protect students from sexual 
violence on campuses. This cannot be done without cooperation 
between colleges and universities and local law enforcement. 
Rather than compete or work against one another, colleges and 
universities and local law enforcement must share the 
responsibility of supporting survivors and punishing 
perpetrators.
    I look forward to working with my Senate colleagues and 
members of this committee on this issue in the coming months. 
We must continue to work to improve survivor confidence in the 
judicial and campus systems, which will, in turn, increase 
reporting, support survivors, and punish perpetrators of sexual 
assault on our college campuses.

   Prepared Statement of Jocelyn Samuels, Acting Assistant Attorney 
       General, Civil Rights Division. U.S. Department of Justice
    The Department of Justice appreciates the opportunity to submit 
this statement for the record of the committee's June 26, 2014 hearing 
on combating sexual assault and violence under Title IX of the 
Education Amendments of 1972 (Title IX) and related legislation. In 
this statement, the Department will outline its responsibilities under 
title IX, Title IV of the Civil Rights Act of 1964 (Title IV), and 
other laws, as well as provide some examples of Department's work on 
campus sexual violence issues. Our enforcement work under these 
statutes and the stories of the brave survivors we have met through 
that work have further strengthened our commitment to use all of the 
tools at our disposal to combat sexual assault.\1\
---------------------------------------------------------------------------
    \1\ Sexual violence refers to physical sexual acts perpetrated 
against a person's will or where a person is incapable of providing 
consent. Sexual violence includes rape, sexual assault, sexual battery, 
sexual abuse, and sexual coercion. When using the term sexual assault, 
this testimony refers to all forms of sexual violence on campus.
---------------------------------------------------------------------------
    Sexual harassment and assault deny students the ability to live and 
learn in a safe educational environment--and are a form of sex 
discrimination that can violate the Nation's civil rights laws when 
they create a hostile environment. Survivors are often unable to 
complete their academic work, and suffer serious short- and long-term 
negative mental health consequences.
    Feeling unsafe on campus, they are more likely to leave the 
university before graduating. The devastating rates of sexual assault 
remind us of the continuing critical importance of enforcing these 
civil rights laws to address sex discrimination in all education 
programs.
                            i. introduction
    Passed by Congress on June 23, 1972, title IX bars sex 
discrimination in education programs and activities offered by entities 
receiving Federal funds. In the 42 years since its enactment, title IX 
has improved access to educational opportunities for millions of 
students, helping to ensure that they all have an ``equal opportunity 
to aspire, achieve, participate in and contribute to society based on 
their individual talents and capacities.'' \2\ In 2012 alone, title IX 
protected over 49 million students enrolled in elementary and secondary 
schools,\3\ as well as over 20 million students enrolled in 
postsecondary education.\4\
---------------------------------------------------------------------------
    \2\ U.S. v. Virginia, 518 U.S. 515, 532 (1996).
    \3\ ``Digest of Education Statistics, 2012,'' National Center for 
Educational Statistics available at http://nces.ed.gov/programs/digest/
d13/tables/dt13_203.20.asp.
    \4\ ``Digest of Education Statistics, 2012,'' National Center for 
Educational Statistics available at http://nces.ed.gov/programs/digest/
d13/tables/dt13_302.10.asp.
---------------------------------------------------------------------------
    Title IV was passed in 1964 to prohibit public schools, colleges, 
and universities from discriminating against students on the basis of 
race, color, national origin, and religion, and was amended in 1972 to 
prohibit sex discrimination as well. As applicable here, the 
fundamental principle underlying both title IX and title IV is that 
students may not be denied educational opportunities based on their 
sex--a principle that applies to the wide range of educational programs 
and activities offered by schools, including but not limited to: 
academic programs; financial aid for post-secondary institutions; 
student services and counseling; and athletics and physical education. 
Additionally, educational institutions may not retaliate against a 
person because he or she opposed, reported, or complained about sex 
discrimination or participated in a discrimination investigation or 
proceeding.
    These laws protect students from sexual harassment, including 
sexual assault, that creates a hostile environment. When educational 
institutions fail to respond adequately to campus sexual assault, they 
engage in discrimination by forcing the affected students to attend 
school in a hostile sex-based environment. Under title IX, title IV, 
and other laws discussed below, educational institutions must respond 
to sexual assault quickly and effectively, including supporting 
survivors during the investigation and bringing perpetrators to 
justice. Ensuring that campus police respond to complaints of sexual 
assault, and that educational institutions' investigative and 
disciplinary processes are prompt, fair, adequate, and reliable for 
both victims and alleged perpetrators is critical to protecting the 
civil rights of all students on campuses.
            ii. department of justice enforcement authority
    The Department of Justice's commitment to preventing and responding 
to sexual assault and to holding schools accountable for fulfilling 
their obligations under Federal law is one that is shared across 
different divisions of the Department, including the Civil Rights 
Division, the Office on Violence Against Women,\5\ and the Office of 
Justice Programs.
---------------------------------------------------------------------------
    \5\ The Department of Justice's Office on Violence Against Women 
administers grant programs that provide Federal funds to colleges and 
universities under the Violence Against Women Act (VAWA). The 
Department's Office of Justice Programs, Office of Civil Rights 
enforces the provisions of the Violence Against Women Reauthorization 
Act of 2013 that prohibit discrimination on the basis of sex, among 
other bases, by recipients of VAWA funds.
---------------------------------------------------------------------------
    The Civil Rights Division of the Department of Justice combats 
sexual assault through enforcement of four laws: title IX, title IV, 
Section 14141 of the Violent Crime Control and Law Enforcement Act of 
1994, and the Omnibus Crime Control and Safe Streets Act of 1968. The 
Department's unique enforcement authority under these four laws enables 
the Division to address sexual assault in a holistic manner by engaging 
all of the entities that play a role in preventing and responding to 
sexual assault, thus strengthening the potential for sustainable and 
community-wide solutions.
a. Title IX of the Education Amendments of 1972 (``Title IX'')
    As described above, title IX applies to all educational 
institutions that receive Federal funds, including all K-12 public 
school districts and almost every college and university. When the 
Department of Justice provides Federal funds to a school, it can 
initiate a title IX compliance review or title IX complaint 
investigation. The Department of Justice also coordinates title IX 
enforcement for all Federal agencies and can initiate litigation to 
enforce title IX upon referral from the agency funding the 
discriminating school when findings of sex discrimination cannot be 
voluntarily resolved with the educational institution. In addition, the 
Department of Justice can intervene, file amicus (friend-of-the-court) 
briefs, or file statements of interest in title IX lawsuits initiated 
by private parties.
b. Title IV of the Civil Rights Act of 1964 (``Title IV'')
    Title IV prohibits discrimination on the basis of sex, as well as 
race, color, national origin, and religion in public schools, colleges, 
and universities, regardless of whether they receive Federal funds. 
Under title IV, the Department of Justice may conduct investigations 
and, upon receipt of a complaint, file enforcement actions in court to 
address sex-based discrimination, including sexual harassment, at 
public educational institutions.
c. Section 14141 of the Violent Crime Control and Law Enforcement Act 
        of 1994 (``Section 14141'') and the Omnibus Crime Control and 
        Safe Streets Act of 1968 (``Safe Streets Act'')
    These two laws prohibit law enforcement agencies, including campus 
police, from engaging in a pattern or practice of discriminating on the 
basis of sex in their response to sexual assault. Section 14141 
authorizes the Department of Justice to review whether a law 
enforcement agency engages in a pattern or practice of misconduct that 
violates people's Federal statutory or constitutional rights. Where the 
Department of Justice finds such a pattern or practice of misconduct, 
it may seek injunctive relief to remedy these violations. Additionally, 
the Department of Justice enforces the anti-discrimination provisions 
of the Safe Streets Act. Under this Act, the Department is authorized 
to investigate and, where appropriate, file suit to address allegations 
of a pattern or practice of discrimination on the basis of race, color, 
sex, or national origin by law enforcement agencies receiving Federal 
funds.\6\
---------------------------------------------------------------------------
    \6\ Under the Safe Streets Act, the Department of Justice's Office 
of Justice Programs, Office for Civil Rights has the authority to 
investigate individual complaints that grantees of Department of 
Justice funds have violated the Safe Streets Act's prohibition on 
discrimination.
---------------------------------------------------------------------------
    Below, we address the standards applicable under title IV and title 
IX in more detail.
                      iii. investigative standards
    Sexual violence is a form of sexual harassment. It refers to 
physical sexual acts perpetrated against a person's will or where a 
person is incapable of providing consent. Sexual violence includes 
rape, sexual assault, sexual battery, sexual abuse, and sexual 
coercion. An educational institution violates title IX and title IV if: 
(1) a student is sexually harassed and the harassing conduct is 
sufficiently serious to deny or limit the student's ability to 
participate in or benefit from the program (i.e., the harassment 
creates a hostile environment); (2) the educational institution knew or 
reasonably should have known about the harassment; and (3) the 
institution fails to take immediate effective action to end the 
harassment, eliminate the hostile environment, prevent its recurrence, 
and address its effects, where appropriate.
    To determine whether a hostile environment based on sex exists, the 
Civil Rights Division considers whether there was any harassing conduct 
that was sufficiently serious--that is, sufficiently severe, pervasive, 
or persistent--to deny or limit a student's ability to participate in 
or benefit from a school program, activity, or opportunity based on 
sex. Under title IX's administrative enforcement standard and title 
IV's injunctive relief standard, ``severe, pervasive, or persistent'' 
sexual harassment establishes a hostile environment; if an educational 
institution knew or reasonably should have known of it, the school must 
effectively address it.
    In determining whether it is fulfilling its legal obligations, an 
educational institution must examine from an objective and subjective 
perspective all relevant circumstances with respect to whether a 
hostile environment exists, including: the type of sexual harassment 
(e.g., whether it was verbal or physical or both); the frequency and 
severity of the conduct; the age, sex, and relationship of the 
individuals involved (e.g., teacher-student or student-student); the 
setting and context in which the harassment occurred; whether other 
incidents have occurred at the educational institution; and other 
relevant factors. The more severe the conduct, the less need there is 
to show a repetitive series of incidents to prove a hostile 
environment, particularly if the harassment is physical, e.g., rape.
    As the Office for Civil Rights' (OCR) of the U.S. Department of 
Education has stated, when a school knows or reasonably should know of 
possible sexual assault, the educational institution must take 
immediate and appropriate steps to investigate or otherwise determine 
what occurred, subject to the survivor's requests for confidentiality, 
in which case the school must consider a range of factors. These 
factors are discussed in OCR's recent Questions and Answers guidance 
about sexual violence issued on April 29, 2014. Investigations must be 
prompt, thorough, and impartial to reliably determine what occurred. If 
the educational institution finds that a hostile environment has been 
created, it must take prompt and effective action to stop the 
harassment, eliminate the hostile environment, prevent its recurrence, 
and, as appropriate, address its effects. A series of escalating 
consequences may be necessary if the initial steps are ineffective in 
stopping the harassment.
    In its investigation and enforcement work determining whether a 
hostile environment exists and whether an educational institution has 
adequately responded to allegations of sexual assault, the Civil Rights 
Division considers whether schools:

    <bullet> Have and implement sexual assault policies that are clear, 
consistent with Federal law, and readily accessible to students;
    <bullet> Provide appropriate training for school officials and 
campus law enforcement;
    <bullet> Respond promptly and effectively to complaints of sexual 
assault; and
    <bullet> Eliminate sex-based hostile environments when they are 
found, including providing meaningful relief to address the impact on 
affected students and, where appropriate, the larger campus community.

    In addition to working with educational institutions to address 
sexual assault, the Division also provides guidance to courts through 
its filings of complaints, motions, and amicus briefs to ensure the 
application of proper legal standards under title IX and title IV.
a. Developing Clear and Accessible Policies That Protect All Students
    To effectively prevent sexual assault, schools' sexual misconduct 
policies should provide definitions of sexual assault, sexual 
harassment, and other relevant terms that are clear and consistent with 
Federal law. Confusion over what constitutes ``consent'' or where and 
when ``sexual harassment'' should be reported can make it more 
difficult to hold alleged perpetrators accountable. For example, by 
definition, being under the influence of psychoactive substances can 
impact an individual's ability to consent to sexual activity. While the 
reporting rate for all sexual assaults is low, in cases where the 
survivor has used alcohol or drugs, reporting rates are even lower. In 
a recent study of rape among college women, 11.5 percent of survivors 
reported the rape to law enforcement officials, but only 2.7 percent of 
survivors who had used alcohol or drugs at the time of the rape 
reported the crime.\7\ Sexual misconduct policies must be drafted to 
make clear that all survivors can come forward for counseling and to 
file a complaint.
---------------------------------------------------------------------------
    \7\ Wolitzky-Taylor KB1, Resnick, H.S., Amstadter, A.B., McCauley, 
J.L., Ruggiero, K.J., Kilpatrick, D.G. Reporting rape in a national 
sample of college women. J Am Coll Health. 2011;59(7):582-7. doi: 
10.1080/07448481.2010.515634. available at http://www.ncbi.nlm.nih.gov/
pmc/articles/PMC3211043/.
---------------------------------------------------------------------------
    These policies also should be drafted in culturally responsive and 
inclusive ways to protect all survivors of sexual violence. Without 
inclusive policies, schools too often inappropriately treat survivors 
of same-sex violence and dating violence differently than other 
victims--by perpetuating the perception that rape is only acted out by 
a man against a woman or by a stranger, for example.
    Schools must also broadly disseminate policies so that students 
know how to report assaults; who they can talk to--both confidentially 
and when they want to file a complaint; and how to access support 
services. Students must be clearly informed that the decision as to 
whether to file a complaint with law enforcement is the survivor's 
decision. And most importantly, schools must implement their policies 
and grievance procedures to ensure safe, nondiscriminatory learning 
environments for all students.
b. Providing Appropriate Training for School Officials
    Individuals investigating sexual assault and harassment complaints 
and those responsible for coordinating title IX compliance must also 
receive adequate training. All first responders and persons involved in 
the investigation and disciplinary process should be ``trauma 
informed''--meaning that they understand the physiological and 
neurobiological changes caused by trauma, which affect how survivors 
behave, recall information, and interact with investigators and 
prosecutors.
    School employees tasked with investigating and adjudicating sexual 
misconduct must also be trained on the school's policies applicable to 
the adjudication process, and those policies must be fair to both 
survivors and perpetrators. And all students on campus should receive 
training on the school's policies and procedures as well.
    Finally, training is also critical for campus law enforcement. 
Investigating sexual assault can be difficult even for seasoned police 
officers, and a survivor's interaction with law enforcement can affect 
whether the survivor is willing to go forward with the case. In 
addition to jeopardizing an investigation, ineffective or sporadic 
sexual assault response and investigation training can deprive officers 
of the knowledge necessary to avoid re-traumatizing survivors.
c. Ensuring Prompt and Effective Responses to Complaints of Sexual 
        Violence
    Schools have a duty to respond promptly and effectively to 
complaints of sexual assault. Delayed investigations and other flawed 
responses can too often lead to the loss of critical evidence and to 
students missing class, taking leaves of absence, or dropping out of 
school due to fears for their safety or retaliation. The Civil Rights 
Division looks carefully at how campus law enforcement responds to 
complaints of sexual assault, and how the colleges' investigative and 
judicial processes treat both survivors and alleged perpetrators. 
Ensuring that the college adjudication process is prompt, fair, and 
impartial is critical to compliance with Federal civil rights laws.
d. Delivering Meaningful Relief to Students and Campus Communities
    When schools learn of a report of sexual assault, they must offer 
interim relief as necessary to protect the student's safety and well-
being. This can involve a number of accommodations, from providing 
counseling or legal services to changing the student's living, class, 
or testing arrangements. The school should provide these supports as 
necessary regardless of whether the student wants to proceed with an 
investigation or discipline the accused.
    If a school determines that sexual assault has created a hostile 
environment for the student or for the campus more broadly, it must not 
only take effective steps to stop the harassment but also to remedy its 
effects, where appropriate. These steps can include ensuring that the 
student is safe from further harassment and is able to stay in school 
with appropriate supports and accommodations, such as medical, 
counseling, and academic support services. This also can include 
campus-based remedies such as providing training for students and 
employees, strengthening school policies, conducting bystander 
intervention programs with students, and undertaking other activities 
to prevent the recurrence of sexual assaults. And, of course, 
institutions should ensure that no student is subject to retaliation 
for complaining about sexual assault or bringing concerns to the 
institution's attention.
    In our complaint investigations and compliance reviews, the 
Division works to design resolutions that will bring meaningful relief 
to student survivors and create lasting change to improve the campus 
climate for all students. Our agreements addressing sexual assault 
under title IX, title IV, the Safe Streets Act, and section 14141 
agreements are posted publicly on the Department's and White House's 
websites and provide information to students, advocates, and 
universities that can be used to help improve schools' and law 
enforcement's responses to and prevention of sexual assault.
                iv. examples of investigative activities
    In May 2012, the Department of Justice announced investigations of 
the University of Montana at Missoula, the University of Montana's 
Office of Public Safety (OPS), the Missoula Police Department (MPD), 
and the Missoula County Attorney's Office (MCAO) to ensure that these 
entities were adequately responding to reports of sexual assaults and 
meeting their legal obligations under title IX, title IV, Section 
14141, and the Safe Streets Act. With cooperation from the University 
president, the Departments of Justice and Education reached an 
agreement with the University of Montana, and the Department of Justice 
reached a separate agreement with OPS. The Department of Justice also 
reached separate agreements with MPD and MCAO. These agreements 
embodied a comprehensive approach to resolving sexual assault issues; 
it is our hope that they will serve as an example for other 
postsecondary institutions and law enforcement agencies seeking to 
ensure compliance in these areas.
    In addition, the Department of Justice has pursued title IV and 
title IX cases in K-12 schools, protecting young people against sexual 
assault and harassment. In recent years, in Tennessee, Pennsylvania, 
California, and New York, the Department of Justice has reached 
settlements or consent decrees with school districts to resolve issues 
of sexual assault or sexual harassment.
a. Missoula, MT
    In Missoula, MT, the Department of Justice engaged in four 
investigations of sex discrimination using the full breadth of our 
enforcement authorities under the four applicable statutes just 
mentioned. As detailed below, the investigations found serious 
deficiencies in the response to sexual assault by the University of 
Montana-Missoula, OPS, MPD, and MCAO. In May 2013, the Department 
entered into agreements with the University, OPS, and MPD to resolve 
findings related to those parties. In June 2014, the Department entered 
into an agreement with MCAO. All of the entities have agreed to work 
cooperatively together and with the Department of Justice to implement 
these agreements and improve the safety of all students and other 
members of the Missoula community.
            i. University of Montana-Missoula and the University of 
                    Montana's Office of Public Safety
    The Department of Justice's title IV investigation and the title IX 
compliance review conducted jointly by the Departments of Justice and 
Education identified several ways in which the University's response to 
sexual assault fell short of its legal responsibilities. The 
Departments found that the reported incidents of rape or sexual assault 
were sufficiently serious that they interfered with or limited female 
students' ability to participate in or benefit from the school's 
program. As a result, students faced a hostile environment--they could 
not engage in or complete their academic work; they experienced 
negative mental health consequences; they felt unsafe on campus; and 
some left the University. The Departments further found that the 
University failed to take effective action to fully eliminate this 
sexually hostile environment, prevent its recurrence, and remedy its 
effects. For example, the Departments' investigation determined that 
the University's sexual harassment and assault policies did not provide 
clear notice of the conduct prohibited by the University or clear 
direction about where and how to file complaints; the University's 
grievance procedures did not ensure prompt and equitable resolution of 
complaints of sex-based harassment; and the individuals investigating 
sexual assault and harassment complaints and those coordinating the 
University's title IX efforts did not receive adequate training.
    In May 2013, with the full cooperation of the University 
administration, the Departments of Justice and Education reached a 
comprehensive resolution agreement with the University to resolve the 
findings of noncompliance under title IX and title IV. The agreement 
requires the University to, inter alia: revise its sex-discrimination 
policies and grievance procedures; retain a consultant with expertise 
in addressing sexual assault and harassment to help the University 
develop effective sexual assault and harassment policies and grievance 
procedures; conduct extensive training for University employees and 
students; develop a system for tracking and resolving reports of sexual 
assault and harassment in a timely and effective manner; and conduct 
campus climate surveys to assess whether the reforms put in place by 
the agreement are proving successful at preventing and effectively 
responding to sexual assaults.
    The Department of Justice also conducted a comprehensive 
investigation of OPS, under the Safe Streets Act and Section 14141, to 
assess whether OPS was discriminating on the basis of sex in responding 
to reports of sexual assault. The investigation found that the OPS' 
response to sexual assaults was compromised by deficiencies in policy, 
training, and practice. These deficiencies made it more difficult for 
law enforcement to effectively investigate allegations of sexual 
assault, depriving female sexual assault survivors of basic legal 
protections, and reducing the ability of OPS to protect the public 
safety of the entire campus. In May 2013, the Department reached an 
agreement with the University that required OPS to develop new 
policies, training, and supervision related to handling sexual assault 
cases. This agreement also requires the University to participate in 
innovative initiatives such as a ``community safety audit'' focused on 
sexual assault, and an external group that reviews sexual assault cases 
handled by the Missoula Police Department and OPS. The implementation 
of these measures is being assessed and guided by an agreed-upon 
monitor.
            ii. Missoula Police Department and Missoula County 
                    Attorney's Office
    Using its authority under the Safe Streets Act and section 14141, 
the Department conducted a comprehensive investigation of the MPD's 
response to sexual assault at the University of Montana-Missoula and in 
Missoula more generally. The Department found that deficiencies in 
MPD's response to sexual assaults compromised the effectiveness of 
sexual assault investigations from the outset, making it more difficult 
to uncover the truth and having the effect of depriving female sexual 
assault survivors of basic legal protections In May 2013, the 
Department reached an agreement with MPD requiring it to develop new 
policies, training, and supervision related to handling sexual assault 
cases. The agreement requires MPD to participate in the ``community 
safety audit'' focused on sexual assault and to establish an external 
group to review sexual assault cases handled by the MPD and OPS. A 
monitor will assess and guide implementation of all of these measures.
    The Department also investigated alleged gender bias in the 
prosecution of sexual assaults by the MCAO. In June of this year, the 
Division reached a landmark agreement to resolve its investigation 
under which the MCAO and Missoula County agree to improve MCAO's 
response to allegations of sexual assault and eliminate discrimination 
and gender bias. Under the agreement, the MCAO will take many 
significant steps to address gender bias and help restore community 
confidence in the county criminal justice system. These steps include 
the development and implementation of sexual assault policies and 
training for county prosecutors, the improvement of county prosecutors' 
treatment of individuals who report sexual assault, and enhanced county 
prosecutor collaboration with local law enforcement agencies in 
conducting investigations and pursuing prosecutions. The MCAO also 
agreed to hire an in-house survivor witness coordinator and analyze 
survivor witness surveys to improve coordination and communication with 
other Missoula stakeholders regarding sexual assault response. The 
implementation of these measures is being assessed and guided by an 
agreed-upon technical advisor and the Montana Attorney General's 
office.
b. Allentown, PA
    In July 2012, the Department of Justice and the Allentown School 
District filed a consent decree addressing multiple complaints of 
sexual assault of students at an elementary school, including 
allegations that 6- and 7-year-old students were sexually assaulted by 
another student in the boys' bathrooms. The Department had intervened 
in the private title IX lawsuit against Allentown in 2009 to ensure 
that title IX was properly interpreted and that the serious claims were 
effectively remedied. In this case, the Department alleged that the 
sexual assaults occurred on at least five separate occasions; that the 
district was made aware of each incident immediately after it occurred; 
and that despite this notice, the district did not take appropriate 
action, and in some circumstances took no action, to prevent the 
harassment from recurring. Furthermore, the Department alleged that 
both before and after the sexual harassment of the students, the 
district failed to adopt and implement adequate and effective sexual 
harassment policies and procedure as required by Federal law.
    The consent decree requires systemic relief, including: 
implementation of a comprehensive plan to prevent and address sexual 
harassment in all district schools; revised and effective sexual 
harassment policies and procedures, including procedures for 
communicating with police, hospital, and child protection agencies; and 
training of administrators, faculty, staff, students, and parents. We 
have been actively monitoring this consent decree to ensure that the 
district fulfills its obligations and provides a safe learning 
environment free of sex discrimination.
c. Nashville, TN
    In 2008, the Department intervened in another privately brought 
title IX case against the Nashville public school district. The parent 
alleged that her 9-year old autistic child was sexually assaulted by 
another student while riding a special education school bus. After 
conducting extensive discovery, the Department determined that the 
student perpetrator had a lengthy and well-documented history of sexual 
misconduct prior to assaulting the young autistic boy, that district 
officials were aware of this history, and that the district did not 
take steps to protect the passengers on the perpetrator's school bus. 
In 2010, the Department of Justice successfully negotiated a consent 
decree with the school district that requires it to take extensive 
steps to enhance the security of students with disabilities on public 
school buses. These steps include: staffing bus monitors to assist 
drivers on all special education buses; implementing comprehensive 
screening procedures to ensure that students with disabilities are not 
assigned to buses where they would be at risk of harassment; expediting 
the investigation of suspected acts of sexual harassment involving 
students with disabilities; and ensuring open lines of communication 
between transportation officials and school-based personnel. The 
district also agreed to pay the family $1.475 million as part of the 
settlement. The Department of Justice continues to monitor compliance 
with the consent decree, including conducting a recent site visit of 
the district.
d. Other Cases
    The Department has addressed sexual assault and sexual harassment 
in other cases. For example, in 2011, the Department of Justice and the 
Department of Education reached a settlement with the Tehachapi, CA 
school district to resolve a complaint of sexual harassment and assault 
of a middle-school boy who committed suicide. Both Departments also 
collaborated with the U.S. Attorney's Office in Minnesota in a title 
IX-title IV investigation involving gender stereotyping and other 
harassment that culminated in a 2012 consent decree with the Anoka-
Hennepin school district in Minnesota.
    The Civil Rights Division and the U.S. Attorney's Office for the 
southern district of New York also successfully intervened in a private 
title IX case against the Rhinebeck, NY school district, and from 2006 
through 2009 jointly monitored the district's implementation of a 
comprehensive consent decree to resolve the hostile environment created 
in the district by a decade of sexual harassment of female students by 
a school principal.
                          v. other activities
    In addition to its investigative and enforcement work, the 
Department of Justice participates in a variety of programs to prevent 
campus sexual assault. The Office on Violence Against Women helps 
colleges and universities improve their response to sexual assault 
through grant funding. The Office of Justice Programs funds law 
enforcement agencies developing innovative methods to respond to and 
prevent sexual harassment and assault. And the Department of Justice 
coordinates with other agencies and participates in the White House 
Task Force on Protecting Students from Sexual Assault.
a. Office on Violence Against Women
    The Department of Justice's Office on Violence Against Women (OVW) 
administers grant programs that provide Federal funds to colleges and 
universities under the Violence Against Women Act. Specifically, the 
Grants to Reduce Sexual Assault, Domestic Violence, Dating Violence, 
and Stalking on Campus Program makes competitive grant awards to 
institutions of higher education, and grantees are required to 
implement evidence-informed prevention programs like bystander 
education. The Campus Program strengthens on-campus victim services, 
advocacy, security, and investigation and improves both prosecution and 
prevention of sexual assaults. Campus Program grantees must: provide 
prevention programs for all incoming students; train campus law 
enforcement or security staff; educate campus judicial or disciplinary 
boards on the unique dynamic of sex-related crimes; and create a 
coordinated community response to enhance victim assistance and safety 
while holding offenders accountable.
    Since the inception of the Campus Program in 1999, OVW has funded 
approximately 388 projects, totaling more than $139 million, for 
grantees addressing domestic violence, dating violence, sexual assault, 
and stalking on campuses. The Office solicits applications from 
institutions of higher education across the country, including 
community colleges, historically black colleges and universities, 
tribal colleges and universities, universities and colleges that serve 
primarily Latino or Hispanic populations, and universities and colleges 
based in the five U.S. territories.
    To reach beyond Campus Program grantees, OVW is working to share 
information with colleges and universities across the country. In the 
coming weeks, OVW will launch the first phase of a comprehensive online 
technical assistance project for campus officials. Key topics will 
include victim services, coordinated community responses, alcohol and 
drug-facilitated sexual assaults, and compliance with the Jeanne Clery 
Disclosure of Campus Security Policy and Crime Statistics Act (Clery 
Act). Webinars and materials will include the latest research, 
promising practices, training opportunities, policy updates, prevention 
programming, and recent publications. The project will feature 
strategies and training materials for campus and local law enforcement.
    OVW also uses Violence Against Women Act grant programs to help 
communities institute sexual assault response teams, support sexual 
assault nurse examiners, train law enforcement on trauma and special 
investigative techniques, and develop special prosecution units. The 
Grants to Encourage Arrest Policies and Enforcement of Protection 
Orders Program is particularly essential to supporting these proven-
effective strategies. In addition, OVW funds cutting-edge technical 
assistance projects with law enforcement associations, including the 
International Association of Chiefs of Police and the Police Executive 
Research Forum. Universities and colleges can collaborate with these 
community resources to improve and ensure the most effective responses 
to sexual assault.
b. Office of Justice Programs
    In fiscal year 2014 the Department of Justice's Office of Justice 
Programs (OJP) Office of Sex Offender Sentencing, Monitoring, 
Apprehending, Registering, and Tracking (SMART Office) is launching the 
Campus Sexual Assault Perpetrator Treatment Pilot Project. The SMART 
Office will award a grant to develop a treatment curriculum for campus 
sexual assault offenders based upon evidence-based approaches with a 
proven track record. The curriculum will be implemented on one or more 
campuses, and made available for implementation at other colleges and 
universities across the country.
c. Coordination with Other Agencies
    Partnering with other Federal agencies to combat sexual assault 
sends a powerful message. For example, the Civil Rights Division 
partnered with the Department of Education's Office for Civil Rights in 
its investigation of allegations of sexual assault and harassment at 
the University of Montana. The Civil Rights Division has also worked 
closely with the Office for Civil Rights on title IX guidance, and 
assists other Federal agencies to promote consistent enforcement of 
title IX.
    The Civil Rights Division is also a member of the White House Task 
Force to Protect Students from Sexual Assault. Created this year by 
President Obama, the Task Force works to increase transparency, 
enforcement, public awareness, and interagency coordination to prevent 
sexual violence and support survivors. The first report of the Task 
Force was released on April 29, 2014, and on the same day, a website to 
assist students and schools and to increase transparency was launched 
at NotAlone.gov. Resources include a sample Sexual Assault Policy 
Checklist and a sample Campus Climate Survey.
                             vi. challenges
    In its enforcement efforts against sexual assault and harassment, 
the Civil Rights Division has encountered numerous challenges, a few of 
which are included here.
    First, it is important to increase reporting of sexual assault and 
ensure that those who report get the help they need. Vague or unclear 
policies that create confusion about where to report and/or the 
misimpression that sexual misconduct needs to be quite severe before 
reporting contribute to underreporting. This problem can be mitigated 
by a single comprehensive policy with clear definitions that encourages 
reporting; wide distribution of available resources; more streamlined 
procedures for handling reports; and training for all students, 
employees, and faculty.
    The Departments of Justice and Education have further found that 
too many schools, colleges, and universities fail to respond to 
complaints properly and effectively, including by failing to conduct 
investigations or failing to support complainants during and after 
investigations. We also have found instances when schools did not 
respond adequately to complaints of retaliation following a report, 
which in turn exacerbates under-reporting. It is critical that when 
students report traumatic experiences of sexual assault, those who 
respond are properly trained to do so. Unfortunately, both Departments 
have found that individuals investigating and adjudicating sexual 
assault complaints and those responsible for coordinating title IX 
compliance across campuses often do not receive adequate training.
    Finally, despite recognizing that sexual harassment is a form of 
discrimination prohibited by title IX, the Supreme Court has 
established legal standards in two cases--Gebser v. Lago Vista Ind. 
School District\8\ and Davis v. Monroe County Board of Education\9\--
that impose significant burdens on students who attempt to recover 
damages under title IX for harassment suffered at the hands of school 
employees or fellow students. Under Gebser and Davis, it is harder for 
students to gain full relief in title IX sexual harassment cases than 
it is for employees to obtain redress for sexual harassment in the 
workplace under Title VII of the Civil Rights Act of 1964.
---------------------------------------------------------------------------
    \8\ Gebser v. Lago Vista Independent School District, 524 U.S. 274 
(1998).
    \9\ Davis v. Monroe County Board of Education, 526 U.S. 629 (1999).
---------------------------------------------------------------------------
                            vii. conclusion
    Education is the great equalizer--it offers a lifeline to young men 
and women for whom a successful future is not predetermined. And for 
all students to have the opportunity to succeed, all students must feel 
safe and have confidence in schools' demonstrated commitment to protect 
them. For that reason, the Department of Justice will continue to 
vigorously enforce our Nation's civil rights laws, including by 
ensuring that sex discrimination does not prevent students from 
achieving their goals and by fostering safe and nurturing environments 
where every student has the opportunity to prosper.
                                 ______
                                 
                                       U.S. Senate,
                                      Washington, DC 20510,
                                                     July 10, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
Dirksen Senate Office Building, Room 428,
Washington, DC 20510.

    Dear Chairman Harkin: I would like to request inclusion of the 
enclosed letter from the American Civil Liberties Union in the record 
for the June 26, 2014 hearing entitled, ``Sexual Assault on Campus: 
Working to Ensure Student Safety.'' I appreciate your consideration of 
this request.
            Sincerely,
                              Robert P. Casey, Jr.,
                                              U.S. Senator.
                                 ______
                                 
             American Civil Liberties Union (ACLU),
                                      Washington, DC 20005,
                                                     June 26, 2014.
Hon. Tom Harkin, Chairman,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Re:  Hearing on Sexual Assault on Campus--Working to Ensure Student 
Safety

    Dear Chairman Harkin and Ranking Member Alexander: For nearly 100 
years, the American Civil Liberties Union (ACLU) has been our Nation's 
guardian of liberty, working in courts, legislatures, and communities 
to defend and preserve the individual rights and liberties that the 
Constitution and the laws of the United States guarantee everyone in 
this country. The ACLU takes up the toughest civil liberties cases and 
issues to defend all people from government abuse and overreach. With 
more than a million members, activists, and supporters, the ACLU is a 
nationwide organization that fights tirelessly in all 50 States, Puerto 
Rico, and Washington, DC, for the principle that every individual's 
rights must be protected equally under the law.
    On behalf of the ACLU, we thank the committee for convening this 
hearing on campus sexual assault and efforts to ensure student safety. 
This is an important and timely discussion, and one in which we are 
pleased to participate. We very much hope the committee will consider 
the recommendation offered below as it grapples with these issues.
the work of the department of education's office for civil rights (ocr) 
              on sexual violence and harassment in schools
    OCR is to be commended for its attention to and impactful 
enforcement of title IX\1\ against schools in cases involving sexual 
violence and harassment. The ACLU's Women's Rights Project has filed 
complaints with OCR using the administrative process, challenging how a 
Texas school district\2\ responded to a high school student who 
reported sexual assault and another involving a student at Carnegie 
Mellon University.\3\ The OCR process is an important avenue for relief 
and has helped bring about comprehensive changes at some schools. We 
urge continued support for OCR's critically important work on these 
issues.
---------------------------------------------------------------------------
    \1\ 20 U.S.C.  1681-88 (2012).
    \2\ See Sandra Park, Title IX Victory: Civil Rights Office Condemns 
School's Actions in Sexual Assault Case, ACLU Blog of Rights (June 20, 
2012, 5:16 PM), https://www.aclu.org/blog/womens-rights/title-ix-
victory-civil-rights-office-condemns-schools-actions-sexual-assault-
case.
    \3\ See Complaint, available at https://www.aclu.org/sites/default/
files/assets/2013_12_
18_-_carnegie_mellon_complaint_-_redacted_and_sanitized.pdf.
---------------------------------------------------------------------------
       dating violence, domestic violence, stalking, and title ix
    In its April 2011 ``Dear Colleague Letter,'' OCR discussed how 
title IX's protections apply to actions such as rape, sexual assault, 
sexual battery, and sexual coercion.\4\ Yet OCR did not address how 
other forms of gender-based violence, such as domestic violence, dating 
violence, and stalking, fall within title IX's reach. In contrast, 
other Federal agencies have recognized that discrimination against 
victims of domestic violence can constitute sex discrimination.\5\ 
Moreover, the Clery Act now requires schools to incorporate domestic 
violence, dating violence,\6\ and stalking into their policies and 
procedures, and thus the need to explain how title IX applies in those 
situations is even more pressing.
---------------------------------------------------------------------------
    \4\ See Letter from Russlynn Ali, Assistant Sec'y for Civil Rights, 
Office for Civil Rights, U.S. Dep't of Educ. to Colleagues, 1-2 (Apr. 
4, 2011), available at http://www2.ed.gov/about/offices/list/ocr/
letters/colleague-201104.pdf.
    \5\ See, e.g., Memorandum from Sara K. Pratt, Deputy Sec'y for 
Enforcement and Programs, Office of Fair Hous. & Equal Opportunity, 
U.S. Dep't of Hous. & Urban Dev. to FHEO Office Directors and FHEO 
Regional Directors: Assessing Claims of Housing Discrimination against 
Victims of Domestic Violence under the Fair Housing Act and the 
Violence Against Women Act (Feb. 9, 2011) (``[S]tatistics show that 
discrimination against victims of domestic violence is almost always 
discrimination against women. . . . domestic violence survivors who are 
denied housing, evicted, or deprived of assistance based on the 
violence in their homes may have a cause of action for sex 
discrimination under the Fair Housing Act.''); Questions and Answers: 
The Application of title VII and the ADA to Applicants or Employees Who 
Experience Domestic Violence, Sexual Assault or Stalking, EEOC, http://
www.eeoc.gov/eeoc/publications/qa_domestic_violence.cfm (last visited 
May 29, 2014) (citations omitted) (``Title VII of the Civil Rights Act 
of 1964 (title VII) prohibits discrimination based on . . . sex . . . 
and the Americans with Disabilities Act (ADA) prohibits discrimination 
on the basis of disability. . . . Title VII and the ADA may apply to 
employment situations involving applicants and employees who experience 
domestic or dating violence, sexual assault, or stalking.'').
    \6\ Violence Against Women Reauthorization Act of 2013, Pub. L. No. 
113-4,  304(a)(1)(B)(iii), 127 Stat. 89 (2013).
---------------------------------------------------------------------------
    Congress should urge OCR to address this oversight as soon as 
possible. OCR should acknowledge that dating violence, domestic 
violence, and stalking are encompassed by title IX and provide guidance 
on the issue so as to ensure that survivors of stalking, domestic 
violence, and dating violence on college campuses have access to the 
protections of title IX to which they are entitled.
   need for greater guidance on the due process rights of the accused
    OCR has made great progress in providing guidance to schools on the 
rights of students who report experiencing sexual harassment and sexual 
violence. In guaranteeing those rights, OCR should also give clear 
guidance on the due process rights and other rights of the accused. OCR 
acknowledged the rights of the accused in its 2001 Guidance by 
referring to confidentiality concerns of the accused, due process 
rights of the accused, and First Amendment issues when ``speech or 
expression are involved.''\7\ Additional guidance issued by OCR has 
briefly mentioned the rights of the accused as well.\8\ However, OCR 
guidance does not describe such rights with the level of detail that 
would inform students and institutions about the rights to which the 
accused is entitled.\9\ Guidance from OCR regarding guaranteeing the 
accused's rights, in a manner that preserves the protections afforded 
to the complainant, would ensure that all parties involved have access 
to justice.
---------------------------------------------------------------------------
    \7\ See U.S. Dep't of Educ., Revised Sexual Harassment Guidance: 
Harassment of Student by School Employees, Other Students, or Third 
Parties 16, 22 (2001), available at http://www2.ed.gov/about/offices/
list/ocr/docs/shguide.pdf.
    \8\ See U.S. Dep't of Educ., Office for Civil Rights, Questions and 
Answers on Title IX and Sexual Violence 13, 26, 43-4 (2014), available 
at http://www2.ed.gov/about/offices/list/ocr/docs/qa-201404-title-
ix.pdf (addressing due process, First Amendment, and other rights of 
the accused); Letter from Assistant Sec'y for Civil Rights, Office for 
Civil Rights, U.S. Dep't of Educ. to Colleagues (July 28, 2003), 
available at http://www2.ed.gov/about/offices/list/ocr/firstamend.html 
(addressing First Amendment rights of the accused); Ali, supra note 4, 
at 12 (addressing due process rights of the accused).
    \9\ For example, the 2001 Guidance refers to due process rights in 
a general sense by stating,

        ``A public school's employees have certain due process rights 
under the U.S. Constitution.
       The Constitution also guarantees due process to students in 
public and State-supported schools who are accused of certain types of 
infractions. The rights established under title IX must be interpreted 
consistent with any federally guaranteed due process rights involved in 
a complaint proceeding. . . . Procedures that ensure the title IX 
rights of the complainant, while at the same time according due process 
to both parties involved, will lead to sound and supportable decisions. 
. . . Schools should be aware of these rights and their legal 
responsibilities to individuals accused of harassment.''

     U.S. Dep't of Educ., supra note 8, at 22.
---------------------------------------------------------------------------
                    need for an increased k-12 focus
    Due to impressive student activism, the issue of campus sexual 
assault has begun to receive the attention it deserves. School 
districts' responses to sexual harassment similarly require increased 
focus, as sexual harassment and assault occur at significant rates in 
the K-12 grades.\10\ Compared to colleges and universities, school 
districts are less likely to have formal policies, procedures, and 
trainings on the proper response to allegations of sexual violence. In 
addition, K-12 students are rarely educated about their rights under 
title IX. All of these problems were evident in an OCR complaint 
brought by the ACLU on behalf of Rachel Bradshaw-Bean, a high school 
student who was accused of ``lewdness'' after she reported being 
sexually assaulted at school and was sent to the same disciplinary 
program as her attacker.\11\ Ultimately, OCR found that the school 
district violated title IX by failing to conduct its own investigation 
and retaliating against Rachel after she made the report.\12\ To avoid 
additional cases like this one, greater awareness about sexual violence 
and increased enforcement of title IX at the K-12 level is vitally 
important.
---------------------------------------------------------------------------
    \10\ A report by the American Association of University Women found 
that nearly half of middle and high school students experienced some 
form of sexual harassment in the 2010-11 school year, that 13 percent 
of girls reported being touched in an unwelcome sexual way, and that 4 
percent of girls reported being forced to do something sexual. 
Catherine Hill And Holly Kearl, American Association Of University 
Women, Crossing The Line: Sexual Harassment At School 2, 12 (2011), 
available at http://www.aauw.org/files/2013/02/Crossing-the-Line-
Sexual-Harassment-at-School.pdf. Another study by researchers at the 
University of Illinois at Urbana-Champaign found that 21 percent of 
middle school students surveyed in 2008 experienced a form of physical 
sexual violence. Sarah Rinehart, Namrata Doshi, & Dorothy Espelage, 
Sexual Harassment And Sexual Violence Experiences Among Middle School 
Youth 4 (2014), available at http://www.aera.net/Portals/38/
Newsroom%20-%20Recent%20
Research/
Sexual%20Harassment%20and%20Sexual%20Violence%20Experiences%20Among%20
Middle%20School%20Youth.pdf.
    \11\ See Abigail Pesta, Kicked out of high school for ``public 
lewdness'' after reporting rape, NBC News (Dec. 23, 2013, 9:41 AM), 
http://www.nbcnews.com/news/other/kicked-out-high-school-public-
lewdness-after-reporting-rape-f2D11794148.
    \12\ See Park, supra note 2.
---------------------------------------------------------------------------
              civil rights obligations of law enforcement
    Much of the discussion about sexual violence in schools has rightly 
focused on the schools' responses and compliance with title IX. It is 
important to recognize, however, that the criminal justice system is 
another key player and is also governed by civil rights laws. In some 
cases, student survivors will report the violence to law enforcement 
authorities only to have their complaints treated with hostility and 
dismissal. Moreover, some survivors will be deterred from filing 
complaints because of this expectation and experience.
    When police officers rely on gender stereotypes and bias in 
addressing sexual violence complaints, they deny victims equal 
protection under the law. The Department of Justice has exercised its 
authority under 42 U.S.C.  14141 and  3789d to reform how police 
departments in New Orleans, Puerto Rico, and Missoula, MT respond to 
complaints of sexual violence,\13\ and in the case of Missoula, 
coordinated its investigation with the Department of Education to also 
examine the University of Montana's practices.\14\ This work highlights 
that any examination of a school's response to sexual violence should 
also include the relevant law enforcement agencies, as all are 
important components to whether a student has equal access both to 
educational opportunity and the justice system.
---------------------------------------------------------------------------
    \13\ See U.S. Dep't of Justice, Civil Rights Div., Investigation of 
the Puerto Rico Police Department (2011), available at http://
www.justice.gov/crt/about/spl/documents/
prpd_letter.pdf; U.S. Dep't of Justice, Civil Rights Div., 
Investigation of the New Orleans Police Department (2011), available at 
http://www.justice.gov/crt/about/spl/nopd_report.pdf; U.S. Dep't of 
Justice, Civil Rights Div., Investigation of the Missoula Police Dep't 
(2013), available at http://www.justice.gov/crt/about/spl/documents/
missoulapdfind_5-15-13.pdf; U.S. Dep't of Justice, Civil Rights Div., 
Investigation of the Univ. of Montana's Office of Public Safety (2013), 
available at http://www.justice.gov/crt/about/spl/documents/
missoulafind_5-9-13.pdf.
    \14\ U.S. Dep't of Justice, et al., Investigation of the Univ. of 
Montana (2013), available at http://www.justice.gov/opa/documents/um-
ltr-findings.pdf.
---------------------------------------------------------------------------
         doj guidance would improve law enforcement engagement
    DOJ's work in this area would be amplified by issuing guidance that 
addresses the civil rights obligations of law enforcement agencies, 
including those responding to sexual assault on campus and at schools. 
Such guidance would address how sexual violence investigations should 
be conducted, supervision and oversight, classifying and tracking of 
complaints, and the training provided to officers. The guidance should 
also tackle issues that commonly arise when sexual violence occurs at 
school. For example, it should be clear that law enforcement should not 
dissuade victims from pursuing criminal justice charges by encouraging 
them to file complaints through school grievance or disciplinary 
procedures. Additionally, law enforcement should be aware that schools 
have independent legal obligations to respond to sexual assault and 
harassment, and thus schools are not bound by the findings of any 
criminal justice investigation. We urge members of the committee to 
encourage DOJ to continue its work on these critical issues.
            need for explicit protections for lgbt students
    We know that students who are, or perceived to be, lesbian, gay, 
bisexual, or transgender (LGBT), are especially vulnerable to 
discrimination, harassment, and violence, including sexual violence, in 
our Nation's schools. A nationwide 2011 survey of more than 8,500 
students between the ages of 13-20 found that 8 out of 10 LGBT students 
reported experiencing harassment at their school within the past year 
based on their sexual orientation.\15\ Six in ten LGBT students 
reported feeling unsafe at school because of their sexual 
orientation.\16\ Transgender students experienced more hostile climates 
than their non-transgender peers, with 8 in 10 reporting feeling unsafe 
at school because of their gender expression.\17\ The effect of a 
hostile school climate on LGBT students has a direct and negative 
impact on the student's education. Nearly a third of LGBT students 
reported skipping at least once, and 3 in 10 reported missing at least 
one entire day of school in the past month because of safety 
concerns.\18\
---------------------------------------------------------------------------
    \15\ Joseph G. Kosciw, et al., Gay, Lesbian & Straight Education 
Network, The 2011 National School Climate Survey: The Experiences of 
Lesbian, Gay, Bisexual, and Transgender Youth in Our Nation's Schools 
23 (2012), available at http://glsen.org/nscs.
    \16\ Id. at 20.
    \176\ Id. at 89.
    \18\ Id. at 21.
---------------------------------------------------------------------------
    Despite these sobering statistics and the clear need for action, 
there is no Federal law that explicitly protects LGBT students from 
discrimination. There is legislation modeled on title IX currently 
pending in the Senate, the Student Non-Discrimination Act (S. 1088), 
which would establish a comprehensive, explicit prohibition against 
discrimination and harassment in all public elementary and secondary 
schools across the country based on a student's actual or perceived 
sexual orientation or gender identity. Congress should make passage of 
this civil rights measure a priority.
    In the absence of a law like the Student Non-Discrimination Act, 
guidance like the recent Q&A on title IX and sexual violence from OCR 
within the Department of Education is even more important. OCR made 
clear in that guidance that a school's obligation to respond 
appropriately to sexual violence complaints is the same irrespective of 
the sex or sexes of the parties involved, and that title IX's sex 
discrimination prohibition extends to claims of discrimination based on 
gender identity or a failure to conform to stereotypical notions of 
masculinity or femininity.\19\ The guidance further stated that schools 
should investigate and resolve allegations of sexual violence regarding 
LGBT students using the same procedures and standards that it uses in 
all complaints involving sexual violence.\20\ This clarity from OCR on 
the scope of the protections of title IX is very important to LGBT 
students; however, it should not be read as an excuse for inaction on 
the part of Congress. The need for an explicit sexual orientation and 
gender identity non-discrimination prohibition in Federal law remains 
as vital as ever. This gap in our civil rights laws has left LGBT 
students uniquely vulnerable to discrimination, harassment, and 
violence for far too long.
---------------------------------------------------------------------------
    \19\ Office of Civil Rights, U.S. Dep't of Educ., Questions and 
Answers on Title IX and Sexual Violence 5 (2014), available at http://
www2.ed.gov/about/offices/list/ocr/docs/qa-201404-title-ix.pdf.
    \20\ Id. at 5-6.
---------------------------------------------------------------------------
    Fifty years of civil rights history demonstrate that laws similar 
to the Student Non-Discrimination Act are effective in preventing 
discrimination and harassment from occurring in the first place by 
prompting schools to take proactive steps to ensure a safe and 
supportive learning environment for all students who are in their care.
    Thank you for the opportunity to offer our views. Please do not 
hesitate to call Vania Leveille at (202) 715-0806 should you have any 
questions or need additional information.
            Sincerely,
                                           Laura W. Murphy,
                           Director, Washington Legislative Office.
                                            Vania Leveille,
                                        Senior Legislative Counsel.

                                           Ian S. Thompson,
                                        Legislative Representative.

                                            Sandra J. Park,
                      Senior Staff Attorney, Women's Right Project.

                                 ______
                                 
   Responses by Catherine Lhamon to Questions of Senator Alexander, 
                  Senator Whitehouse and Senator Kirk
                           senator alexander
    On May 1, 2014, the Office for Civil Rights (OCR) released a list 
of 55 higher education institutions under investigation for possible 
title IX violations related to sexual violence. As explained in OCR's 
press release, the list includes investigations opened due to 
complaints received and due to compliance reviews. However, the list 
does not differentiate which schools fall under each respective 
category. Why doesn't the list indicate whether an institution is under 
investigation because of a complaint or because of a compliance review?
    Question 1a. Did OCR consider providing that additional context? If 
not, why not?
    Answer 1a. In order to best protect complainants and survivors, OCR 
decided not to indicate if the investigation was a result of a 
complaint or a compliance review. Consider that if the campus community 
knew that a particular investigation was triggered by a person (or set 
of persons), the public might seek to identify that person or persons 
through contextual clues (regarding timing of the complaint, for 
example) that could contribute to unwarranted invasions of personal 
privacy.

    Question 1b. Does OCR plan to update the list to indicate when 
investigations are closed and how they are resolved? If not, why not?
    Answer 1b. As you noted, the list only addresses institutions under 
investigation. When an investigation is closed for any reason, the 
institution is removed from the list, and both the institution and the 
complainant are notified of the closure and/or resolution. Due to 
staffing limitations, OCR does not intend to report in list form how 
each case removed from the list was resolved. However, OCR provides 
that information upon request.

    Question 2a. When a complaint against an institution of higher 
education is filed with OCR and OCR initiates an investigation, how 
does OCR ensure the institution has fair notice of the allegations 
against it?
    Answer 2a. Immediately after OCR determines that it will 
investigate a complaint and opens the complaint for investigation, it 
sends a notification letter to the institution that contains the 
following information:

    <bullet> OCR's legal authority to investigate the complaint;
    <bullet> The complaint allegations that OCR will investigate; and
    <bullet> Contact information for the OCR staff person who will 
serve as the primary contact during the investigation and resolution of 
the complaint.

    Question 2b. Please describe the process and procedures used by OCR 
to respond to a title IX complaint involving sexual violence, including 
all steps from the initial receipt of the complaint to the options for 
final resolution.
    Answer 2b. OCR's mission is to ensure equal access to education and 
to promote educational excellence throughout the Nation through 
vigorous enforcement of civil rights. OCR's Case Processing Manual 
(CPM) details the specific procedures used by OCR to promptly and 
effectively investigate complaints and compliance reviews, issue 
findings, and secure resolution agreements that remedy discriminatory 
policies or practices. You can find the CPM on our public website here: 
http://www2.ed
.gov/about/offices/list/ocr/docs/ocrcpm.html.

    Question 3a. How is OCR staff trained to investigate title IX 
complaints, specifically related to sexual violence? How often must OCR 
staff complete this training?
    Answer 3a. OCR conducts ongoing mandatory and supplemental 
trainings that cover substantive legal and procedural areas, including 
sexual violence, for new and current investigative staff, which handle 
enforcement actions, in OCR's 12 regional offices. In addition, OCR 
headquarters coordinates training for all staff on sexual violence and 
other policy issues when new regulations, policy, or guidance are 
issued or when it is determined that there is a need for such training. 
Investigative staff also hold regular national discussions among each 
other about how best to investigate and resolve sexual violence cases.

    Question 3b. Please provide any training materials used.
    Answer 3b. Training materials vary based on the subject matter. The 
CPM described in the second question is an example of materials that 
have been used to train OCR staff on sexual violence investigations.

    Question 4. How does OCR ensure the process for conducting 
investigations of alleged title IX violations related to sexual 
violence is fair and consistent across the national and regional 
offices?
    Answer 4. OCR's CPM guides all investigations, including those 
involving sexual violence. The CPM outlines the procedures to promptly 
and effectively investigate cases, issue findings, and secure 
resolution agreements that remedy discriminatory policies or practices 
identified by OCR. OCR issues policy guidance and provides training to 
staff on its implementation to ensure fair and consistent practices. In 
addition, OCR management participates in critical decisions 
commensurate with the complexity of the case, to ensure consistently 
high-quality casework and to ensure proper procedures have been 
followed. Also, sexual violence cases require headquarters enforcement 
staff approval before issuance of any determinations.
    If OCR determines that it is appropriate to enter into an agreement 
with an institution to voluntarily resolve a sexual violence case, the 
factual and legal justification for the resolution as well as the 
agreement must be approved by the chief attorney and the director of 
the regional office that investigated the case. The regional office 
director then forwards this documentation to headquarters enforcement 
staff who have final approval authority before issuance of any 
determinations as a second step to ensure fair and consistent 
enforcement. This is the same process that is followed for all 
compliance reviews and sensitive cases.

    Question 5a. Have you observed challenges that institutions of 
higher education encounter when trying to comply with the Clery Act and 
title IX? If so, please describe those challenges.
    Answer 5a. Some institutions have communicated confusion with 
obligations under different Federal laws such as title IX, the Clery 
Act, and the Family Educational Rights and Privacy Act (FERPA). OCR is 
committed to helping schools to comply with title IX and other laws 
enforced by the Department. To this end, in April 2014, OCR issued 
detailed guidance on schools' title IX obligations, including with 
respect to its intersection with other laws such as FERPA and the Clery 
Act. The guidance notes that Section 304 of the Violence Against Women 
Reauthorization Act (VAWA) amended the Clery Act, but does not alter a 
school's obligations under title IX or OCR's title IX guidance. The 
guidance also explains the information that a recipient must disclose 
to a complainant in the notice of the outcome of a title IX complaint, 
and how that requirement intersects with the Clery Act and FERPA. The 
Department also created a chart, posted on the notalone.gov website, 
outlining a school's reporting obligations under title IX and the Clery 
Act, and how each intersects with FERPA. The chart shows that although 
the requirements of title IX and the Clery Act may differ in some ways, 
they do not conflict. (See http://www2.ed.gov/policy/highered/reg/
hearulemaking/2012/vawa-reviewoftitle9.pdf.)

    Question 5b. What actions has OCR taken to address these 
challenges?
    Answer 5b. We will continue to update ed.gov and notalone.gov with 
additional resources. In the interim, OCR's 12 regional offices are 
available to answer questions and provide training presentations for 
colleges, schools, and others. In fiscal year 2013, for example, our 
regional offices conducted more than 300 technical assistance 
activities (not limited to sexual violence issues or higher education).

    Title IX and the Clery Act have overlapping, but different 
disciplinary standards that an institution of higher education must 
follow to address allegations of sexual assault. Under title IX, an 
institution's grievance procedure must provide a ``prompt and equitable 
resolution,'' and the investigation must be ``adequate, reliable, 
impartial, and prompt.'' Under the Clery Act, an institution's 
disciplinary procedure must provide a ``prompt, fair, and impartial 
investigation and resolution.'' Have you discussed with the Clery Act 
Compliance Division the fact that these standards, at least on their 
face, are different?
    Question 6. In your view are they, in effect, the same or 
different?
    Answer 6. The Clery Act and title IX serve distinct, but related, 
functions in combating sexual violence. The Department's office of 
Federal Student Aid (FSA) is responsible for Clery Act compliance, 
whereas the Department's Office for Civil Rights (OCR) enforces title 
IX. The Clery Act requires institutions of higher education to provide 
current and prospective students and employees, the public, and the 
Department with crime statistics and information about campus crime 
prevention programs and policies. Title IX prohibits discrimination 
based on sex in education programs and activities that receive Federal 
financial assistance. Clery Act requirements apply to many crimes that 
are not enforceable under title IX, and title IX applies to many forms 
of sex discrimination that do not constitute reportable crimes under 
the Clery Act. For those areas in which the Clery Act and title IX both 
apply, the institution must comply with both laws.
    As the Department stated in its Notice of Proposed Rulemaking for 
the changes made to the Clery Act by VAWA, the Clery Act and its 
implementing regulations in no way alter or conflict with the title IX 
requirements. For example, in order to meet Clery Act requirements an 
institution must state in its annual security report what standard of 
evidence it uses in its disciplinary proceedings regarding sexual 
assault, dating violence, domestic violence, and stalking. This Clery 
Act requirement does not conflict with the title IX obligation to use 
the preponderance of the evidence standard in title IX proceedings. An 
institution can comply with title IX and the Clery Act by using a 
preponderance of the evidence standard in proceedings regarding title 
IX complaints and disclosing this in its annual security report.
    OCR worked closely with the Department's Office of Postsecondary 
Education and FSA, including the Clery Act Compliance Division, 
throughout the VAWA rulemaking process to minimize the burden placed on 
institutions and to better align how schools respond to Clery Act and 
title IX requirements. And OCR continues to work closely with FSA on 
sexual violence issues. To clarify roles and increase efficiency, FSA 
and OCR have formalized an agreement to ensure effective handling of 
complaints and to facilitate information sharing.

    Question 7. After OCR has completed a compliance review or reached 
a voluntary resolution agreement with an institution of higher 
education, does OCR affirmatively inform the institution that its 
policies are title IX compliant? If so, which institutions have 
received such notification?
    Answer 7. Yes. When an institution enters into a voluntary 
resolution agreement with OCR as a result of a complaint or a 
compliance review, OCR monitors the implementation of the agreement and 
requires the institution to submit followup information. OCR concludes 
the monitoring of a case when it determines that the institution has 
effectively implemented the terms of the resolution agreement, 
including any subsequent modifications to the agreement, and is in 
compliance with title IX. When OCR determines that an institution has 
fully implemented the terms of a settlement agreement,
    OCR notifies the institution in writing of this decision and closes 
the case. OCR issues this notification in all cases where institutions 
are compliant.
                           senator whitehouse
    Question 1. Department of Education regulations require an 
institution of higher education to act on a report of sexual violence 
within 60 days of learning of it. I have heard from Rhode Island 
schools that if the local police are involved, they often do not want a 
school conducting a parallel investigation because they prefer to keep 
certain facts confidential for a period of time. Would the Department 
consider some flexibility around this 60-day requirement in the case of 
episodes where law enforcement becomes involved?
    Answer 1. The title IX regulations do not require a school to 
complete investigations within 60 days; rather they require a school to 
resolve sexual violence complaints promptly and equitably. The 
Department's Office for Civil Rights' (OCR) 2011 Dear Colleague letter 
(DCL) on sexual violence noted that, based on OCR's experience, a 
typical investigation takes approximately 60 days.
    Regardless of whether there is a parallel criminal investigation, 
title IX requires a school to take steps to ensure equal access to its 
education program and activities and protect the complainant as 
necessary, including taking interim measures before the final outcome 
of an investigation.
    OCR stated in the 2011 DCL, and in a subsequent 2014 Questions and 
Answers document on title IX and sexual violence (2014 Q&A), that OCR 
evaluates on a case-by-case basis whether the resolution of sexual 
violence complaints is prompt and equitable. Whether OCR considers an 
investigation to be prompt as required by title IX will vary depending 
on the complexity of the investigation and the severity and extent of 
the alleged conduct. The 2014 Q&A specifically notes that OCR 
recognizes that the investigation process may take longer if there is a 
parallel criminal investigation.

    Question 2. The guidance provided by the White House Task force 
entitled ``Sample Language for Reporting and Confidentiality Disclosing 
Sexual Violence'' states that ``[a] responsible employee should not 
share information with law enforcement without the victim's consent or 
unless the victim has also reported the incident to law enforcement.'' 
Are there, or should there be, any exceptions to this?
    Answer 2. Due to the nature of sexual assault, we recognize that it 
is imperative that colleges work together with local law enforcement to 
address this issue. OCR's 2014 Q&A stresses that school employees 
should inform sexual-violence survivors of their right to file a title 
IX complaint with the school and/or a separate complaint with campus or 
local law enforcement. The 2014 Q&A also notes that title IX does not 
require a school to report alleged incidents of sexual assault to 
campus and local law enforcement, but a school may have reporting 
obligations under State, local, or other Federal laws. While title IX 
does not require the school to report such information to law 
enforcement, there may be situations in which school employees tasked 
with coordinating title IX compliance may share information about 
reported sexual assaults with campus law enforcement. For example, the 
school may share information with the survivor's consent, or may share 
aggregate data, without personally identifiable information, that may 
inform campus policing practices. It is important to keep in mind that 
reporting incidents of sexual assault to law enforcement when the 
survivor does not wish to initiate a criminal investigation can be 
detrimental to the needs of survivors and can discourage them from 
speaking to any campus employee in the first place.
    There may be rare circumstances in which employees should share 
information with local law enforcement even without the survivor's 
consent. For example, some State laws impose mandatory reporting 
requirements with respect to certain crimes, and OCR does not interpret 
title IX to generally prohibit compliance with such State law 
obligations. Also, FERPA protects the privacy of student education 
records, which normally include a student's disciplinary records. 
However, FERPA permits schools to disclose, without consent, personally 
identifiable information from a student's education records to 
appropriate parties in connection with an emergency, if knowledge of 
that information is necessary to protect the health or safety of the 
student or other individuals.

    Question 3. How do victim advocates on campus, who are not licensed 
counselors, maintain confidentiality regarding a sexual assault? A 
university could be liable under their State negligence law if the 
victim advocate, who is not a licensed counselor, keeps the information 
about the sexual assault confidential and then the suspect sexually 
assaults another student. In most States, victim advocates are not 
required by law to keep the information confidential (like a licensed 
counselor is), so there are no protections under the law if their 
failure to tell someone about the crime results in subsequent crimes. 
How should a college/university manage this?
    Answer 3. OCR's 2014 Q&A makes clear that responsible school 
employees generally must report to school officials when they find out 
about sexual violence against students so the school can respond 
appropriately in compliance with title IX requirements. But OCR wants 
students to feel free to seek assistance from victim advocates and 
therefore interprets title IX to give schools latitude to employ these 
individuals as confidential resources who are not required to report 
sexual violence in a way that identifies the students without the 
student's consent. Although title IX does not require that these 
individuals be designated as confidential resources, the 2014 Q&A notes 
that OCR strongly encourages schools to do so because these individuals 
are valuable sources of support for students. Ultimately, the decision 
regarding whether to designate these individuals as confidential 
resources is up to each school. Each school must determine how its 
policy on confidentiality fits with other school policies and how it 
complies with the requirements of other applicable Federal, State, and 
local laws. For example, employees have legal obligations under FERPA 
and State mandatory reporting laws.
    The 2014 Q&A also makes clear, however, that victim advocates 
should be instructed to inform students of their right to file a title 
IX complaint with the school and a complaint with campus or local law 
enforcement and should assist students in filing such complaints. And 
OCR encourages schools to collect aggregate data about sexual violence 
incidents from victim advocates in order to identify patterns or 
systemic problems related to sexual violence. Schools can then respond 
by taking actions such as reviewing their sexual violence policies, 
creating campus-wide educational programs, increasing security at 
locations where sexual violence has occurred, and conducting climate 
surveys to learn more about the prevalence of sexual violence at the 
school.

    Question 4. Are there any colleges or universities that have 
established what you view as model relationships with local law 
enforcement? If so, what makes these relationships productive and 
helpful when it comes to responding to campus sexual assault?
    Answer 4. Several colleges and universities reported having 
positive relationships with local law enforcement, which OCR believes 
is a best practice. In fact, OCR's 2011 DCL on sexual violence and 2014 
Q&A specifically discussed the need for colleges to coordinate with 
local law enforcement on this issue, specifically through an MOU, to 
enhance coordination and improve communication. The 2014 Q&A provides 
recommendations for what may be covered by an MOU.
    During a recent visit to California State Polytechnic University, 
Pomona, university officials reported that they believe the 
university's close working relationship with local law enforcement 
enables the university and the local law enforcement to provide 
coordinated services to survivors of sexual assault. For example, 
university victim advocates may accompany survivors to local police 
stations to provide support. Additionally, the university may arrange 
for interviews with survivors and local police on campus.
    The University of California, Los Angeles has a close working 
relationship with local law enforcement. The university's police 
department, for example, will transport survivors of sexual assault to 
the Santa Monica-UCLA Rape Treatment Center for treatment.
    The Department of Justice's Office on Violence Against Women has 
received reports of a number of other strong relationships between 
colleges and universities and local law enforcement through their 
Grants to Reduce Sexual Assault, Domestic Violence, Dating Violence, 
and Stalking on Campus program including:

    <bullet> At Norfolk State University (NSU) in Virginia, the NSU 
Police Department and the city of Norfolk Police have a close working 
relationship to investigate, prosecute, and prevent sexual harassment. 
Together, they have implemented NSU's Campus Program to Reduce Violence 
Against Women, under which the Office of the Norfolk Commonwealth's 
Attorney and the city of Norfolk Police provide staff to assist NSU in 
the delivery of victims' assistance and training to effectively handle 
sexual assault cases.
    <bullet> The University of California, Irvine (UC Irvine) works 
closely with both the UC Irvine Police Department and the Irvine Police 
Department. The campus police meet weekly with UC Irvine's Campus 
Assault Response Team to review reported cases and to coordinate campus 
response. The campus police also provide extensive training on sexual 
assault; all officers are required to participate in an 8-hour training 
on sexual assault, and conduct ongoing briefs on issues such as 
stalking, dating, and domestic violence. The campus police also partner 
with local law enforcement agencies to provide victim counseling, 
facilitate communication with a local District Attorney's office, 
provide access to forensic nurses in a single location, and provide 
resources to obtain emergency protective orders or temporary 
restraining orders.
    <bullet> The University of Iowa (UI) Police work actively with the 
UI Coordinated Community Response Team (CCRT) to investigate sexual 
harassment cases and to promote prevention. The UI Crime Prevention 
Officer serves on CCRT's Education subcommittee, which is developing a 
survey for education providers aimed at identifying gaps in complying 
with Federal guidance.
    <bullet> The University of Northern Iowa (UNI) fosters a strong 
relationship between the campus and local law enforcement. UNI Center 
for Violence Prevention has collaborated with campus police to assess 
and resolve the occurrence of campus sexual violence. The director of 
public safety helped revise UNI's sexual misconduct policies and serves 
as a liaison between the Center for Violence Prevention and the 
University President's cabinet. The director of public safety also 
helps plan Victim Services Institutes, a program hosted by the Center 
for Violence Prevention designated to train campus and community 
personnel who are points of first contact or service providers for 
campus victims.
                              senator kirk
    Question 1. This question is for Catherine Lhamon, Assistant 
Secretary for Civil Rights, U.S. Department of Education: Some schools 
have expressed concerns that the notice requirement from the 2011 title 
IX Guidance conflicts with the Family Educational Rights and Privacy 
Act (FERPA), which gives broad discretion to schools to disclose 
student records in the case of violent and non-forcible sex offenses. 
How can Congress address this barrier when responding to sexual assault 
claims? How often do schools disclose this information? Are there any 
repercussions for schools that do not adequately disclose this 
information? How has the Department addressed the incongruence in law?
    Answer 1. Title IX requirements do not conflict with FERPA. The 
requirements related to notice of the outcome that are discussed in the 
Department's Office for Civil Rights' (OCR) 2011 Dear Colleague letter 
and 2014 Questions and Answers document are consistent with a school's 
obligations under FERPA.
    Title IX requires both parties to be notified, in writing, about 
the outcome of both the complaint and any appeal in cases involving 
sexual harassment or sexual violence. For title IX purposes, a school 
must inform the complainant as to whether or not it found the alleged 
conduct occurred, any individual remedies offered or provided to the 
complainant or any sanctions imposed on the perpetrator that directly 
relate to the complainant, and other steps the school has taken to 
eliminate the hostile environment and prevent recurrence.
    If schools are not complying with the requirements related to 
notice of the outcome under title IX, they risk being found in 
violation of the law.
    FERPA permits any school to disclose to the complainant information 
about the sanction imposed upon a student who was found to have engaged 
in harassment when the sanction directly relates to the complainant. 
FERPA also permits postsecondary institutions to inform the complainant 
of the institution's final determination and any disciplinary sanctions 
imposed on the perpetrator in cases of sexual violence (as opposed to 
all sexual harassment or misconduct covered by title IX), not just 
those sanctions that directly relate to the complainant.

    Question 2. According to ``Not Alone,'' the White House Report on 
Sexual Assault, the Department of Education offices responsible for 
title IX and Clery Act enforcement have entered into an agreement to 
clarify their respective roles. What specifically does the agreement 
address? Will you disclose to Congress the contents of this agreement?
    Answer 2. Specifically, the Department's office of Federal Student 
Aid (FSA), Clery Act Compliance Division, and OCR commit to work 
together to increase awareness in the public and within the Department 
of their potentially overlapping jurisdictions. The offices commit to 
improve efficiency and reduce the burden on complainants, including by 
reviewing materials provided to the public (e.g., complaints), to 
determine ways each office can improve that information and better 
assist complainants. The offices also commit to share non-confidential 
information with each other about complaints, investigations, and 
expected resolutions or determinations. For example, FSA will notify 
OCR when opening a review involving the portions of the Clery Act that 
may overlap with title IX.
    Since the Clery Act and title IX serve distinct, but related, 
functions in combating sexual violence we believe that this 
coordination is important. FSA, through the Clery Division, is 
responsible for Clery Act compliance, whereas OCR enforces title IX. 
The Clery Act requires institutions of higher education to provide 
current and prospective students and employees, the public, and the 
Department with crime statistics and information about campus crime 
prevention programs and policies. The Clery Act requirements apply to 
many crimes other than those addressed by title IX. For those areas in 
which the Clery Act and title IX both apply, the institution must 
comply with both laws. As you mentioned, our formalized agreement will 
help clarify roles and increase efficiency, to improve effective 
handling of complaints and to facilitate information sharing.
   Response by James L. Moore III to Questions of Senator Alexander 
                            and Senator Kirk
                           senator alexander
    Question 1. Have you observed challenges that institutions of 
higher education encounter when trying to comply with the Clery Act and 
title IX? If so, please describe those challenges.
    What actions has the Clery Act Compliance Division taken to address 
these challenges?
    Answer 1. The Department, through the Federal Student Aid office's 
(FSA) Clery Act Compliance Division (Clery Division), has heard from 
some institution officials that they may face barriers to implementing 
the Clery Act's requirements due to organizational resistance, and 
allegiance to long-standing practices and customs. For example, some 
institutions report issues with relocating their campus public safety 
departments within their organizations. While many institutions now 
have professionalized police forces on campus, some house their campus 
security staff members under their Facilities or Business Management 
divisions, which have little or no professional security experience.
    The Clery Division is committed to providing institutions with the 
guidance and technical assistance needed to effectively deal with the 
types of challenges discussed above, and to ensure their compliance 
with the Clery Act. While the Department does not have the authority to 
dictate institutional decisions regarding organizational structure, we 
have recommended that institutions appoint a Clery Act Compliance 
Officer or Team empowered with the requisite access and authority to 
establish policies, practices, and systems to facilitate compliance and 
greater campus safety. Appointing a Clery Act Compliance Officer or 
Team can improve an institution's ability to effectively manage its 
statutory obligation to collect Clery reportable data.
    The Department also maintains a Clery Act helpdesk to provide 
information and technical assistance to institutions by telephone and 
e-mail to help institutions address challenges as they arise. In 
addition, the Department provides direct technical support to 
institutional officials and complainants, in-person training at the FSA 
training conference, and is developing online training. And the 
Department will publish an updated version of the Handbook for Campus 
Safety and Security Reporting (Handbook) in 2015 to better inform 
institutional officials about the Clery Act requirements.

    Question 2a. Under the Violence Against Women Act amendments to the 
Clery Act, an institution is required to, among other things, educate 
its students and employees about the definition of dating violence in 
the local jurisdiction. Since not all jurisdictions specifically define 
dating violence how does the Clery Act Compliance Division plan to 
evaluate whether an institution is in compliance with the Clery Act?
    Answer 2a. The Department published regulations to implement the 
changes made to the Clery Act by the Violence Against Women 
Reauthorization Act of 2013 (VAWA) on October 20, 2014.
    The Clery Act specifies that the term ``dating violence'' is to be 
defined in accordance with section 40002(a) of the Violence Against 
Women Act of 1994. While incidents that might be considered ``dating 
violence'' may not be considered crimes in all jurisdictions, under our 
proposed regulations the Department would treat such incidents as 
``crimes'' for the purposes of the Clery Act. We believe that this 
approach would make it clear that all incidents that meet the 
definition of dating violence in Federal law must be recorded in an 
institution's crime statistics, whether or not they are crimes in the 
institution's jurisdiction.
    During our investigations, the Department's Clery Division examines 
an institution's training materials, conducts interviews, and reviews 
case documents to evaluate the extent to which an institution is 
educating students and employees about applicable laws and the extent 
to which an institution is setting a standard and communicating its 
expectations for acceptable conduct of campus community members. 
Information about the Department's expectations and recognized best 
practices will also be included in the next edition of the Handbook.

    Question 2b. Similarly, how will the Clery Act Compliance Division 
evaluate compliance with the requirement to educate students and 
employees on the meaning of ``consent'' when it is not defined in the 
local jurisdiction?
    Answer 2b. During the negotiated rulemaking process to develop the 
proposed rules to implement the changes made to the Clery Act by VAWA, 
the negotiating committee considered including a definition of 
``consent'' for purposes of the Clery Act. A definition of consent 
would provide clarity for institutions, students, and employees for 
when a reported sex offense would need to be included in the 
institution's Clery Act statistics. However, some negotiators argued 
that a definition of consent would create ambiguity in jurisdictions 
which either do not define consent or have a definition that differed 
from the one that would be in the regulations. The Department and the 
negotiated rulemaking committee eventually decided against including 
the definition of consent in the proposed regulation as we were not 
convinced that it would be helpful to institutions in complying with 
the Clery Act.
    For purposes of Clery Act reporting, all sex offenses that are 
reported to a campus security authority must be recorded in an 
institution's Clery Act statistics and, if reported to the campus 
police, must be included in the crime log, regardless of the issue of 
consent.

    Question 3. Title IX and the Clery Act have overlapping, but 
different disciplinary standards that an institution of higher 
education must follow to address allegations of sexual assault. Under 
title IX, an institution's grievance procedure must provide a ``prompt 
and equitable resolution,'' and the investigation must be ``adequate, 
reliable, impartial, and prompt.'' Under the Clery Act, an 
institution's disciplinary procedure must provide a ``prompt, fair, and 
impartial investigation and resolution.'' Have you discussed with the 
Office for Civil Rights the fact that these standards, at least on 
their face, are different?
    In your view are they, in effect, the same or different?
    Answer 3. The procedures an institution must use to address 
allegations of sexual assault under the Clery Act and title IX are 
substantially the same. Although they are related, title IX and the 
Clery Act are separate statutes and their requirements do not conflict 
with each other. The Clery Division is in close communication with the 
Department's Office for Civil Rights (OCR) on matters related to 
compliance by institutions with requirements for the adjudication and 
reporting of sexual assault. In fact, OCR was one of our most important 
and active partners during the recent rulemaking process.

    Question 4a. In the notice of proposed rulemaking to implement the 
Violence Against Women Act amendments to the Clery Act, the Department 
of Education states it is clarifying that an institution is not 
supposed to remove a reported crime from its crime statistics based on 
a decision by a court, jury, or prosecutor. Is that the position of the 
Department?
    Answer 4a. The Department has consistently advised, through the 
Clery Handbook and other sub-regulatory guidance, that institutions 
should include all reported crimes in the Clery Act statistics, except 
in the rare case that a crime report is ``unfounded.'' The Clery Act 
statistics are not based on the identity of the perpetrator. A verdict 
that a particular defendant is not guilty of a particular charge does 
not mean that the crime did not occur. If, after fully investigating a 
reported crime, law enforcement authorities make a formal determination 
that the report was false or baseless when made, and the crime report 
was therefore determined to be ``unfounded'' by sworn or commissioned 
law enforcement personnel, the institution may exclude from its 
upcoming annual security report, or remove from its previously reported 
statistics, the reported crime. The recently published regulations 
formally address how these situations are to be handled.

    Question 4b. If someone is found not guilty in a court proceeding, 
would that reported crime still be included in Clery Act crime 
statistics? If so, how does that promote accurate crime reporting?
    Answer 4b. The Clery Act requires that institutions report the 
number of ``reported crimes.'' A verdict that a particular defendant is 
not guilty of a particular charge does not mean that the crime did not 
occur. Therefore, as discussed above, all reports of crimes must be 
included in the statistics, except in the rare case that a crime report 
is ``unfounded.''

    Question 5a. How is the Clery Act Compliance Division staff trained 
to investigate Clery Act complaints? How often must Clery Act 
Compliance Division staff complete this training?
    Answer 5a. FSA takes the need for continuous training and 
improvement seriously, and encourages every employee to pursue training 
opportunities to improve their performance. All Clery Division staff 
members receive ongoing training throughout the year. This training is 
provided during team meetings as well as through fieldwork, scenario-
based training exercises, individual self-paced study, formal staff 
training events, and external training provided by experts in the 
field.
    For example, our office conducted a week-long training event in 
April and May 2014 which included an in-depth instruction on crime 
classification, proper application of the ``Clery Geography'' 
definitions, and the role of campus security authorities, among many 
other topics. We also heard from guest speakers from OCR and the Clery 
Center for Security On Campus, Inc. One of our staff members focused on 
physical security matters attended a training event on the National 
Threat Assessment Center presented by the U.S. Secret Service. Selected 
staff also recently attended training on the Safe School Initiative, 
Safety and Security Considerations for High-Rise Buildings, and 
Situational Awareness in Active Shooter Incidents. Later this year, 
several members of the Clery Division team will be taking sexual 
assault investigator training and others will attend an advanced course 
in interview and interrogation techniques.

    Question 5b. Please provide any training materials used.
    Answer 5b. Though training on policy updates varies based on the 
changes being made, all internal training is based on the Handbook, 
which is currently being revised to reflect the changes to the statute 
and recent regulatory changes. We will furnish the revised copy to your 
office once finalized.

    Question 6. How does the Clery Act Compliance Division staff ensure 
the process for conducting investigations of alleged Clery Act 
violations related to sexual assault is fair and consistent across the 
national and regional offices?
    Answer 6. The Clery Division works closely with FSA's regional 
compliance teams to ensure that Clery Act and Drug-Free Schools and 
Communities Act enforcement is conducted in a fair and consistent 
manner for all potential violations, including those related to sexual 
assault. The Clery Division has developed procedures and tools for 
these teams, and we also provide ongoing training focused primarily on 
the publication and distribution of Annual Security Reports and the 
development and implementation of proper drug and alcohol abuse 
prevention programs. Finally, the Clery Division reviews and approves 
every finding of noncompliance for accuracy and completeness as a 
further check on consistency. We also work with a dedicated paralegal 
specialist and program attorney to ensure proper checks and balances. 
Since the consultation process was implemented in June 2012, we have 
completed work on more than 500 program review and audit findings.

    Question 7. When an institution is fined for a Clery Act violation, 
where does that fine go?
    Answer 7. Funds collected as the result of civil penalties imposed 
for Clery Act violations are remitted to the Department of the 
Treasury.
                              senator kirk
    Question 1. Currently, there are less than a dozen staff members 
who are responsible for enforcement of the Clery Act at over 6,000 
colleges and universities. How rigorous is the compliance process, and 
is there insufficient staff to fully accomplish compliance? How often 
are institutions of higher education audited for compliance, and is 
there a backlog for establishing compliance? How will the addition of 
added staff and increased training result in greater compliance and 
enforcement of Federal regulations surrounding campus sexual violence?
    Answer 1. The Department is committed to improving safety for 
students and employees on our Nation's college campuses and to ensure 
compliance with the Clery Act. As such, the Clery Division has 
developed a rigorous compliance oversight and enforcement program that 
includes assessments of high-profile campus crimes and compliance 
checks as part of each general assessment review.
    The centerpiece of the oversight program is the campus crime 
program review process, which I highlighted in my written testimony. 
Program reviews give us an important on-the-ground view of an 
institution's campus safety and crime prevention operations. While 
effective, these reviews are labor and time-intensive and as a result, 
there is a backlog of open cases.
    The Clery Division undertakes a number of the regularly recurring 
reviews. Our team is singularly focused on improving public safety and 
crime prevention on our Nation's campuses with the well-being of our 
students and educators foremost in our minds. Following regular 
recurring review, the Clery Division focuses on enforcement areas that 
require more targeted reviews. The Department understands that optimum 
compliance is best achieved through a balanced mix of enforcement and 
technical assistance.
    The Clery Division's 13 full-time employees manage the workload to 
their best ability with the resources available.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
